<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:02 a.m., in room 192, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Alexander, Collins, Murkowski, 
Graham, Boozman, Capito, Lankford, Kennedy, Shaheen, Leahy, 
Feinstein, Coons, Schatz, Manchin, and Van Hollen.

                         DEPARTMENT OF JUSTICE

STATEMENT OF HON. ROD J. ROSENSTEIN, DEPUTY ATTORNEY 
            GENERAL

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    Mr. Deputy Attorney General, welcome to the Commerce, 
Justice, and Science Appropriations Subcommittee, which will be 
hearing about and examining the Department of Justice's fiscal 
year 2018 budget request.
    I am pleased to welcome you here to your first hearing 
before this subcommittee, and I am grateful that you and 
Attorney General Sessions have brought new, desperately needed 
leadership to the DOJ.
    Your input is helpful and necessary as we review the 
President's spending priorities for the Justice Department in 
order to ensure that the country's national security and law 
enforcement needs are funded appropriately and sufficiently.
    This is a challenging budget climate, as you know. As 
violent crime has risen and terrorism has escalated, fiscal 
constraints have tightened. The President proposes to decrease 
funding at the Department of Justice by $637 million in 2018, 
for a new total of $28.3 billion.
    Since the start of the new administration and during the 
early days of your tenure as the Deputy Attorney General, I am 
pleased that the Department is refocusing on its core mission 
of enforcing our Nation's Constitution and duly enacted laws.
    I believe it is critical that we target our finite law 
enforcement resources towards the worst criminals in our 
society, and I agree with the Attorney General's directive to 
Federal prosecutors to go after the most violent offenders that 
we have in our country.
    Additionally, the importance of prosecuting violent crime 
is reflected in the President's budget request for 230 new 
assistant U.S. Attorneys to help address this growing problem.
    This re-ordering of priorities was further underscored by 
the Attorney General's reversal of the Obama administration's 
lenient charging and sentencing policies, requiring Federal 
prosecutors now to pursue the most serious charges and 
sentences possible.
    The stronger Federal law enforcement approach toward drug 
crimes I believe is critical, and this is a key area where we 
hope to, and I hope you will, see results from more stringent 
prosecution and sentencing.
    The heroin and other drugs crises that we have are fueled 
by drug traffickers who must be brought to justice, I believe, 
under the law.
    The Department has also refocused on the critical problem 
of illegal immigration, making it a priority for prosecutors 
and empowering them to bring felony charges whenever possible 
under the law. Illegal immigration has become one of the most 
critical problems facing our Nation, so it is encouraging to 
learn that President Trump's tough approach is already 
resulting in reduced illegal border crossings.
    To back up the newfound emphasis on tackling illegal 
immigration, the budget request seeks 40 deputy U.S. marshals 
to address the criminal alien problem, 70 additional border 
enforcement prosecutors, 20 attorneys and support staff to 
handle civil condemnation work for the Southwest border wall, 
and 20 attorneys and support staff for immigration litigation 
assistance.
    I also appreciate the Department's related efforts to place 
immigration judges in jurisdictions where they are most needed 
and to quickly hire the immigration judges which this 
subcommittee has previously funded.
    Over the last 8 years, dozens of these benches have gone 
unfilled due to the former administration's failure to act. In 
the meantime, the backlog of immigration cases has grown to a 
staggering number of 600,000.
    The proposed budget seeks an increase of $65 million for 
the Executive Office for Immigration Review to hire another 65 
immigration judge teams on top of the 10 that were just 
provided in the 2017 omnibus. We will closely review the 
details of this request to balance the tremendous need with the 
restrictive budget environment that we are facing.
    I trust that the recent establishment of the Department's 
Task Force on Crime Reduction and Public Safety will continue 
to provide new ideas and recommendations on how our Nation can 
best combat violent crime, illegal immigration, and other law 
enforcement challenges.
    Cybersecurity and counterterrorism remain two of my top 
national security concerns, and I will want to know more about 
how this budget supports the Department's efforts in these 
critical fields.
    I thank you for your testimony today, and we look forward 
to hearing from you during the question period.
    Your entire written statement, Mr. Deputy Attorney General, 
will be made part of the hearing record in its entirety. You 
may proceed.
    Wait a minute. I am moving too fast.
    Senator Shaheen.

                  STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Thank you, Mr. Chairman. I appreciate 
having the opportunity to make a statement this morning, and I 
appreciate your being here, Deputy Attorney General Rosenstein.
    The Appropriations Committee not only holds the purse 
strings for the Federal Government, as you are aware, but it 
also plays a key role in performing oversight for all agencies 
under its jurisdiction, including the Department of Justice.
    I am troubled because, for this subcommittee, it is 
incredibly unusual to hold a hearing with the Deputy Attorney 
General when there is a sitting Attorney General. This is the 
second time that Attorney General Sessions has declined to 
appear before this subcommittee, canceling just days before he 
was scheduled to appear in an open public setting. As the 
Nation's chief law enforcement officer, the Attorney General is 
the most appropriate person to come before the subcommittee and 
testify as to the important work of the Department of Justice.
    DOJ is on the frontlines, fighting the deadly, uncontrolled 
opioid epidemic, which is still gaining strength. The DOJ 
hiring freeze risks the safety of correctional officers in our 
Federal prisons, and, curiously, the request for the Federal 
Bureau of Investigation is less than what Congress provided for 
fiscal year 2017, even while the FBI conducts the crucial 
counterintelligence investigation into Russian influence during 
our 2016 election process.
    While providing testimony before a newly scheduled Senate 
Intelligence Committee hearing is important, the Attorney 
General is still responsible for answering critical questions 
from this subcommittee. He needs to provide his explanation of 
DOJ's budget, as well as a defense of his policies in an open 
public hearing not only for us, but for the American public.
    Mr. Rosenstein, I applaud your appointment of Robert 
Mueller as the Special Counsel to oversee the ongoing 
investigation into Russian interference during the 2016 
election. I believe this will help to depoliticize that 
investigation. However, many questions remain about both your 
and Attorney General Sessions' roles in this matter, your 
knowledge of resource requests made by former Director Comey, 
your involvement in former Director Comey's firing, and your 
prior meetings with Russian officials, among many other 
concerns. I will return to these subjects during my question 
period later and know that many of my colleagues will express 
their concerns in questions as well.
    So, Deputy Attorney General, I look forward to your 
testimony, to our discussion today, and to, at some future 
date, having the Attorney General appear before us in open 
session.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Leahy, do you have an opening 
statement?

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. I do, Mr. Chairman. Thank you, and Ranking 
Member Shaheen, for the opportunity to make these remarks.
    Deputy Attorney General Rosenstein, I will not mince words: 
You are not the witness we were supposed to hear from today. 
You are not the witness who should be sitting behind that 
table. That responsibility lies with the Attorney General of 
the United States.
    Attorneys General of the past did not shy away from this 
Committee's questions, regardless of the topic, regardless of 
the party. Attorneys General of the past did not cower at the 
request of Congress to fulfill its constitutional oversight 
responsibility. And they did not agree to come and then cancel 
at the last minute, and then send their second-in-command in 
their stead because the Members of this Committee may have 
questions they may not want to answer. Until now, that is.
    And so, with respect, Mr. Rosenstein--and I voted for you, 
as you know--you are not who I am interested in speaking with 
or hearing from today.
    I do have questions for the Attorney General. I want to 
know why he provided false testimony to me and to Senator 
Franken. I want to know why, if he was recused from the Russia 
investigation, he played any role in the dismissal of FBI 
Director Comey. I want to know how he believes he can credibly 
lead the Justice Department, for which he has requested $28.3 
billion, amid such distressing questions about his actions and 
his integrity.
    Importantly, I believe the Attorney General of the United 
States, the Nation's chief law enforcement officer, owes it to 
the more than 116,000 Justice Department agents, intelligence 
analysts, attorneys, and support personnel; the roughly 1 
million State, local, and Tribal police officers; and staff 
supporting more than 4,500 local victims assistance programs in 
every State to justify the budget request of the Department of 
Justice.
    He owes them that courtesy because the President's budget 
request for the Justice Department is abysmal. It cuts the 
Department's budget by $643 million from the fiscal year 2017 
enacted appropriations level. The Department's request is built 
on unrealistic assumptions.
    But worse than that, it is also built on the backs of crime 
victims, with a permanent rescission of $1.3 billion from the 
Crime Victims Fund.
    Let me repeat that. The President and the administration 
have talked about how they support the victims of crime, but 
they are asking for a $1.3 billion rescission from the Crime 
Victims Fund.
    I do not know you try to combine the rhetoric with the 
reality, how you can say you are for the victims of crime but--
oh, by the way--we are going to close the door on you.
    Ironically, in a budget touted as tough on crime, the 
President cuts funding for FBI operations and investigations by 
$44 million. We know we have to move ahead with a new FBI 
headquarters. There are no funds for that.
    I have my own suspicions about why the President may seek 
cuts to FBI operations and personnel, but I wanted the Attorney 
General to come here and talk about it.
    Just this week, the Attorney General crowed about how he 
has law enforcement's back, but the Justice Department budget 
slashes $326 million in assistance to State and local law 
enforcement assistance grants--many States, represented on both 
sides of this dais, will feel these cuts.
    The budget slashes funding for anti-opioid and -heroin 
initiatives by more than $27 million from fiscal year 2017 
enacted levels. That includes eliminating $10 million from the 
COPS Anti-Heroin Task Forces, which State and local law 
enforcement teams in areas worst hit by the opioid epidemic use 
for investigations going after street traffickers and networks.
    You know, everybody calls the opioid situation a public 
health crisis. I do not know how the Justice Department 
justifies cutting resources that help our communities with 
prevention, education, and treatment.
    I am not surprised that while they cut out the money for 
opioids, they propose millions of dollars to hire lawyers to 
focus on seizing private land from hardworking Americans along 
the Southwest border so the President can build his misguided 
wall. We will not protect our people but, by golly, we will 
seize their land.
    The unbalanced and misplaced ``priorities'' of this budget 
makes one thing clear: Rather than a ``foundation for American 
greatness'', President Trump and Attorney General Sessions are 
intent on making our communities less safe, abandoning victims 
of crime, and victimizing and villainizing immigrants who 
contribute to our communities.
    Finally, Mr. Rosenstein, regardless of the circumstance for 
your appearance today, I will raise this one point with you. On 
May 1, the Office of Legal Counsel issued an opinion arguing 
that the executive branch is not obligated to meet the 
legitimate oversight requests of individual Members of 
Congress. It opined that only requests from the chairs of 
committees must be met.
    This is an affront to the Congress, a co-equal branch of 
government. I have been here with Republican and Democratic 
administrations. I have been here a number of times when 
Republicans controlled the Senate, a number of times when 
Democrats did. I have never, ever heard anybody, Republican or 
Democrat, make this claim. In fact, we have roundly rejected it 
on both sides of the aisle.
    Judiciary Committee Chairman Grassley, with whom I have 
worked both when I was chair and when I was ranking member, 
called your opinion ``nonsense''.
    Now, the Attorney General has the authority--I actually 
believe he has an obligation--to withdraw that opinion.
    The administration may seek to hide many things from the 
American people, but they should know this: Today's committee 
chairs are tomorrow's ranking members. Obstructing 
congressional oversight will do nothing to advance the 
interests of the American people. This opinion should be 
withdrawn.
    Mr. Chairman, I will put my whole statement in the Record.
    Senator Shelby. Thank you. Without objection.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Thank you, Chairman Shelby and Ranking Member Shaheen, for the 
opportunity to make these remarks.
    Deputy Attorney General Rosenstein, I won't mince words: You are 
not the witness we were supposed to hear from today, and you are not 
the witness who should be sitting behind that table. That 
responsibility lies with the Attorney General of the United States. 
Attorneys General of the past did not shy away from this Committee's 
questions, regardless of the topic. Attorneys General of the past did 
not cower at the request of Congress to fulfill its constitutional 
oversight responsibilities. And Attorneys General of the past did not 
send their second-in-command in their stead because the Members of this 
Committee have questions they may not want to answer. Until now, that 
is.
    And so, with respect Mr. Rosenstein, you are not who I am 
interested in speaking with or hearing from today. I do have questions 
for your superior. I want to know why he provided false testimony to me 
and Senator Franken. I want to know why, if he was recused from the 
Russia investigation, he played any role in the dismissal of FBI 
Director Comey. I want to know how he believes he can credibly lead the 
Justice Department, for which he has requested $28.3 billion, amid such 
distressing questions about his actions and his integrity. Importantly, 
I believe the Attorney General of the United States--the Nation's chief 
law enforcement officer--owes it to the more than 116,000 Justice 
Department agents, intelligence analysts, attorneys, and support 
personnel; the roughly one million State, local, and Tribal police 
officers; and staff supporting more than 4,500 local victim assistance 
programs in every State to justify the budget request of the Department 
of Justice.
    He owes them that courtesy because the President's budget request 
for the Justice Department is abysmal. It cuts the Department's budget 
by $643 million from the fiscal year 2017 enacted appropriations level. 
The Department's request is built on unrealistic assumptions and on the 
backs of crime victims, with a permanent rescission of $1.3 billion 
from the Crime Victims Fund. Let me repeat that: An administration that 
claims to support crime victims is asking for a permanent rescission of 
$1.3 billion from the Crime Victims Fund. How in heaven's name can you 
justify that assault on the rights and needs of crime victims?
    Ironically, in a budget touted as ``tough on crime,'' the President 
cuts funding for FBI operations and investigations by $44 million, and 
fails to provide the needed funding to move ahead with a new FBI 
headquarters. I find these cuts curious, as they come on top of media 
reports that, prior to the President firing him, former FBI Director 
James Comey asked the Department for additional resources for the 
investigation into Russian interference in the 2016 election. I know I 
have my own suspicions about why the President may seek cuts to FBI 
operations and personnel, but the Attorney General should be here to 
justify them.
    Just this week, the Attorney General crowed about how he has law 
enforcement's back. But the Justice Department's budget slashes $326 
million in assistance to State and local law enforcement assistance 
grants, on which our communities rely to keep our neighborhoods, 
children and schools safe, ensure crime victims have the tools they 
need to bring their attackers to justice, and make sure that our tax 
dollars spent on corrections do not simply fuel a revolving door in and 
out of prison. Instead this budget's lowlights include:
  --More than $70 million cut from Byrne-Justice Assistance Grants, the 
        bread and butter of our local law enforcement agencies;
  --$20 million cut from rape kit backlog reduction grants;
  --$22 million cut from youth mentoring grants that support groups 
        like the Boys and Girls Clubs of America, and ensure that our 
        children have safe havens to go after school and during summer 
        months while their parents are at work;
  --$30 million cut from school safety grants, which Congress funded in 
        the aftermath of the tragic shootings at the Sandy Hook 
        Elementary School; and
  --$20 million cut from Second Chance Act grants, which reduce prison 
        recidivism rates.
    This budget slashes funding for anti-opioid and heroin initiatives 
by more than $27 million from fiscal year 2017 levels. This includes 
eliminating $10 million for the COPS Anti-Heroin Task Forces, which 
State and local law enforcement teams in areas worst hit by the opioid 
epidemic use for investigations and going after street traffickers and 
networks. Just this weekend, The Washington Post reported that the 
opioid epidemic is now pushing up death rates for nearly every group of 
Americans. How--when everyone calls this a public health crisis--does 
the Justice Department justify cutting resources that will help our 
communities with prevention, education, and treatment?
    I am not surprised that the budget before us proposes millions of 
dollars to hire lawyers to focus on taking private land from 
hardworking Americans along the southwest border so that the President 
can build his misguided wall. I am also not surprised that the Justice 
Department budget seeks to punish local law enforcement and victims of 
domestic and sexual violence and other violent crimes by pushing a 
misguided and misdirected expansion of conditions placed on so-called 
``sanctuary cities.'' The unbalanced and misplaced ``priorities'' of 
this budget makes one thing clear: rather than a ``foundation for 
American greatness,'' President Trump and Attorney General Sessions are 
intent on making our communities less safe, abandoning victims of 
crime, and villainizing immigrants who contribute to our communities.
    Finally Mr. Rosenstein, regardless of the circumstances for your 
appearance today, I will raise this one point with you. On May 1, the 
Office of Legal Counsel issued an opinion arguing that the executive 
branch is not obligated to meet the legitimate oversight requests of 
individual members of Congress. It opined that only requests from the 
chairs of Committees must be met. This is an affront to the Congress--a 
co-equal branch of government--and the argument the OLC makes has been 
roundly rejected on both sides of the aisle. Judiciary Committee 
Chairman Grassley--with whom I worked as both chair and ranking member 
on a number of oversight matters--called this opinion ``nonsense.'' The 
Attorney General has the authority, and I believe an obligation, to 
withdraw that opinion. This administration may seek to hide many things 
from the American people. But this administration should know this: 
Today's committee chairs are tomorrow's ranking members. Obstructing 
congressional oversight will do nothing to advance the interests of the 
American people. This opinion should be withdrawn.

    Senator Shelby. Mr. Rosenstein, you may proceed.

              SUMMARY STATEMENT OF HON. ROD J. ROSENSTEIN

    Mr. Rosenstein. Thank you. Good morning, Chairman Shelby, 
Ranking Member Shaheen, Members of the subcommittee. I am 
honored to present the President's fiscal year 2018 budget for 
the Department of Justice.
    Our proposed budget advances the interests of the American 
people by allowing the dedicated men and women of the 
Department of Justice to continue their outstanding work. We 
are grateful for your strong support, and we look forward to 
building on our successes as we work to protect the Nation, 
promote the rule of law, and to ensure equal justice for all.
    Our 2018 budget request shows a strong commitment to the 
Justice Department's top priorities. It provides more funding 
to fight terrorism and cybercrime, to reduce violent crime, to 
tackle the opioid epidemic, and to combat illegal immigration. 
It also gives us the resources we need to support our State, 
local, and Tribal partners in their essential law enforcement 
work.
    This budget reflects three important themes: number one, 
truth in budgeting; number two, increases in efficiency; and 
number three, focusing on priorities.
    These changes are critical and they support the executive 
order of the President to reorganize government agencies for 
the goal of increasing efficiency and effectiveness.
    A first, the budget is an honest one, eliminating from the 
books thousands of previously unfunded and vacant positions 
that give a misleading impression of the personnel we have on 
duty in the Department. Those ghost positions, in most cases, 
have been vacant for years or have never been filled at all.
    Secondly, this budget seeks to identify areas where we can 
afford to cut back without harming our mission.
    And, finally, the budget improves the allocation of our 
precious resources so that we can do the most effective work 
with every taxpayer dollar that we spend.
    National security remains our highest priority. We face a 
wide array of evolving threats from terrorism to espionage and 
cybercrime.
    We also need to come to terms, Senators, with the ``Going 
Dark'' challenge, which I know you are all familiar with. 
``Going Dark'' refers to law enforcement's increasing inability 
to lawfully access, collect, and intercept real-time 
communications and stored data. Even with a warrant, as a 
result of changes in technologies, this phenomenon severely 
impairs our ability to conduct investigations and bring 
criminals to justice.
    Our law enforcement officers operate within the 
Constitution, and they respect legitimate privacy interests. 
When there is a legitimate law enforcement need to access 
electronic information, and we have a court order or other 
legal authority, public safety is jeopardized when we are 
unable to retain that relevant information. Our Department must 
keep adapting to evolving challenges.
    To that end, the budget provides an extra $98.5 million to 
combat terrorism, espionage, and cybersecurity threats.
    The Justice Department also is committed to protecting the 
American people from violent crime and from the adverse effects 
of illegal drug distribution, both of which are spiking at 
alarming rates. Violent crime is rising in many areas of our 
Nation, and drug-related injuries and deaths are increasing 
across the country.
    Senators, the evidence of this is indisputable. Rising 
violent crime and increasing drug abuse are devastating many 
American families, and the Justice Department is confronting 
these crises head-on, and we need your help.
    The proposed budget provides the Department's law 
enforcement agencies with extra support, so they can target the 
worst violent criminals, transnational crime organizations, 
gangs, and drug-trafficking rings. It also provides, as the 
chairman mentioned, for 230 additional assistant U.S. Attorneys 
to focus specifically on our efforts to fight violent crime. 
Those additional resources will enhance the ability of Federal 
law enforcement to fight crime and to keep our communities 
safe.
    We are focusing also on getting illicit drugs off the 
streets through strong enforcement efforts and through our drug 
takeback programs. In addition to that, we call on doctors, 
pharmacists, and pharmaceutical companies to take a hard look 
at their practices and help us develop ways that we can reduce 
the harmful overprescription of pharmaceutical drugs.
    The American people also expect our government to secure 
our borders and to restore a lawful system of immigration. The 
Department of Justice will do our part in conjunction with the 
Department of Homeland Security. Our proposed budget provides 
much-needed funding to hire 75 additional immigration judges 
and support personnel to reduce the unacceptable backlog in our 
immigration courts. It will also allow us to hire more deputy 
U.S. marshals and 30 more border enforcement prosecutors so 
that we can effectively apprehend and prosecute criminal aliens 
who threaten our communities.
    The Federal Government, of course, does not maintain public 
safety alone. Eighty-five percent of the law enforcement 
officers in our country are not Federal. They work for our 
State, local, and Tribal partners, and we rely on them heavily. 
The men and women serving on the frontlines are our first line 
of defense, and they help to keep our communities safe. They 
deserve our support.
    Our budget maintains our commitments to these valued 
partners, and it prioritizes grant funding to the high-
performing programs that have proven to be effective.
    This budget funds important priorities while helping us 
achieve a more efficient and cost-effective Department. We will 
do all we can to be good stewards of the Department's 
resources. We have a duty to avoid waste and to safeguard 
taxpayer money so it will be available to fight crime and 
protect people.
    The Department of Justice is home to 115,000 honorable men 
and women who work every day to serve, protect, and defend the 
American people and respect the Constitution of the United 
States. This budget makes it possible for us to do our jobs 
with the investments set forth in the budget. And with your 
support, we will continue to fairly enforce our Nation's laws 
and ensure safety and equal justice for all Americans.
    So I look forward to working with this subcommittee and the 
Congress in the months and years ahead.
    If I may, Senators, with my few remaining moments, I 
learned this morning about an incident in Georgia in which we 
understand that two correctional officers were murdered in the 
course of transporting prisoners in Georgia. I talked with the 
Marshals Service Director David Harlow this morning, and we 
have committed all Federal resources to help catch those 
fugitives and hold the perpetrators accountable.
    Our thoughts are with the victims and their families and in 
support of law enforcement personnel who are working on the 
case as we sit here today. An attack on any American law 
enforcement officer is an attack on every American law 
enforcement officer and on the principles that we all believe 
in.
    Senators, I will be happy to take any questions about our 
proposed budget, and I look forward to that.
    Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Rod J. Rosenstein
    Good morning, Chairman Shelby, Ranking Member Shaheen, and other 
Members of the subcommittee. I am honored to appear before you today to 
present the President's fiscal year 2018 budget for the Department of 
Justice. The Department looks forward to building on our successes and 
continuing progress on the most pressing issues affecting our 
communities and our citizens.
    Let me start by thanking you for your strong support for the 
Department in the recently completed fiscal year 2017 bill. The 
President's fiscal year 2018 budget requests $27.7 billion in 
discretionary authority for the Department of Justice, including $25.8 
billion for Federal programs and $1.9 billion for State, local, and 
Tribal assistance programs. The Department's fiscal year 2018 budget 
proposal aims to support Federal law enforcement priorities and the 
criminal justice needs of our State, local and Tribal law enforcement 
partners. The request advances the safety and security of the American 
people, because without safety there can be no prosperity. In this 
regard, this budget includes increases in funding to confront 
terrorism, pursue cybercriminals, reduce violent crime, tackle the 
Nation's opioid epidemic, and combat illegal immigration.
    The key Department funding priorities include:
  --Ensuring the security of the country and safety of the American 
        people.--The budget allocates an additional $98.5 million to 
        enhance our abilities to combat terrorism, espionage, and 
        cybersecurity threats through the investigation, apprehension, 
        and prosecution of foreign and domestic perpetrators.
  --Combatting violent crime and the opioid epidemic.--The budget will 
        support efforts at the Department's law enforcement agencies by 
        providing an increase of $198.5 million to target the worst of 
        the worst criminal organizations and drug traffickers by 
        addressing the violent crime and opioid epidemics that are 
        ravaging our Nation. Of particular note, this budget will 
        provide for 230 new Assistant United States Attorneys to 
        address violent crime across the country.
  --Combatting illegal entry and unlawful presence in the United 
        States.--The budget provides a much-needed increase of nearly 
        $75 million for the hiring of 75 additional immigration judges 
        and associated support staff at the Executive Office for 
        Immigration Review (EOIR) to bolster its efforts to more 
        efficiently adjudicate removal proceedings. Further, it 
        enhances border security and immigration enforcement by 
        providing 70 additional border enforcement prosecutors and 40 
        deputy U.S. Marshals for the apprehension, transportation, and 
        prosecution of criminal aliens.
  --Promoting partnerships with State, local, and tribal entities.--The 
        budget provides $5.1 billion in discretionary and mandatory 
        funding for State, local, and tribal law enforcement assistance 
        to maintain our commitments to our partners without reducing 
        our Federal operational role. These programs focus on ensuring 
        the implementation of critical training that protects the lives 
        of State and local law enforcement personnel. In addition, the 
        Crime Victims Fund mandatory appropriations provide $3.0 
        billion in funding.
  --Reprioritizing and reshaping resources for a smaller, more 
        efficient Department.--In line with the President's Executive 
        Order on a ``Comprehensive Plan for Reorganizing the Executive 
        Branch,'' this budget request focuses on funding increases in 
        priority initiatives that secure the safety and prosperity of 
        the American people.
 ensuring the security of the country and safety of the american people
    National security remains the Department's highest priority. The 
Department will always maintain its commitment and responsibility to 
safeguard American citizens and defend the homeland while maintaining 
our Constitutional principles. Threats are constantly evolving, 
requiring additional investments to mitigate those threats in 
innovative ways. Terrorists seek to sabotage critical infrastructure; 
organized crime syndicates seek to defraud individuals, governments, 
banks and corporations; and spies seek to steal defense and 
intelligence secrets and intellectual property. All endanger our 
Nation's economy and security.
    The fiscal year 2018 budget will support the Department's ability 
to respond to these evolving threats by reprioritizing $98.5 million 
that will provide program increases for the areas of (1) combatting 
domestic and foreign terrorism; (2) intelligence collection and 
analysis; (3) cybercrime; and (4) investigative and law enforcement 
technology.
    Today's domestic and foreign terrorist threats are complex, and 
require the Federal Bureau of Investigation (FBI) to make adjustments 
in methods and capabilities while maintaining and improving procedures 
that are working well. Accordingly, the budget request will provide 
$8.2 million to conduct physical surveillance on high priority targets.
    The Department has developed a proactive, intelligence-based 
strategy to predict, detect, and deter those who wish to harm the 
American people and the national interest. The FBI will devote $19.7 
million to address the threats posed by foreign and insider operations.
    Cybercrimes are becoming more common, more sophisticated, and more 
dangerous. Our adversaries increasingly use computers and the Internet 
to advance their illicit activities. The Department has a unique and 
critical role in cyber security that emphasizes countering and 
mitigating cyber threats by investigating, prosecuting, and providing 
legal and policy support for intrusion and cybercrime cases. The 
Department's fiscal year 2018 budget provides $41.5 million to enhance 
the technical capabilities of FBI investigative personnel, increase the 
number of cyber investigations, and improve cyber collection. 
Intrusions of private sector and government networks over recent years 
have highlighted the increasing capabilities of these cyber actors. 
Safeguarding information networks that hold personal and private data 
is a top priority. The Department is using every tool at its disposal 
to work proactively, respond swiftly, and adapt constantly to this 
threat.
    The Department of Justice must continue to take a leading role in 
enhancing the capabilities of the law enforcement and national security 
communities. This budget request will provide $21.6 million in funding 
to counter the ``Going Dark'' threat. The seriousness of this threat 
cannot be overstated. ``Going Dark'' refers to law enforcement's 
increasing inability to lawfully access, collect, and intercept real-
time communications and stored data, even with a warrant, due to 
fundamental shifts in communications services and technologies. This 
phenomenon is severely impairing our ability to conduct investigations 
and bring criminals to justice. The FBI will use this funding to 
develop and acquire tools for electronic device analysis, cryptanalytic 
capability, and forensic tools. The Department's role has been to 
collect, house, analyze, and share critical data among our Federal, 
State, local, and Tribal partners. The fiscal year 2018 budget supports 
the operations and maintenance of the Biometrics Technology Center, 
operated collaboratively between the FBI and Department of Defense, 
with a $7.4 million investment.
            combatting violent crime and the opioid epidemic
    Violent crime and drug abuse are increasingly commonplace 
throughout our country. While today's overall crime rates are near 
historic lows, recent trends indicate that those levels are at risk. 
Updated FBI statistics show that from 2014 to 2015, violent crime has 
increased more than 3 percent, which is the largest 1 year increase in 
the last 24 years. The murder rate has increased 10 percent, the 
largest increase since 1968. Compounding this issue is the opioid and 
illegal drug epidemic. Heroin overdose deaths have more than tripled 
from 2010 to 2014, while illegal drugs flood across our borders into 
cities and towns, bringing violence and tragedy with them. Protecting 
the people of this country from violent crime is a high calling of the 
men and women of the Department of Justice. Today, it has become more 
important than ever.
    Consistent with the President's Executive Orders, the fiscal year 
2018 budget requests $198.5 million to (1) reduce violent crime; (2) 
combat the prescription drug and opioid epidemic; and (3) target 
Transnational Criminal Organizations. These resources will enable the 
Department to target and dismantle the worst criminal organizations and 
drug traffickers that are bringing violence, death, and destruction to 
our communities. The Department of Justice utilizes a comprehensive set 
of programs that leverage law enforcement operations, prosecutorial 
action, and support for State and local governments to combat the 
violent offenders in our communities.
    The Department's approach to combatting violent crime includes a 
request for $50 million that will go to support ballistics tracing, 
expedite National Firearms Act applications, address the high volume of 
criminal background checks, and replace body armor and radios for 
deputy U.S. Marshals. The National Integrated Ballistic Information 
Network (NIBIN) will be supported with $6.5 million that will provide 
additional office space, crime gun intelligence, training for State and 
local partners, and equipment needed for operations. We request $19 
million to support a multi-agency Violent and Gun-Related Crime 
Reduction Task Force. This will enhance investigative capabilities and 
prosecutorial capacity. The task force will strategically focus on the 
hardest hit urban areas by using innovative methods to track and 
apprehend individuals, organizations, and gangs and is composed of the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), Drug 
Enforcement Administration (DEA), FBI, United States Marshal Service 
(USMS), and the United States Attorneys. Funding will bolster 
investigative capacity, apprehension efforts, and grants to State and 
local partners.
    The budget request includes an increase of $40.4 million, for a 
total of $625.2 million, in Departmental resources directed to 
combatting the prescription drug and heroin epidemic. The Department 
will take a two-pronged approach to tackling this scourge. First, this 
funding will support the investigation and prosecution of criminals 
that are bringing the illicit drugs into our communities. Second, we 
will leverage our relationships with medical providers, educators, and 
community leaders to increase awareness, education, and treatment. This 
request also funds the DEA's Diversion Control Program. These resources 
will increase regulatory and investigative capacity under the 
Controlled Substances Act.
    The Department will target the most notorious violent criminals, 
gangs, and drug trafficking rings. The fiscal year 2018 request 
includes $5.8 million for OCDETF, $6.8 million for FBI, and $6.5 
million for DEA--all to confront, disrupt, and dismantle transnational 
organized crime. Also included is $18.8 million not financed by adding 
money to the Department budget, but by redirecting current resources 
and reprioritizing Department missions to support the hiring of 230 new 
Assistant United States Attorneys to combat all types of violent crime 
through comprehensive prosecution and prevention efforts.
  combatting illegal entry and unlawful presence in the united states
    The President's fiscal year 2018 budget places a priority on 
enhancing border security and improving enforcement of immigration 
laws. The backlog of immigration cases, as well as the upward trend in 
transnational crime, present crucial threats that must be addressed. 
The budget request of $144.9 million will allow the Department to 
secure our borders with the full weight of both the immigration courts 
and Federal law enforcement to preserve America's national security.
    The efforts of the Department of Homeland Security (DHS) to 
increase immigration enforcement have resulted in an 87 percent 
increase in the number of cases brought before our immigration courts. 
The requested resources will allow the Department's Executive Office 
for Immigration Review (EOIR) to respond by providing 75 new 
immigration judges and associated support staff to efficiently and 
effectively adjudicate these cases. To support the efforts of DHS and 
EOIR, the U.S. Attorneys offices will add 70 additional border 
enforcement prosecutors and the Civil Division's Office of Immigration 
Litigation (OIL) will add 20 additional positions to defend the Federal 
Government's immigration enforcement efforts.
    Transnational gangs and international cartels flood our country 
with drugs and leave death and violence in their wake. Criminal aliens 
and document forgers undermine our system of lawful immigration. The 
President's Executive Orders on Border Security, on Transnational 
Criminal Organizations, and on Public Safety are our guideposts. We 
will execute a strategy that secures the border; apprehends and 
prosecutes criminal aliens who threaten our public safety; combats 
gangs; and dismantles and destroys the cartels.
     promoting partnerships with state, local, and tribal entities
    The fiscal year 2018 budget maintains the Department's commitments 
to State, local, and Tribal law enforcement partners without reducing 
the Department's Federal operational role. This funding will ensure 
greater safety for law enforcement personnel and the citizens they 
serve. The fiscal year 2018 discretionary and mandatory request for 
State, local, and Tribal law enforcement assistance is $5.1 billion.
    The fiscal year 2018 request for the Office of Justice Programs 
(OJP) is $4.4 billion, including $1.3 billion for discretionary grant 
programs and $3.1 billion for mandatory programs. The budget includes 
$70 million for a new, Project Safe Neighborhood (PSN) Block Grant 
program, which will build on the work of the Department's ongoing PSN 
initiative to create safer neighborhoods through sustained reductions 
in gang violence and gun crime.
    The fiscal year 2018 request for the Office of Community Oriented 
Policing Services (COPS) totals $218 million, which includes $207 
million for the COPS Hiring Program of which $30 million is dedicated 
for Tribal law enforcement. The Office on Violence Against Women (OVW) 
fiscal year 2018 request totals $480 million, and includes $215 million 
for the STOP program, which provides critical funds to States to 
support their responses to violence against women. Another $35 million 
of the request will support the Sexual Assault Services Program, 
dedicated to direct intervention and related assistance for victims of 
sexual assault.
 reprioritizing and reshaping resources for a smaller, more efficient 
                               department
    In executing the President's Executive Order on a ``Comprehensive 
Plan for Reorganizing the Executive Branch,'' the Department of Justice 
is dedicated to good stewardship of taxpayer dollars. As an example, 
the Department's fiscal year 2018 request dedicates $274.7 million, an 
increase of $24.9 million, to support our work against civil and 
criminal healthcare fraud. The most recent projections show that the 3-
year average return on investment on healthcare fraud funding for the 
Department and HHS is $5 to every $1 invested. This is the type of 
stewardship that protects the vulnerable and provides significant 
returns to the American people.
    I am honored to submit the President's fiscal year 2018 budget 
request. This request funds the Department's priorities and will result 
in a more cost-effective Department. As Deputy Attorney General, I am 
committed to making the Department of Justice run as efficiently as 
possible, without adding to the burden on the American taxpayer.
                               conclusion
    Chairman Shelby, Ranking Member Shaheen, and Members of the 
subcommittee, it is my pleasure to highlight our efforts to be good 
stewards of the resources and authorities bestowed on us as we 
strengthen the Department's ability to ensure public safety and equal 
justice for all Americans. I thank you for your past support of the 
Department's financial needs, and for the opportunity to present our 
fiscal year 2018 budget request. I look forward to working with you 
through the upcoming fiscal year to ensure that the Department of 
Justice remains on solid financial footing and can accomplish its 
multiple and varied missions effectively.

    Senator Shelby. Thank you for your testimony. I am sure you 
are going to have a lot of questions. I will try to stay within 
the budget area that I am interested in this morning.
    Mr. Rosenstein, what specifically is the Department of 
Justice doing to accelerate the hiring of new immigration 
judges?

                              IMMIGRATION

    Mr. Rosenstein. Thank you, Senator. This has been one of my 
top priorities. As you know, I have been in the job for 6 
weeks. And I learned when I took the position----
    Senator Shelby. Can you take the mike up to you a little 
bit.
    Mr. Rosenstein. I learned very early in my tenure about 
this extraordinary backlog in immigration cases, and that has 
been one of my top priorities, to address that. Our fiscal year 
2018 budget includes $145 million to enhance border security 
and immigration enforcement. And that includes, as I mentioned 
in my opening statement, 75 new immigration judge teams. I 
believe it is approximately 450 people, the judges and their 
support staff, and $75 million to address that backlog, which 
exceeds 500,000 and is approaching, as the chairman mentioned, 
600,000.
    It also includes additional assistant U.S. Attorneys and $7 
million to prosecute violations of immigration laws, additional 
deputy U.S. marshals, and additional attorneys in the Civil 
Division.
    But with regard specifically to your question about the 
backlog, Senator, we are very focused on that. One of the 
challenges that we had was some bureaucratic delays in hiring 
and filling vacancies. So in addition to creating 75 new judges 
and filling those positions and their support personnel, we are 
also expediting the hiring of immigration judges to fill the 
existing vacancies.
    So it is a big challenge. I have talked with the leadership 
of that office, and we are going to make it a top priority to 
first put an end to the increase in the backlog and then to 
work on ways that we can more efficiently and more quickly 
reduce that backlog. Because my view, Senator, is that 
everybody who has a case pending in our immigration court 
deserves an expeditious resolution of that case.
    Senator Shelby. Can you move and are you moving some judges 
around to where they are most in need? There has to be a surge 
somewhere.
    Mr. Rosenstein. Yes, in fact, we have moved some 
immigration judges to the border districts, I believe, and we 
are going to continue looking at that. Obviously, we have the 
75 who are proposed in this budget. We have, I believe, 
approximately 56 vacancies that already exist, and we are 
certainly going to put those judges where we think they are 
most needed and where we think they can do the most good.

                            COUNTERTERRORISM

    Senator Shelby. Getting into counterterrorism, you know 
that is a top priority for this subcommittee, and I believe it 
is for the Justice Department, too. Of course, the FBI's 
Terrorist Explosive Device Analytical Center, we call it TEDAC, 
is very critical, given that IEDs are still prevalent and 
dangerous tools, as you know, used by terrorists at home and 
abroad, and could and probably will visit us in a big way in 
this country.
    The forensics investigations conducted by TEDAC personnel 
led to the convictions of the shoe bomber, the Boston marathon 
bomber, and other terrorists. So you probably can understand 
some of our disappointment when the Department's budget request 
included a $76 million reduction proposal for the FBI's 
construction account, which includes facilities for TEDAC. That 
is hard for us to swallow.
    Mr. Rosenstein. Yes, Senator. My understanding of that--as 
you mentioned, the TEDAC was formally designated to serve as 
our single strategic center to investigate IEDs, explosive 
devices, in January 2015. And I think it has been 
extraordinarily valuable, as you mentioned, in investigations 
and in training for the government.
    My understanding, Senator, with regard to that $76 million, 
and this is based upon our career experts, some of whom are 
sitting behind us, is this was a one-time, nonrecurring 
request, and we simply did not have the need for additional 
construction funds this year. It does not reflect any lack of 
support for the operations of the TEDAC. We believe it is a 
very efficient and effective operation, and we intend to 
continue supporting it. We simply do not need that additional 
construction funding this year.
    Senator Shelby. Okay. We are going to have to work on that. 
We will try to work with you.

                            SANCTUARY CITIES

    Sanctuary cities, this is an ongoing problem in our 
country, and you know this very well. My question, grants 
awarded to State and local jurisdictions are tied to compliance 
with Federal laws, as I understand. And the Bureau of Prisons 
must give Immigration and Customs Enforcement officials 
priority regarding Federal detainers.
    Is that correct? Do you want me to state that again?
    Mr. Rosenstein. I am sorry? Priority?
    Senator Shelby. I understand that grant awards to State and 
local jurisdictions are tied to compliance with all Federal 
laws.
    Mr. Rosenstein. Yes, that is correct.
    Senator Shelby. And that the Bureau of Prisons must give or 
should give Immigration and Customs Enforcement officials 
priority regarding Federal detainers.
    Mr. Rosenstein. I do not believe we have an issue with 
cooperation from the Federal Bureau of Prisons. That is 
correct, Senator.
    Senator Shelby. This is a problem, though, in the country, 
is it not?
    Mr. Rosenstein. It is a challenge with regard to some State 
and local facilities that do not honor our immigration 
detainers.
    Senator Shelby. I have a few other questions for the 
record, but there are a lot of people wanting to question you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.

                            SPECIAL COUNSEL

    Mr. Rosenstein, many news outlets both last night and this 
morning have reported that President Trump is considering 
firing Special Counsel Robert Mueller. Under the regulations 
governing the appointment of a Special Counsel, 28 C.F.R. 600, 
and I quote, ``The Special Counsel may be disciplined or 
removed from office only by the personal action of the Attorney 
General. The Attorney General may remove a Special Counsel for 
misconduct, dereliction of duty, incapacity, conflict of 
interest, or for other good cause, including a violation of 
departmental policies. The Attorney General shall inform the 
Special Counsel in writing of the specific reason for his or 
her removal.''
    Now, Mr. Rosenstein, in this matter, you are actually the 
one exercising hiring and firing authority, because Attorney 
General Sessions is recused.
    Is that correct?
    Mr. Rosenstein. Yes, that is correct.
    Senator Shaheen. At this point, have you seen any evidence 
of good cause for firing Special Counsel Mueller?
    Mr. Rosenstein. No, I have not.
    Senator Shaheen. Have you given the Special Counsel full 
independence from the Justice Department to conduct this 
investigation?
    Mr. Rosenstein. Yes, Senator. I appreciate that question. 
At the last hearing I attended, I explained it would require a 
long time to explain exactly why I am confident that he has 
full independence.
    The short answer is, though, that that regulation, as you 
may know, was written and implemented during the Clinton 
administration under the authority of Attorney General Reno. I 
know the folks who wrote that. They wrote it to deal with these 
sorts of situations. And I am confident that he will have 
sufficient independence.
    And it is certainly theoretically possible that the 
Attorney General could fire him, but that is the only person 
who has the authority to fire him. And in fact, the chain of 
command for the Special Counsel is only directly to the 
Attorney General or, in this case, the Acting Attorney General. 
So nobody else in the Department would have authority to do 
that.
    And you have my assurance that we are going to faithfully 
follow that regulation and Director Mueller is going to have 
the full degree of independence that he needs to conduct that 
investigation appropriately.
    Senator Shaheen. Is there a record that gives him that full 
independence? Is that done in a letter or an order from you as 
the Deputy Attorney General?
    Mr. Rosenstein. Yes, Senator. It is done in the order, 
which I believe was issued on May 17. The order references the 
regulation from which you have read. And so that is the source 
of his authority.
    Senator Shaheen. Thank you.
    You mentioned in your opening statement the importance of 
the budget request for 230 assistant U.S. Attorneys. I 
certainly agree that is important. I am concerned, however, 
that we had an en masse firing of U.S. Attorneys throughout the 
country. And, as far as I know, at least in New Hampshire, the 
Administration has not made any nominations to replace the 
person who was fired.
    Can you tell me how many U.S. Attorneys have been nominated 
throughout the country?
    Mr. Rosenstein. I believe, Senator that the President 
announced his first set of nominations yesterday, and I believe 
there were seven or eight in that first round.

                       U.S. ATTORNEY APPOINTMENTS

    What I can assure you is that we are moving very 
expeditiously. I think there has been some press that I think 
may be somewhat misleading about that. I believe that we are 
actually going to be ahead of most recent administrations in 
the speed by which we are appointing U.S. Attorneys. It is 
obviously very important to me, because I spent 12 years 
serving as U.S. Attorney, and I know how important good U.S. 
Attorneys are to the operation of the Department of Justice. In 
fact, the last two Saturdays I have spent in the Department 
interviewing candidates for about 10 districts each weekend. So 
we anticipate that, by the end of the summer, we will see a 
large number of U.S. Attorneys nominated throughout the 
country.
    Senator Shaheen. Well, I am certainly glad to hear that. It 
is my understanding that, at least in New Hampshire, we have 
not seen wholesale firing of U.S. Attorneys in the way that we 
did in this administration. Was there a reason why every U.S. 
Attorney in the country was fired on the same day?
    Mr. Rosenstein. So, Senator, I am pleased to tell you not 
everyone was fired because I was one of the U.S. Attorneys that 
day.
    Senator Shaheen. Good.
    Mr. Rosenstein. There were four who were not fired, but I 
was not in the Department at that time. I learned about the 
firings after the decision had been made, so I have no insight 
into why that decision was made.
    Senator Shaheen. You mentioned in your opening statement 
the tragedy in Georgia and the officers who were murdered. It 
is a reminder that those who work in our prisons have a very 
difficult job that is very dangerous.
    I am troubled by the fact that, while the administration's 
hiring freeze was lifted in April, the Department of Justice 
has been under a self-imposed hiring freeze since mid-February. 
And while there was a blanket exemption for positions relating 
to public safety and national security, that provision does not 
include the Bureau of Prisons, which is still under a hiring 
freeze.

                     DEPARTMENT GUIDANCE ON HIRING

    In fact, in New Hampshire, FCI Berlin had extended 
conditional offers to seven potential employees, five of whom 
were correctional officers, but due to the imposition of the 
hiring freeze, those positions were canceled by DOJ, so they 
were not able to go forward with those hirings.
    As you point out, this is a difficult job. Can you explain 
why we continue to have a hiring freeze for correctional 
officers at the Bureau of Prisons?
    Mr. Rosenstein. Senator, I appreciate that question. I 
think there may be some misunderstanding about this. The 
Department froze BOP hiring at the headquarters in Washington 
and at the regional administrative offices. But my 
understanding is that the Department allowed BOP institutions 
to continue hiring up to their staffing levels as of January 
22, which means that, if people left, they would be able to 
fill those vacancies.
    So within that overall level of staffing, I believe we have 
left the discretion with BOP to hire for whichever positions it 
believes are most critical to its operations. Now, obviously, 
there has been a continuing decline in the number of Federal 
prisoners and, commensurately, probably less of a need for 
personnel.
    But I am going to go back and talk with the Director Kane 
about that and make sure that we do have proper staffing for 
that prison. As far as I know, he, indeed, does have discretion 
to fill those positions, if he thinks it is appropriate.
    Senator Shaheen. I appreciate your willingness to do that 
and would urge you to follow through. It is my understanding 
that, because the positions were not officially filled by the 
time of the February guidance, that they were canceled by DOJ.
    Mr. Rosenstein. I will look into that.
    [The information follows:]

    The hiring freeze as interpreted by the Department, applied to BOP 
positions that were vacant as of January 22, 2017; this guidance 
covered the positions you highlighted. Subsequently, the BOP has been 
permitted to hire staff and fill positions at its institutions, so long 
as BOP do not exceed the staffing level that existed on January 22, 
2017. The BOP is presently reviewing vacancies at all of its 
institutions.

    Senator Shaheen. Thank you.
    Senator Shelby. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                            SPECIAL COUNSEL

    Deputy Attorney General Mr. Rosenstein, I just want to 
follow up quickly on the two questions that Senator Shaheen 
asked you about the Special Counsel.
    Has the President ever discussed with you the appointment 
of the Special Counsel or discussed the Special Counsel in any 
way?
    Mr. Rosenstein. No, he has not.
    Senator Collins. And second, if President Trump ordered you 
to fire the Special Counsel, what would you do?
    Mr. Rosenstein. Senator, I am not going to follow any 
orders unless I believe those are lawful and appropriate 
orders.
    Under the regulation, Special Counsel Mueller may be fired 
only for good cause, and I am required to put that cause in 
writing. And so that is what I would do. If there were good 
cause, I would consider it. If there were not good cause, it 
would not matter to me what anybody says.
    Senator Collins. Thank you.

                       HEROIN AND OPIOID EPIDEMIC

    I want to turn to the opioid crisis, which plagues my State 
and so many others. Last year, drug overdoses were responsible 
for more than 59,000 deaths in this country, including a record 
376 such deaths in Maine.
    That is 104 more overdose deaths than the year before in my 
State, so we are not making progress. The situation is actually 
getting worse, despite considerable efforts on the part of so 
many.
    Last year, I was briefed in Maine by Federal law 
enforcement officers who told me that they had seen a major 
influx of drug dealers coming from out of State with the direct 
ties to gangs in major cities. As well as the Mexican drug 
cartels. For example, in one case, gang members trafficked 
heroin between New Haven, Connecticut, and Bangor, Maine, where 
I live. They traded drugs for firearms and then distributed 
those firearms to other gang members upon their return to 
Connecticut.
    We obviously need a multipronged approach to the heroin and 
opioid crisis. That includes treatment, education, prevention, 
and law enforcement. And key to that law enforcement leg of the 
stool is cooperation among Federal, State, and local officials. 
The Department's budget requests $3 million less than Congress 
appropriated for the Comprehensive Addiction and Recovery Act 
programs for the current fiscal year. And even more troubling 
to me there is no funding proposed for the COPS Anti-Heroin 
Task Force. In my State, this program has helped law 
enforcement officers seize heroin and prescription opioids, and 
arrest drug dealers.
    Why is the administration proposing this cut in the CARA 
funding and eliminating the funding for the COPS Anti-Heroin 
Task Force?
    Mr. Rosenstein. Senator, I appreciate that question.
    I think there are a lot of issues. For me, this is actually 
one of the most important issues that I hope to talk about 
today. I do not know if I can give a complete answer in 1 
minute, 35 seconds, but let me tell you, I actually brought 
with me a chart that I think would be of interest to you.
    This is a chart of drug overdose deaths in the United 
States of America. This issue first came to my attention as 
U.S. Attorney in Maryland about 3 or 4 years ago when it was 
brought to my attention that there had been a significant spike 
in deaths attributable to opioid drugs in our State, and it has 
only accelerated since then.
    These are frightening numbers, Senator. The final 
statistics from 2015 reflect about 52,000 Americans lost their 
lives to drug overdoses that year, and we believe the 2016 
projections may be over 60,000. It will be sometime before we 
have final numbers.
    More than half, a substantial proportion of those, are 
attributable to opioid drugs. When I first learned about this, 
we were talking about the heroin crisis, and people thought 
about heroin and oxycodone, which is a lawful prescription drug 
that often can be abused. Increasingly, the challenge we face 
is about fentanyl, which is an even more hazardous drug that 
poses a danger even to our first responders, our police, our 
firefighters, and paramedics who are responding to scenes of 
overdoses, because of how deadly and dangerous that drug can 
be.
    So this is a very significant challenge to us. There are a 
lot of issues, a lot of ways we can go about addressing it, one 
of which you talked about, the gangs that bring drugs into your 
home State. I know from my experience as U.S. Attorney, that is 
an area where our Federal prosecutors and our DEA agents can do 
a lot of good.
    And law enforcement is not the only solution to the heroin 
and opioid crisis. But from our perspective, it is an important 
part. It is one of the key tools the Department of Justice has 
to target these organizations that try to identify the sources 
of supply and put those drug dealers out of business.
    So one of the most important things I think that we are 
going to do this year under this budget is that we are going to 
be able to fund about 900 additional employees for DEA. These 
are not new positions. My understanding from our budget experts 
is that these are positions that are existing, but, for the 
most part, were not filled because of budgetary constraints.
    So we anticipate we will have up to 900 more personnel on 
the frontlines of DEA. We will have additional Federal 
prosecutors. And that, from the Department's perspective, will 
help us combat that.
    But, if I may continue, it is not just about law 
enforcement. There are many other areas in which--many other 
ways that we can combat drug abuse. The Justice Department, 
obviously, focuses primarily on law enforcement, but we do have 
these grant programs that allow us to do other things.
    The COPS program, as you mentioned, is proposed to be 
eliminated in this budget. But we request--there is $7 million 
funding that I think is not in this year's budget. But we do 
request $40.4 million in additional Federal funding for DEA 
prescription, opioid, and heroin enforcement programs. So this 
is the matter not of reducing our emphasis on that issue but of 
reprioritizing the money to places we think it will be more 
effective.
    This will allow DEA to expand funding for its 360 Strategy, 
which is intended to illustrate that it is not just about law 
enforcement. It is a 360 program to try to reduce drug abuse. 
It will allow us to enhance operations against domestic cartels 
that are responsible for drug distribution, and to enhance and 
establish regulatory enforcement groups in the diversion 
control program and increase funding for our prescription drug 
disposal programs, because often drugs that are legally 
prescribed and not used then may be diverted to illegal uses.
    So through all of those ways, Senator, I can commit to you 
that we are very much attuned. I am going to be watching those. 
I will be watching those overdose numbers. And I will not be 
satisfied until I see that trend turn around and start going 
the other direction.
    Senator Shelby. Thank you.
    Thank you, Senator Collins.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.

                        ATTORNEY GENERAL RECUSAL

    Mr. Deputy Attorney General, thank you for being here.
    Could you describe in as clear and quick of a fashion as 
possible the scope of Attorney General Sessions' recusal?
    Mr. Rosenstein. Senator, Attorney General Sessions' recusal 
is in the public record, and I understand I have been asked 
this question several times. From my perspective, as you know, 
I have been--in the matters in which he is recused, I am the 
Acting Attorney General, and, therefore, I know what we are 
investigating. He does not. And I think that is what is 
important for you to recognize. He actually does not know what 
we are investigating, and I am not going to be talking about it 
publicly.
    Senator Schatz. But I guess the question is, so in what 
appears to be the only statement that Jeff Sessions made on 
this, I may be incorrect, but the main statement was March 2, 
2017, ``I have decided to recuse myself from any existing or 
future investigations of any matters related in any way to the 
campaigns for President of the United States.''
    So are we to understand that to the extent there may be a 
counterintelligence investigation not related to campaigns for 
the President of the United States or even a criminal 
investigation that could be obstruction of justice or a 
violation of another statute--so who decides where the line is? 
Because that seems to be about a particular thing, and now we 
have a Special Counsel and we have multiple investigatory 
processes going on. We also have public policy questions 
related to how we interact with the country that was engaged in 
active measures against us.
    So the question, again, is who decides what he is recused 
from? And why is there no clarity on what he is recused from?
    Mr. Rosenstein. Senator, I think within the Department, we 
do have clarity, and the reason for that is there is a career 
ethics official who made that determination in conjunction with 
the Attorney General before I arrived. I arrived, I believe, 
around April 27 or 28. And that career official works in the 
Deputy's office. So I am able to consult with him if any 
questions arise about what matters the Attorney General is 
recused from. That is why----
    Senator Schatz. Can you tell the public what matters the 
Attorney General is recused from?
    Mr. Rosenstein. What I am trying to explain, Senator, is it 
would be inappropriate for me to do that because he is recused 
from Department of Justice investigations, and we do not talk 
about the subject matter of investigations while they are 
ongoing. That would interfere with what our investigators and 
prosecutors are doing.
    Senator Schatz. So normally, I think, in a law firm or even 
in a public agency where there is a recusal, there is a 
memorialization of the recusal. There is a delineation of what 
is in and what is out of that recusal. And there is also a 
process by which we can determine whether or not there is 
compliance with that recusal. Is there such a document?
    Mr. Rosenstein. The way the Department operates is very 
different from a law firm.
    Senator Schatz. I know that, but is there such a document?
    Mr. Rosenstein. Well, no, because it is not necessary, 
because the Department is a hierarchy, and so nothing gets to 
the Attorney General about the matters he is recused from 
unless they come through my office.
    Senator Schatz. What if they come through the Oval Office?
    Mr. Rosenstein. If they come through the Oval Office? Well, 
we are not briefing the Oval Office about our investigations 
either, so I do not know how they would get there.
    Senator Schatz. It could be my lack of a law degree, maybe 
there are a couple lawyers on this panel or in the public who 
can help me to understand the most basic question here, which 
is that the Attorney General had a press conference and said, 
given all these challenges, given all this controversy, I am 
out, I am recused from these matters. Now the question becomes, 
which matters?
    So I am just going to ask one final time if you can just 
try to describe for the public, for the layperson, for the 
person who is following this but may not possess a law degree: 
What is the Attorney General allowed to be involved in, and 
what is he not allowed to be involved in? And who makes that 
determination? And how do we know whether he is complying or 
not?
    Mr. Rosenstein. I appreciate that sincere question, 
Senator. I want to try to explain. And you are right. I have 
spent 27 years in the Department of Justice. I think about 
these things differently than people who are not in the 
Department who are not lawyers.
    What is important for me to explain--in this matter, I am 
acting as Attorney General of the United States, and that means 
a lot to me. And one of the things it means is that I have a 
responsibility not to talk publicly about what we are 
investigating or who we are investigating because that could 
adversely affect the investigation and because it would be 
unfair to people who may be under investigation.
    Senator Schatz. Is it possible that the Attorney General is 
a witness in this investigation?
    Mr. Rosenstein. If he were, Senator, I would not talk about 
it.
    Senator Schatz. What about you?
    Mr. Rosenstein. Senator, I am not going to be talking about 
the investigation. The purpose of my appointment of Special 
Counsel Mueller was to ensure that there be public confidence 
in the outcome of that investigation, and he now has 
responsibility for that. And I think that if there are any 
questions, they should be directed to him. And I know he is 
going to do the right thing, as I would, and defend the 
integrity of that investigation.
    Senator Schatz. Just one final question, because I am over 
time. If you become a witness in this investigation, do you 
think there is a conflict of interest there?
    Mr. Rosenstein. I am not going to answer hypotheticals 
questions, and the reason, Senator, is, I am working with 
career professionals who know these rules and are responsible 
for enforcing these rules. And I can assure you that we are 
going to do the right thing, and we are going to defend the 
integrity of that investigation.
    Senator Schatz. Can you just consider this a question for 
the record, if you could please put in black-and-white for the 
subcommittee the scope of the recusal and how this all works? I 
think then you can be a little more careful.
    I mean, I understand you have to be careful about not 
referring to an investigatory process. I get that. But still, I 
think the public deserves to know exactly how this all plays 
out. I cannot imagine that you cannot describe it even in the 
abstract so that we are assured that there is a fair and 
thorough investigatory process.
    Thank you.
    Mr. Rosenstein. I appreciate the question, and we will make 
an effort to do that in writing in a way that may be, 
hopefully, better than my efforts.
    [The information follows:]

    On March 2, 2017, the Attorney General announced his recusal from 
``any existing or future investigations of any matters related in any 
way to the campaigns for President of the United States.'' This 
statement was broadly worded in order to avoid suggesting the existence 
of any particular investigation. Longstanding Department policy 
prohibits discussing ongoing investigations. Consistent with practice, 
the Attorney General's Chief of Staff effected the recusal by notifying 
the Department components that may have relevant information about the 
subject matter of the Attorney General's recusal and instructing those 
components not to provide information to the Attorney General or his 
staff regarding any such matters. The Chief of Staff's email further 
noted, ``The Attorney General's recusal is not only with respect to 
such investigations, if any, but also extends to Department responses 
to Congressional and media inquiries related to any such 
investigations.'' The Attorney General's staff was also notified about 
the recusal. The instruction to the relevant Department components and 
the Attorney General's staff about the recusal effectively screened the 
Attorney General from any information about such matters. Although the 
language of the publicly announced recusal was necessarily vague, it 
provided sufficient information to the components to insulate the 
Attorney General from any matters that may have been covered by the 
recusal. The regulation on which the Attorney General based his 
recusal, 28 C.F.R. Sec. 45.2, applies only to investigations or 
prosecutions.
    Shortly after the Attorney General's recusal, he received a letter 
from Senators Grassley and Feinstein regarding the recusal, among other 
things. In a March 6, 2017 letter to Senators Grassley and Feinstein, 
the Attorney General stated, ``[Your] March 3, 2017, letter also asked 
why I had not recused myself from `Russian contacts with the Trump 
transition team and administration.' I understand the scope of the 
recusal as described in the Department's press release would include 
any such matters. This should not be taken as any evidence of the 
existence of any such investigation or its scope.'' On March 20, 2017, 
former FBI Director James B. Comey testified before the House Permanent 
Select Committee on Intelligence and confirmed that the FBI, as part of 
its counterintelligence mission, was investigating the Russian 
Government's efforts to interfere in the 2016 presidential election, 
including any links between individuals associated with the Trump 
campaign and the Russian Government and whether there was any 
coordination between the campaign and Russia's efforts. He noted that 
as with any counterintelligence investigation, the FBI's investigation 
would also include an assessment of whether any crimes were committed. 
This description provided further detail about the matters from which 
the Attorney General recused himself.
    On May 17, 2017, the Deputy Attorney General, acting as Attorney 
General by virtue of the Attorney General's recusal, appointed former 
FBI Director Robert S. Mueller III to serve as Special Counsel for the 
investigation Mr. Comey confirmed.

    But as I said, I just want to assure you and assure 
everybody that is what I am about here, is making sure that the 
rule of law is followed and that we reach a fair result in 
which people can have confidence. And I am working with career 
professionals in the Department who are going to help me to do 
that.
    Senator Shelby. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Mr. Rosenstein, thanks for being here. You have testified 
in front of every Senator in closed sessions. You have 
testified in front of the Intelligence Committee in open 
sessions. You have had lots of conversations on this. So I 
appreciate you being here again today to go through some budget 
areas.

                            SPECIAL COUNSEL

    I do want to help clarify one thing. I read with some 
interest in the paper that there was some secret plan to be 
able to privately remove the Special Counsel who you just put 
in place. To be able to see that, all I could think about was 
Jim Comey's statements publicly saying how many times he read 
newspaper stories with unnamed sources that, as he read them, 
he thought these were completely false.
    Is there anything to some secret plan that is out there 
from you or anyone in the administration to try to go in and 
remove the Special Counsel?
    Mr. Rosenstein. No, there is no secret plan that involves 
me. No, Senator.
    Senator Lankford. I would just say, no one in America is 
above the law, and no one in America is not faced with 
accountability and checks and balances. Every one of us has 
checks and balances. The President, every Member of the 
Cabinet, the Vice President, every judge has checks and 
balances in the system.
    I cannot seem to understand the fascination to say we need 
to create some Special Counsel. That would be the only person 
in America that has no accountability structure anywhere for 
anything. I would assume everyone has a check and balance 
somewhere. That does not mean it is under consideration in the 
process. So I appreciate you trying to clarify that for us.
    I do also want to thank you and the Department of Justice. 
Senator Warren and I do not agree on everything, but last year, 
we started working on a process for the Department of Justice 
to stop these slush funds in the background where the 
Department of Justice was forcing businesses to be able to 
spend money on third-party groups or not revealing the nature 
of those settlements. The Department of Justice just last week 
announced that you are stopping that process.
    And I just want to say thank you. That is something that we 
have worked on for a couple years, tried to get accomplished 
legislatively, the previous administration would not work with 
us on. You just implemented that. So I just want to say I 
appreciate that.

                           CRIME VICTIMS FUND

    Let me also say that I have a question about the Crime 
Victims Fund and the rescission. Help me understand the 
rescission back to the Treasury of a part of the Crime Victims 
Fund.
    Mr. Rosenstein. Yes, Senator. Thank you.
    The Department's budget requests $3 billion from the Crime 
Victims Fund for fiscal year 2018. This will build on almost $8 
billion provided for crime victims over the last 3 years. It 
includes $2.2 billion in formula grants for Victims 
Compensation and Assistance Grants, $25 million to improve the 
treatment of crime victims, and 5 percent or $150 million set 
aside for Tribal governments.
    The $1.3 billion rescission is a cut from excess balances 
because of record high collections in the past.
    And I have to tell you, Senator, I am a business school 
graduate. This is government budgeting. I know it can be 
complex. I have talked with the career professionals in the 
Department, and they have explained to me that that is what 
that number represents. It represents a cut of excess balances 
because there have been record high collections in the past. 
But we are recommending the spending of $3 billion in the next 
fiscal year.
    Senator Lankford. So let me tell you why this is so 
important, and this subcommittee will know this well. For the 
last 2 years in our subcommittee and in the full committee, I 
have raised the issue of the Crime Victims Fund. The Crime 
Victims Fund was set aside as dollars that have come into it 
specifically for use to be able to help, by definition, crime 
victims. It has been used in that in multiple areas in multiple 
places completely appropriately.
    What has happened, though, is that because it has an excess 
balance, this year around $9 billion, Congress says we are 
planning to spend that and then does not spend that and takes 
that $9 billion and actually spends it somewhere else on paper, 
and then the next year spends the same $9 billion again on 
paper.
    It is $9 billion of excess spending above our budget caps 
that are done. You may know it as the Changes in Mandatory 
Programs, what is affectionately called around here CHIMPS.
    I have raised for the last 2 years in this subcommittee and 
in the full committee the possibility that those dollars would 
be spent one time and then could not be spent again the same 
dollars the next year, year after year. I have so far been 
unsuccessful to be able to do that. Now you are bringing in 
another element of this, of a rescission to be able to move it.
    I am trying to figure out how to get transparency in 
budgeting, that the Crime Victims Fund is used for victims of 
crime that it is not used as an offset for our budget here, and 
it is not used as a rescission somewhere else, back to 
Treasury. It is actually used for victims of crime.
    And any way that we can get transparency and be able to 
actually use that fund for what it was originally intended for 
rather than a budget gimmick here or rescission there, I am in 
favor of.
    How can we work together to be able to solve this?
    Mr. Rosenstein. Senator, I appreciate that question, and I 
have reviewed this issue of the Changes in Mandatory Programs, 
or CHIMPS. As I know you recognize, it is a very technical 
issue of budget and appropriations.
    Senator Lankford. But it is not technical that we overspend 
an additional $9 billion on paper but nowhere else gets to see 
it.
    Mr. Rosenstein. Well, that is not a Justice Department 
issue. I think that is a broader OMB issue.
    Senator Lankford. That is us.
    Mr. Rosenstein. Yes, I do not think it is a question that I 
am best positioned to answer. I think OMB would be the right 
agency for that question.
    Senator Lankford. Well, I hope to be able to work together 
on that, not only to be able to solve this rescission issue and 
to figure out how we actually use those dollars for victims of 
crime, rather than go back to Treasury, but also as we solve 
that issue long term for us, that budget gimmick goes away.
    I will try to follow up with a question for the record on 
private prisons that I know you are trying to reengage with in 
that, and we will follow up in the days ahead.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Deputy Attorney General Rosenstein, thank you for being 
here today.
    Obviously, you are here because Attorney General Sessions 
abruptly canceled his commitment to appear before this 
subcommittee. It is Attorney General Sessions' job to be here 
today. The fact that he has again chosen to skip this hearing 
is unacceptable.
    The Attorney General, I believe, has chosen to skip this 
hearing today in order to avoid difficult questions about the 
scope of his recusal, questions which have already been asked 
of you by several Senators, but I will attempt to explore a 
little further. I think it is important that we have a full and 
engaged conversation with the Attorney General about the 
Department of Justice in the front of both the Judiciary 
Committee and the Appropriations Subcommittee responsible for 
the entity he still leads.
    Let me start briefly with some good news, if I might. Mr. 
Rosenstein, you are here in part to talk about the budget of 
the Department of Justice. In 2014, Congress demonstrated its 
commitment to the Victims of Child Abuse Act by unanimously 
reauthorizing it in both chambers. The Children's Advocacy 
Centers funded by this law conduct important forensic 
interviews that help serve law enforcement needs and meet the 
needs of child victims. I am pleased that President's fiscal 
year 2018 budget request fully funds these programs. So I 
thought we would start with at least one positive thing we can 
talk about.
    Mr. Rosenstein. Thank you.

                  FBI DIRECTOR FIRING/SPECIAL COUNSEL

    Senator Coons. As has been discussed by several others, it 
is the scope of recusal that is utterly unclear both to lawyers 
and nonlawyers on this subcommittee. You are here instead of 
the Attorney General, and you are here as Acting Attorney 
General with regard to the Special Counsel, and you exercise 
the hire and would exercise the fire decision with regard to 
Special Counsel Bob Mueller. That is because Attorney General 
Sessions is recused from that matter.
    On May 9, you delivered a memo to Attorney General Sessions 
entitled, ``Restoring Public Confidence in the FBI.'' Your memo 
exclusively focused on Director Comey's conduct during the 
Clinton email investigation and concluded, ``The way the 
Director handled the conclusion of that investigation was 
wrong,'' and you ultimately stated, ``Having refused to admit 
his errors, the Director cannot be expected to implement the 
necessary corrective actions.''
    Is that roughly correct? Am I citing that----
    Mr. Rosenstein. I believe it is, yes.
    Senator Coons. On that same day, Attorney General Sessions 
sent a memo to President Trump, relying exclusively on your 
memo, where the Attorney General recommends Director Comey be 
removed. Is that correct?
    Mr. Rosenstein. I believe that is correct.
    Senator Coons. During his January 10 confirmation hearing, 
Attorney General Sessions stated he would recuse himself from 
any matters involving campaigns for President of the United 
States and specifically investigations into Secretary Clinton's 
email server. Is that correct?
    Mr. Rosenstein. That is my understanding, Senator.
    Senator Coons. So why did you write a memo to Attorney 
General Sessions exclusively discussing a matter that, as I 
understand it, Attorney General Sessions explicitly told us in 
Congress he was recused from? And why was that an appropriate 
basis for him to make a hire/fire recommendation to the 
President on?
    Mr. Rosenstein. Senator, I do not think that is a question 
for me to answer. I have said in my previous briefings of the 
Senate and the House that my memo truthfully reflects my views. 
I am not in a position to comment on anybody else.
    So from my perspective, Senator, that memo is about what it 
is about. I do not know what was in anybody else's mind.
    I understand there are serious allegations that have been 
raised, and I think that it is up to Director Mueller to 
determine in the first instance whether any of these issues 
were in the scope of his investigation.
    That is why I have not commented on it. I just appointed 
him several weeks ago. I have not talked to him about the 
substance of the investigation since then.
    But I recognize the importance of these questions, and I 
think that Director Mueller ought to review that and make a 
determination of whether or not he believes it is within the 
scope of his investigation.
    Senator Coons. I appreciate that answer. It is distinct 
from an answer that I got from you previously in another 
setting, so I want to make sure I understand you. I will 
proceed carefully. Let's see if we can get to an answer that is 
appropriate in a public setting.

                        ATTORNEY GENERAL RECUSAL

    Is it not your argument that the Attorney General made a 
recommendation to hire or fire the FBI Director because that is 
outside his recusal? The scope of his recusal does not affect 
his ability to manage the Department?
    Mr. Rosenstein. I do have a personal opinion about that, 
Senator. I just do not think it is appropriate for me to be 
expressing my personal opinion about that.
    I hope I have not said anything inconsistent with what I 
said elsewhere, and please let me know if I have.
    But, yes, I do not want to comment on the recusal. I think 
the Attorney General made the decision to recuse. I was not 
there at the time, as you know, and the decisions had already 
been made before I arrived about what matters would be 
appropriate for the Attorney General to handle.
    When I stepped in, I continued consistent with what had 
been done by these career professionals in the Department, and 
I believe that I have faithfully, within the Department, 
honored that recusal with regard to matters pending in the 
Department of Justice.
    But I just do not want to comment on what may have been in 
anybody else's mind or offer any opinion about that, because it 
is not for me to make those decisions.
    Senator Coons. Well, it is exactly why I think Senator 
Schatz asked a whole series of questions about the scope of 
recusal, because I am a lawyer--Senator Schatz may not be; he 
asked better questions than I did--but I also am having real 
difficulty understanding the scope of the recusal, its contours 
and definition. I have an unresolved question about whether or 
not that is why the Attorney General failed to appear before us 
today, is to avoid having to answer direct questions about the 
scope of his recusal.
    I do appreciate and respect your appointment of a highly 
talented Special Counsel. There have been questions from both 
sides that imply strong support for his independence and his 
conduct.
    I appreciate the care with which you are answering my 
questions, but I am simply going to conclude by saying I have 
unanswered questions that perhaps can only be answered by the 
Attorney General himself, and it is my hope that we will have 
him appear before both the Judiciary Committee and the 
Appropriations Committee charged with overseeing the funding 
for the Department he is currently directing.
    Thank you.
    Senator Shelby. Senator Graham.
    Senator Graham. Thank you, Mr. Rosenstein.
    Why isn't Jeff Sessions here today?
    Mr. Rosenstein. Senator, my understanding is consistent 
with what was in the Attorney General's letter. I do not know 
of any other reasons beyond what he set forth publicly.

                            SPECIAL COUNSEL

    Senator Graham. Okay. It is 13 June. Do you know of any 
reason for cause to fire Mr. Mueller, as of this date?
    Mr. Rosenstein. No, I do not, Senator.
    Senator Graham. And that would be your decision, if that 
ever happened, right?
    Mr. Rosenstein. That is correct.
    Senator Graham. And you are going to make it. Nobody else.
    Mr. Rosenstein. As long as I am in this position, Senator, 
it will be my responsibility to make that decision.
    Senator Graham. I am glad you are in this position.
    Is giving political donations a reason to disqualify 
somebody for serving in the Special Counsel's office?
    Mr. Rosenstein. No, Senator, it is not a disqualification. 
It is not.
    Senator Graham. As a matter of fact, in many States, their 
judges and prosecutors are actually elected. Donations are a 
part of that system. Is that correct?
    Mr. Rosenstein. Yes, that is true.
    Senator Graham. Would it be a disqualification for somebody 
in the Special Counsel's office who had represented Ms. Clinton 
in the past to serve?
    Mr. Rosenstein. Senator, it would depend on the facts and 
circumstances. As a general matter, I think the answer is no.
    Senator Graham. Isn't that much closer to a conflict of 
interest?
    Mr. Rosenstein. I do not answer hypotheticals, Senator. 
Everybody needs to make a determination based upon the facts 
and circumstances of a particular case.
    Senator Graham. How would you get it before the Special 
Counsel? What process could a Member of the Senate use to 
inform the Special Counsel that you have a concern about hiring 
somebody that represented Clinton?
    Mr. Rosenstein. We have a process within the Department of 
Justice, Senator, so I would encourage you, if you have those 
concerns, to raise them with Director Mueller or to raise them 
with me, and I will make sure----
    Senator Graham. Should I do it to you or him?
    Mr. Rosenstein. Well, you could do it to both.
    Senator Graham. Okay, that is fair enough.
    Mr. Rosenstein. And we have career----
    Senator Graham. And I do not know if I will do that, but I 
have read some things that were--I do not think donations are 
disqualifying at all, but if you represented the Clinton 
Foundation are Clinton herself, that would be a bit disturbing 
to me. But I will take care that.
    As to Russia, do you have any doubt that the 17 
intelligence agencies' report that was submitted last year or 
early this year, that Russia interfered in our election is 
accurate?

                RUSSIAN INTERFERENCE WITH 2016 ELECTIONS

    Mr. Rosenstein. Senator, this was an issue that was 
discussed in my confirmation hearing, and several of you 
attended that. At that point, I had access only to the public--
--
    Senator Graham. Right.
    Mr. Rosenstein [continuing]. Information, from which 
classified information----
    Senator Graham. So what can you tell us now?
    Mr. Rosenstein. I now have access to classified 
information, and I think that assessment made by the 
intelligence community is justified, based upon the 
investigation and evidence they had.
    Senator Graham. Thank you very much.

                               DOJ BUDGET

    What role did you play in crafting this budget? Where did 
this budget come from for the Department of Justice?
    Mr. Rosenstein. I appreciate that question, Senator.
    The budget actually is a product primarily of career 
professionals in the Department. It is $27.7 billion. It is 
very complicated. Some of them are actually seated behind me, 
but they have a whole team behind them. And I suspect there are 
dozens of folks who have been involved.
    Senator Graham. Is it their desire to cut the budget by 2 
percent or did that come from OMB?
    Mr. Rosenstein. You know, Senator, I do not know the answer 
to that but let me just make clear----
    Senator Graham. Could you find that answer?
    Mr. Rosenstein. We are accountable for that. That is the 
political leadership of the Department. We are accountable for 
that. I am not in any way suggesting those were their 
decisions. They faithfully implement the priorities that are 
given to them. So I did not mean to shed responsibility for the 
bottom line.
    But the assistance that we have in preparing the budget--
    Senator Graham. Well, it is a simple question. Were you 
directed to cut the budget by 2 percent or did you agreed to 
cut the budget by--did that come from within the Department of 
Justice or a mandate outside the Department of Justice?
    Mr. Rosenstein. I honestly do not know the answer to that. 
I will try to find out for you.
    Senator Graham. That is all right. You can get back to me.
    [The information follows:]

    The preparation of this budget reflects a collaborative process 
between the Department and OMB. The fiscal year 2018 President's budget 
request reflects the administration and Department's priorities on 
national security and public safety.

                       NATIONAL SECURITY THREATS

    In terms of threats to the country, are they going up or 
down?
    Mr. Rosenstein. I would not want--I have not done a study, 
so I would not want to characterize it.
    Senator Graham. Terrorism.
    Mr. Rosenstein. Well, I think everybody recognizes the 
terrorist threat is extremely serious.
    Senator Graham. Will we have more FBI agents under this 
budget or less than we did last year?
    Mr. Rosenstein. I believe we will have--I apologize, 
Senator. I am consulting.
    Senator Graham. I am actually asking budget questions, so I 
do not want to throw you off here. [Laughter.]
    Mr. Rosenstein. I appreciate the budget questions.
    According to the numbers that I have, the FBI will have an 
increase of 150, for a total of 12,484.
    Senator Graham. So there will be more agents by 150. Is 
that correct?
    Mr. Rosenstein. That is my understanding, Senator. Let me 
check that and get back to you.
    [The information follows:]

    As of June 13, 2017, and in accordance with the Department's fiscal 
year 2018 budget request, the FBI's budget proposal requested funding 
for 12,484 Special Agents. This number may vary moving forward based on 
congressional appropriations and input in fiscal year 2017 and fiscal 
year 2018.

    Senator Graham. Thank you.
    Do you agree that the FBI, the Department of Justice, is 
national security in another form, in many ways?
    Mr. Rosenstein. I am sorry?
    Senator Graham. It is national security is another form, 
that the role of the Department of Justice is a national 
security role as well as a domestic role?
    Mr. Rosenstein. Well, actually, my answer, Senator, is it 
is national security in reality and in another form. We 
actually----

                     NATIONAL SECURITY--DOJ BUDGET

    Senator Graham. So here is my final question. We are 
dramatically increasing the Defense Department because it has 
suffered mightily over sequestration. Can you make an argument 
that, if you are a national security component of our overall 
defense strategy, why we would cut you now given the threats we 
face?
    Mr. Rosenstein. Senator, I believe that, if you look at the 
budget, we are not cutting the critical areas. Violent crime, 
terrorism, the areas that you have raised are areas where there 
will be no cuts, cybercrime, all of those areas. So the effort 
in this budget, as I understand it, is to reduce only in areas 
that are not critical to those operations. It is an effort to 
be more efficient to achieve the goals of the American people.
    But I can assure you that our goal is to use these 
resources more effectively, to reduce crime, to reduce drug 
abuse, and to fight terrorism. So we are not going to relent in 
our commitment to those goals.
    Senator Shelby. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Mr. Deputy Attorney General, good to see you.
    I will say, as many of my colleagues have, that it is the 
height of arrogance for the Attorney General not to come before 
the subcommittee that oversees the Justice Department budget. 
That being said, I am glad to have you here.

                            CONSENT DECREES

    As you know, during the confirmation process, you and I had 
a conversation about the consent decree between the Justice 
Department and the Baltimore City Police Department and 
Baltimore City. Since our conversation, the courts have 
approved that consent decree. I just want your continued 
assurance that you will work in your capacity as Deputy 
Attorney General to make sure that we further that agreement 
and make sure that we can get the parties together and move it 
along.
    Mr. Rosenstein. Senator, our goal is to reduce violent 
crime, protect constitutional rights. In Baltimore, that 
consent decree, as you know, is in effect. And I know you are 
aware, and it is very painful to me, we have a crisis in 
violent crime in Baltimore. And the murder rate this year is on 
track at the moment, actually, to reach a record high. In 2017, 
we may have a record high murder rate in Baltimore City.
    So we need to do everything we can to support our local 
partners, and we are working in many ways to support that local 
police department. Last year, we had 318 murders. The year 
before, about 342. And we are on track now, potentially, to 
have more in Baltimore this year.
    So that is a very high priority for me. Although I am no 
longer there physically every day, I am very engaged with that. 
And I am going to continue to work with our authorities, with 
the Federal agencies, and with our U.S. Attorney's office, to 
do anything we can to help support our partners in Baltimore 
and turn around that trend in violence in that city.
    Senator Van Hollen. I appreciate that. Thank you. I look 
forward to continuing to work with you on what is an 
unacceptable increase in the murders. Any crime increase or any 
crime is unacceptable, but seeing the spike is something we 
have to tackle with urgency.

                            SPECIAL COUNSEL

    I do want to follow up on some of my colleagues' questions 
regarding the Special Counsel. It is especially pressing in 
light of these reports that did come out yesterday that folks 
at the White House, maybe the President, were looking at ways 
to fire Special Counsel Mueller.
    As you already testified today, given the current 
situation, you are the only person today in a position to 
actually do that firing. Isn't that correct?
    Mr. Rosenstein. That is correct.
    Senator Van Hollen. And as I understand your testimony, you 
said that this is a matter within your jurisdiction. So based 
on that, I would assume it would be a violation of the Attorney 
General's recusal if he were to try to fire the Special 
Counsel. Isn't that right?
    Mr. Rosenstein. I do not expect that to happen, Senator.
    Senator Van Hollen. Okay. But it would be a violation of 
his--this is now a matter that is under your jurisdiction, so 
it would be a violation of his recusal, were he to attempt to 
do so.
    Mr. Rosenstein. I think that is probably fair, but that is 
not going to happen.
    Senator Van Hollen. Okay. Well, I am glad to hear that. And 
I am actually more worried about the scenario, at this point, 
where, if you were to receive an order from the White House to 
fire the Special Counsel, I am less worried about you doing it 
because you have just testified today that you would only do it 
based on good cause. I am worried about, in those 
circumstances, the President trying to keep going until he 
found someone willing to take that action.
    So my question relates to the definition of ``good cause,'' 
because you were fairly clear in your testimony that the 
authority to remove the Special Counsel is based on the finding 
of good cause. Is that correct?
    Mr. Rosenstein. Yes, that is right.
    Senator Van Hollen. And is an order from the President to 
fire the Special Counsel good cause?
    Mr. Rosenstein. It does not matter who the order comes 
from. Good cause would be based on the reasons for the proposed 
removal.
    Senator Van Hollen. Right. And removing the Special Counsel 
in order to prevent the Special Counsel from pursuing the 
investigation, that would not constitute good cause, correct?
    Mr. Rosenstein. Correct.
    Senator Van Hollen. So if somebody else were to fire the 
Special Counsel--in other words, if the President were to find 
someone to do it--my question is, what is the protection in 
that ``good cause'' definition? In your view, could the Special 
Counsel contest his firing, if the Special Counsel did not 
believe it was good cause?
    Mr. Rosenstein. Senator, I hope I will not have to answer 
that hypothetical. The purpose of that regulation, the folks 
who wrote it put a lot of thought into it, and they anticipated 
that people would follow the rules.
    Your question is, ``Well, what if somebody does not follow 
the rules? What happens next?'' We have a lot of very well 
informed folks and great lawyers in the Department who would 
deal with that, if it were to arise, but I do not anticipate 
that it is going to arise.
    Senator Van Hollen. So I am just wondering, in your 
opinion--I am hoping it does not arise either, but we all know 
that there are scenarios even that have some historical 
precedent where this kind of question could arise. So my 
question is, would the Department or, in this case, would the 
Special Counsel have recourse in the courts arguing that there 
was not good cause for the firing?
    Mr. Rosenstein. I just do not know the answer to that, 
Senator. I hope we never reach that point. I can tell you, as 
long as I am in this position; he is not going to be fired 
without good cause. And if he were, it would not be my 
responsibility.
    But that is like a law school hypothetical. I would be 
reluctant to answer it without doing some research first.
    Senator Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Welcome, Deputy Attorney General.

                             TRIBAL AFFAIRS

    I had a conversation in my office with the Attorney General 
prior to his confirmation, and we spoke about the Department of 
Justice's government-to-government work with the Tribes. He 
admitted to me at the time that his familiarity with the some 
229 Tribes in Alaska was limited. It was important for him to 
hear the depth of some of the issues that we are facing as we 
deal with any level of law enforcement. So many of our 
communities have none whatsoever. As a consequence, we are 
dealing with some very troubling statistics within our State.
    So, I was pleased to note that the Department is making 
grants for the implementation of VAWA's Special Domestic 
Violence Criminal Jurisdiction in fiscal year 2017, and then 
also requesting funds to continue that work in fiscal year 
2018. So that is good.
    I think that we have some things that we would like to 
discuss with you and your folks with regard to fiscal year 2017 
funding levels that are a bit problematic. The Tribal court 
funding is again the one that I have a great deal of interest 
with.
    But I do want to find a path forward with DOJ as it relates 
to some of the more immediate and very unique issues that we 
have as we deal with our Tribal Villages and the issues that 
they face. You would think that we are remote enough that the 
opioid epidemic would not be hitting us in Alaska, but it is. 
The level of domestic violence and sexual assault that we face 
in terms of the statistics, the uptick of violent crimes that 
we are seeing in urban Alaska, these are areas that we believe 
deserve a more specific approach, and we would like to work 
with you. We have invited and welcomed the Attorney General as 
well as you, and others within the Department of Justice, to 
come up to the State to sit down with some of our Native 
leadership to discuss these issues. I again would reiterate 
that, and essentially ask for your continued willingness to 
work with us in perhaps some innovative ways to address the 
issue of justice and law enforcement in rural Alaska.
    Mr. Rosenstein. Yes, Senator. Thank you. I welcome that 
opportunity. We did not have this issue in my home State of 
Maryland, but many of my colleagues in the past two 
administrations, U.S. Attorneys, have talked with me about the 
challenges that we have on those Native American issues. And I 
have met early in my tenure as Deputy Attorney General with the 
director of our Tribal Justice Office, Tracy Toulou, and talked 
about some of these issues.
    So I would certainly welcome the opportunity to work with 
you on that.
    Senator Murkowski. Good. We need to do that.

                               MARIJUANA

    Let me switch gears a little bit. We have been talking 
about opioids and addiction, but let's talk about another 
issue. Alaska is one of those States that has not only enacted 
medical marijuana statutes but we, through ballot initiative, 
have allowed for a broader sale and use of marijuana that is 
regulated as we would regulate alcohol.
    In this State, we think that our regulatory regime is a 
fairly strong one and is consistent with the Cole memorandum.
    Now, that memorandum suggests that the Federal Government 
will not get in the way of States which maintain strong 
regulatory regimes. I had some correspondence with former 
Attorney General Lynch, relating to this. But the fact is that 
the banking sector is still closed to those in the marijuana 
business, making it difficult for States to access a paper 
trail to ensure that those in the business are compliant. We 
recently heard that postal inspectors believe that they can 
seize State tax payments sent by mail from people in the 
marijuana business.
    Now, I understand that DOJ wants to eliminate the 
appropriations rider prohibiting Federal interference with 
State medical marijuana laws.
    So I am concerned, and I am speaking for a lot of people in 
my State who are worried about the inconsistency between the 
State marijuana laws and the Federal policy. The Department of 
Justice has not taken the position thus far that the State 
marijuana laws are completely preempted by the Controlled 
Substance Act. I do not know if you are headed in that 
direction. The Cole memorandum suggests strong deference to 
State laws, but we are not seeing the Federal Government doing 
much to ensure that those strong State laws are enforceable.
    So the bigger question is: where are we headed with 
marijuana?
    Mr. Rosenstein. I appreciate your concern about this, 
Senator. It is a very difficult issue. Obviously, it is a 
situation where we do have a conflict between Federal law and 
the law in some States. It is a difficult issue for parents of 
teenagers like me who have to provide guidance to our kids 
about how they should treat----
    Senator Murkowski. Believe me, I agree with that, yes.
    Mr. Rosenstein. But I can tell you I have talked to Chuck 
Rosenberg, the Director of DEA, about this, the Administrator 
of DEA. And we follow the law and the science. And from a legal 
and scientific perspective, marijuana is an unlawful drug. It 
is properly scheduled under Schedule I, and, therefore, we have 
this conflict.
    Jim Cole tried to deal with it in that memorandum. And, at 
the moment, that memorandum is still in effect. Maybe there 
will be changes to it in the future, but we are still operating 
under that policy, which is an effort to balance the 
conflicting interests with regard to marijuana.
    So I can assure you that is going to be a high priority for 
me as the new U.S. Attorneys come on board, to talk with them 
about how to deal with that challenge in the States that have 
legalized or decriminalized marijuana, whether it be for 
recreational or medical use. But we are still, in the 
Department of Justice--Attorney General Lynch actually 
mentioned this at her hearing, her confirmation hearing in 
January 2015, and she explained that we are responsible for 
enforcing the law. It is illegal, and that is the Federal 
policy with regard to marijuana.
    Senator Murkowski. Confusing.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    I would just like to say that I associate myself with the 
remarks of Senator Shaheen and Senator Collins.

                            SPECIAL COUNSEL

    Yesterday, Mr. Rosenstein, I was in New York, and a 
distinguished lawyer came up to me after I finished speaking 
and said, beware, this President is going to act to terminate 
the Special Counsel. And I said, he could not possibly do that. 
It would be catastrophic. And he said, just wait.
    I came home and turned on the television this morning, and 
that is what I heard. So it is very hard to know what to 
believe.
    I do believe it would be catastrophic, and I do believe it 
would destroy any shred of trust in the President's judgment 
that remains over here. I do not know with specifics what the 
procedure is if that were to happen.
    But as I understand what you said, that could not be done 
without your assent. Is that correct?
    Mr. Rosenstein. Yes, that is correct, Senator.
    Senator Feinstein. And what you have said is you would not 
assent under the present situation----
    Mr. Rosenstein. Correct.
    Senator Feinstein [continuing]. Because there is no cause.
    Mr. Rosenstein. Yes, that is correct.
    Senator Feinstein. So is it fair to put that to rest?
    Mr. Rosenstein. As far as I am concerned, yes, Senator. I 
appointed him. I stand by that decision. I think it was the 
right thing to do under those circumstances, and I am going to 
defend the integrity of that investigation.
    Senator Feinstein. Thank you.

                               DOJ GRANTS

    Let me go on to the COPS anti-methamphetamine grants. That 
is a program that I helped establish in 2014.
    If I understand what you said, very quickly, the cut is $7 
million in meth and $10 million in heroin. But the addition is 
$40.4 million for DEA. Is that correct?
    Mr. Rosenstein. That is my understanding, Senator. I have 
been briefed by our career officials. Actually, they are 
whispering in my ear that, yes that is correct.
    Senator Feinstein. Good.
    Mr. Rosenstein. We are going to commit more resources to 
combating heroin and opioid drugs over the next year.
    Senator Feinstein. Good. So the COPS Anti-Methamphetamine 
Program will remain intact?
    Mr. Rosenstein. I think, Senator, the answer to that is 
that what we intend to do is to fund task forces in a different 
way. I think that funding went directly to State and local law 
enforcement.
    Senator Feinstein. That is correct.
    Mr. Rosenstein. Our proposal is to fund it through DEA. So 
there will be task forces, but they will be DEA task forces as 
opposed to State and local task forces.
    Senator Feinstein. So you are canceling the funding that 
goes to local police organizations.
    Mr. Rosenstein. The direct funding to establish those, the 
grants to establish those local task forces are proposed to be 
eliminated, but there is additional funding to DEA, which will 
be used to fund State and local officers who work with DEA.
    Senator Feinstein. So the answer is, yes, you are defunding 
community police departments that participate.
    Mr. Rosenstein. I believe the answer is that we are 
proposing to defund that $7 million that went directly to local 
task forces.
    Senator Feinstein. Okay. I just want you to know that, in 
California alone, in the past few months, there have been 61 
arrests, 428 kilograms of meth seized, 242 kilograms of heroin, 
1,728 kilograms of marijuana, and 11 firearms. So it is a very 
busy task force, and it, no doubt, if the money is not there, 
could likely be eliminated.

                INVESTIGATION INTO RUSSIAN INTERFERENCE

    Secondly, there is a growing concern that the Russia 
investigation is taking too long. I heard a Congressman this 
morning expressing that point of view.
    Mr. Comey briefed Senator Grassley and myself, as the 
chairman and ranking of Judiciary, 3 months ago, and it was a 
very full and good brief. Do you have any estimate as to the 
time this investigation will take or when we might be expected 
to have some conclusion?
    Mr. Rosenstein. Senator, I regret that I do not. The way 
our investigations are conducted, it depends upon a lot of 
factors. So it is generally very difficult for us to predict in 
advance how long an investigation is going to take. I can 
assure you it is important to me that it be done expeditiously. 
And I communicated that to Director Mueller. And I am sure he 
also appreciates the importance of moving as quickly as we can.
    How we move it expeditiously, well, it requires having 
appropriate resources, which I believe we do have and always 
have had to conduct the investigation, and making good 
decisions about how to go about conducting the investigation. 
And I believe we can rely on Director Mueller to do that.
    Senator Feinstein. So there is no estimate as to when we 
might expect some resolution.
    Mr. Rosenstein. Correct.
    Senator Feinstein. Okay.

                  SOUTHWEST U.S. BORDER WALL--DOJ ENRD

    Let's go to the wall. It is my understanding that, for the 
600 miles of wall, there are 400 lawsuits pending. Is that 
correct?
    Mr. Rosenstein. Senator, I do not believe that I have a 
number for you. I regret we do not--I can try to get back to 
you on that. I do not have a number.
    [The information follows:]

    Currently, there are approximately 90 cases pending, out of the 
over 400 cases filed, related to the most recent border security 
projects from 2007 to the present.

    Senator Feinstein. Now, my understanding is you have put 
additional attorneys in the budget to handle these. Is that 
correct?
    Mr. Rosenstein. That is correct.
    Senator Feinstein. And how many are there?
    Mr. Rosenstein. Senator, we have proposed a total of 27 
additional attorneys in the Civil and Environmental Divisions, 
and $4 million will be available to defend the government and 
meet litigation requirements associated with increased 
immigration enforcement. That is not just about the wall. It is 
about immigration enforcement, but it would include any 
litigation that arose.
    Senator Feinstein. And that would be the 400 cases that are 
now pending. What is your estimate of lawsuits on the remainder 
of the wall?
    Mr. Rosenstein. Senator, I am not familiar with that. I can 
look into it and try to get back to you. But I do not--
    Senator Feinstein. Well, I really would like you to, 
because I think it is going to be extraordinary. I think as you 
get into the Rio Grande Valley, you are going to find the 
property owners, as I hear, are not very pleased. And I think 
we ought to know about it----
    Mr. Rosenstein. Right.
    Senator Feinstein [continuing]. As we budget. So could I 
ask that you get back to me prior to the time we mark this bill 
up?
    Mr. Rosenstein. I can try to give you the information we 
have. I can give you whatever information we have. It is 
important to keep in mind, though, that we are the lawyers on 
these issues, but it is actually Homeland Security that would 
have the primary responsibility for operational decisions. So I 
will give you whatever we can, but I think Homeland Security 
might be in a better position to comment on that.
    [The information follows:]

    The Department cannot estimate accurately the number of prospective 
lawsuits to construct the remainder of the wall along the entire 
Southern border because much work needs to be done on survey, title, 
valuation and negotiations for direct purchase--by the Department of 
Homeland Security, Customs and Border Patrol and the Army Corps of 
Engineers--before an acquisition would ever be referred to the 
Department of Justice.

    Senator Feinstein. We will approach that. Thank you very 
much.
    Thanks, Mr. Chairman.
    Senator Shelby. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    I want to thank Senator Boozman for his courtesy.
    Mr. Rosenstein, welcome. Mr. Rosenstein.
    Mr. Rosenstein. Just like Feinstein.
    Senator Alexander. That is easy for me to remember. We work 
together all the time.

                FEDERAL CONSENT DECREES--MUSIC INDUSTRY

    I am going to ask you about something a little different. 
It may be refreshing for you. Probably not the top of your 
agenda, but I hope it will be on your agenda as time goes on: 
Outdated Federal consent decrees and, specifically, how such 
things affect songwriters in Nashville.
    Outdated Federal consent decrees. In 2006, I introduced 
legislation based upon a book called, ``Democracy by Decree: 
What Happens When Courts Run Government.'' It was by Professors 
Sandler and Schoenbrod, who were attorneys for the National 
Resources Defense Council. It was about the growing number of 
Federal consent decrees that seem to manage everything. A lot 
of it had to do with education, some with the environment, some 
with clean air litigation, a variety of other things. It took 
these issues out of the hands of legislators, and courts were 
running the government.
    So, in general, the legislation would have allowed newly 
elected Governors, mayors, and legislators to file motions to 
vacate the consent decrees and put those issues back out in the 
democratic process.
    Let me talk about one example of that, it has to do with 
songwriters. It might not seem very important in Washington, 
DC, but we have thousands of them in Nashville. It is the 
center of songwriting. Most of them are waiters and bus drivers 
and teachers in the meantime, hoping to make a big hit.
    Seventy-six years ago, the Justice Department noted some 
antitrust implications on the two organizations that ensure 
songwriters are paid for their work.
    Let me give you an example. A few years ago, I was with 
some songwriters, and I had gone outside a pharmacy, and I saw 
an old couple there. I said, how are you all doing? And the 
lady said, we are just falling apart together. So I mentioned 
that to the songwriters Lee Brice, Billy Montana, and another 
songwriter. He said, I think we can do something with that. And 
they wrote a song called ``Falling Apart Together.''
    Lee Brice put it on one of his albums, and I get a fourth 
of the royalties for that, because that is the way Nashville 
works. If the four of us write a song, we each split it up. 
Last year, I got $110 for my royalty, even though it is on Lee 
Brice's album, and he is a pretty well known singer.
    That is the first problem. Under the consent decree that is 
76 years old, you have a rate court that sets what the 
songwriters are paid that does not reflect the market value.
    The second is more immediate. Your Department issues 
regulations and interpretations of regulations based upon the 
consent decrees. One recent interpretation said that if Lee 
Brice and I and Billy Montana and another writer are sitting 
around writing, that we have to check to see who represents us, 
and that any one of us can go out and find that person and make 
a deal with a bar or a restaurant that affects all the others 
of us. And it would turn the common, ordinary, everyday 
practice of songwriting in Nashville upside down.
    And I am not surprised that someone in the Department of 
Justice would not know that you cowrite songs. You just sit 
down informally. You might spend a weekend and write six songs. 
But what this would do is just tear that all apart, because 
these songwriters, not wealthy people, would have to consult 
lawyers, make agreements, do all this kind of thing.
    The songwriters have appealed the Justice Department 
interpretation. The Federal district court agreed with that. 
Now you are appealing it further to a higher court.
    So my request of you is not for you to answer me today on 
how to solve that problem. But, one, would you put on your 
agenda somewhere the general issue of democracy by decree, 
outdated Federal consent decrees, and consider whether it is 
not time to give Governors and mayors and legislators an 
opportunity to file motions to vacate those consent decrees and 
get them back in the hands of the democratic process?
    And second, will you consider the Department of Justice 
interpretation that is now on appeal to a Federal district 
court that, if you are successful, will turn the everyday 
business of songwriting in Nashville upside down? I am sure it 
is not what is intended by the Department of Justice, but that 
would be the practical effect.
    Mr. Rosenstein. Senator, I happen to be a country music 
fan. It is something I passed on to my daughter, so I am 
tempted to comment.
    Senator Alexander. It is all right with me if you do.
    Mr. Rosenstein. As you recognize, there is pending 
litigation. I am not at liberty to comment on the pending 
litigation. But I do want to comment on the general issue with 
regard to consent decrees.
    I think there are some questions that we should ask with 
regard to proposed consent decrees. Will it help solve a 
problem? How do we evaluate success? How do we know if it is 
working? How much is it going to cost? And when will it end?
    I think those are appropriate questions, to the extent that 
we are considering imposing consent decrees. And as I see you 
recognize, a consent decree is consent between the parties, so 
there are always opportunities to revisit if there is agreement 
between--among the parties. If there is not, then there may be 
litigation, as you mentioned.
    But I regret I do not have an opinion to offer on the 
proposed legislation. But I can assure you that we will, when 
there are consent decree issues in the Department, we will 
think very seriously about all those and other issues.
    Senator Alexander. I thank you for your answer. And the 
consent decree under which the lawsuit and the rate court are 
established was put in place in 1941. That seems to me to be 
too long to keep something out of the hands of the democracy.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Manchin.
    Senator Manchin. Mr. Rosenstein, it is good to have you 
here. One of the pressing questions I have right now is did the 
couple who was falling apart together get anything?
    Senator Alexander. There wasn't anything left after each of 
the four songwriters got $110 for the year.
    Senator Manchin. I understand.
    First of all, it is reassuring, sir, to hear the system 
that you put in place, as far as special prosecutor and Mr. 
Mueller, the confidence that you have in him to do his job. It 
is quite assuring and comforting to all of us.

                       SPECIAL COUNSEL--RESOURCES

    Did you talk with Robert Mueller about his investigation 
and the resources he might need to do his job the proper way? 
And do you feel he has sufficiently been supported in that 
effort?
    Mr. Rosenstein. I have not. Under the regulation, it 
actually tasks the Assistant Attorney General for the Justice 
Management Division to consult with Mr. Mueller about resources 
and budget. That gentleman happens to be sitting behind me, and 
he has talked to Mr. Mueller, but I have not. But I can assure 
you he is going to get the resources he needs to conduct that 
investigation.
    Senator Manchin. So there is not a concern there, where he 
will be able to do the job the way it is intended to be done?
    Mr. Rosenstein. Yes, he will.
    Senator Manchin. Okay.
    Mr. Rosenstein, could you be terminated without cause?
    Mr. Rosenstein. Yes.
    Senator Manchin. And who would appoint your replacement as 
your position now, Deputy Attorney General?
    Mr. Rosenstein. The President.
    Senator Manchin. So that is a possibility.
    Mr. Rosenstein. Anything is possible, Senator.
    Senator Manchin. I understand. That is what we know.
    There is great concern in all this, as you can tell. I am 
going to get another opportunity to talk to Attorney General 
Sessions in the Intel meeting. I know a lot of my colleagues 
here do not have the same opportunity, so they were little bit 
concerned about him not being here. But I want to thank you for 
being here.

                       HEROIN AND OPIOID EPIDEMIC

    In West Virginia, we have a devastating epidemic. We have a 
State that has got hit harder than any other State. We have 
lost more people per capita than any other State. We are doing 
everything humanly possible. We cannot do it without the help 
of the Attorney General's Office, the Department of Justice, 
everybody else who is involved.
    I guess I would ask, what is your main approach to fighting 
the war on opioid addiction?
    Mr. Rosenstein. Thank you, Senator.
    This is an extremely high priority for me, and I am very 
familiar with the opioid challenges in West Virginia. In fact, 
U.S. Attorneys in the Obama administration worked very closely 
with me on these issues and participated with us in meetings 
that we held in Baltimore and the Capital Region about the 
opioid challenge, because some of the drugs that are in West 
Virginia are sourced to Baltimore, so we had cases in common. 
And I am aware of just how serious a problem this is in West 
Virginia.
    I have talked with the potential candidates for U.S. 
Attorney in your State and in others, and this is one of the 
issues that I talk about. This is going to be one of the high 
priorities of this administration.
    I know you are aware that Attorney General Sessions 
actually traveled to Charleston in May. He gave opening remarks 
at the DEA 360 Heroin and Opioid Response Summit. As I 
mentioned earlier, this 360-Degree strategy recognizes the need 
to work in coordination with State and local officials, and it 
recognizes it is not just about law enforcement. It is about 
engaging all the community resources that we need to deter 
people from becoming drug addicts.
    Senator Manchin. If I could just, because of our time, but 
I want you to comment on this. In Kermit, West Virginia, a 
little town in Mingo County, Kermit, West Virginia, population 
392 people, out-of-state drug companies, basically which are 
supply houses, legitimate businesses, sent 9 million highly 
addictive hydrocodone over 2 years to a town of 392 people.
    I mean, it is just unbelievable what is being sent. Of 
course, you know we have an awful lot of suits, ongoing suits, 
going on right now against the drug suppliers.
    Are you all involved in those?
    Mr. Rosenstein. I am not certain, Senator, whether we are 
involved in that particular litigation, but DEA does have a 
diversion strategy. We have a group that focuses on drug 
diversion, and we are certainly aware that a significant 
proportion of our opioid drug problem is a prescription drug 
problem. That is drugs that are diverted from legitimate uses 
or are overprescribed to addicts. And that is a significant 
portion of the problem.
    So I believe we need to work with the pharmaceutical 
manufacturers, distributors, pharmacists, and doctors, and 
identify folks who are overprescribing to make sure we hold 
them accountable.

                              DRUG COURTS

    Senator Manchin. And my final one, because my time is 
running out, drug courts have had a tremendous impact on us, 
and we think it has been very positive. We are concerned about 
the drug courts, the funding for drug courts in our State and 
all over this country. If you could tell me what your 
administration is supporting on drug courts or expansion of 
drug courts, continuing support for drug courts?
    Mr. Rosenstein. Yes, Senator. We are proposing funding for 
State, local, and Tribal drug courts. There is $40 million 
proposed in the 2018 budget. That funding will enable them to 
develop and implement drug courts. That includes substance 
abuse treatment along with mandatory drug testing, sanctions, 
and incentives, the goal being to transition people off of 
drugs.
    That is part of a larger $100 million request for funding 
programs that support the Comprehensive Addiction and Recovery 
Act, what some people refer to as CARA, or CARA.
    Senator Manchin. Yes. Thank you.
    Senator Shelby. Senator Capito.
    Senator Capito. I think Senator Boozman is in front of me. 
He is just yielding right and left.
    Thank you.
    Thank you, Mr. Chairman.
    And thank you, Deputy Attorney General, for being here.

                            SPECIAL COUNSEL

    Mr. Rosenstein, I want to follow up on something my 
colleague from West Virginia began, which are the resources for 
the Special Counsel. You said, and you said more than once, 
that you anticipate and that you know that the resources that 
will be needed to do a full investigation will be there in full 
measure for the Special Counsel. Correct?
    Mr. Rosenstein. Yes.
    Senator Capito. What kind of oversight do you--because we 
know, as appropriators and as folks who are looking over 
budgets, that one way to squeeze or change the direction is to 
have tighter oversight or to squeeze down on the resources 
available. Do you have the ability to do that? Or do you tell 
Director Mueller that he can basically have whatever resources 
he needs to have? Who has the oversight over his budget? Or is 
there such a thing?
    Mr. Rosenstein. Senator, I think, within limits, he has 
oversight of his budget. Our administrative officers Justice 
Management Division, I am sure if they felt there was something 
inappropriate, they would bring it to my attention. But I do 
not expect that to happen. I think that the resources will be 
reasonable and that there will be no dispute as to what he 
needs.

                             DEA--FENTANYL

    Senator Capito. I would anticipate that as well, but thank 
you for that answer.
    I was going to go to drugs because that is a big issue. We 
just had Attorney General Sessions in the State of West 
Virginia to talk about the DEA 360. It seems to be a good 
program that has gotten off to a great start in our State, 
which we have, as you are well aware, much needed assistance.
    After the addiction, unfortunately, to painkillers, many 
people are moving to heroin. Much of this heroin is laced with 
fentanyl. Fentanyl is coming in, and it is believed to be 
coming in also through the U.S. mail from China.
    What is your Department doing on that particular aspect?
    Mr. Rosenstein. You are correct, Senator. There are really 
two challenges read regard to fentanyl, which is many people 
are not aware of fentanyl. They are going to become 
increasingly aware of it, unfortunately, over the coming year 
because it is an emerging threat.
    Small quantities of fentanyl can be very dangerous, and it 
can be sent in the mail. We are aware that fentanyl is coming 
into the United States primarily in two ways. It is coming in 
through the Mexican border, and it is coming in by mail from 
China.
    Senator Capito. Right.
    Mr. Rosenstein. So we are going to need to work with DEA 
and the Postal Inspection Service to try to find a way to cut 
down on that, and I think also with foreign authorities. We are 
going to need help from authorities in China and Mexico to deal 
with that challenges well.
    So that is at the top of my agenda. As you know, I have 
been in this job only 6 weeks, but I have already talked with a 
number of folks, including Chuck Rosenberg, the Administrator 
of DEA, and we are going to find a way to combat that threat.
    Senator Capito. Well, as you know, it is a killer, but it 
also affects our first responders. I read a story of a first 
responder, I believe they were in Ohio, who had been at a 
cleanup scene. Everything was sterilized and cleaned, but then 
at some point, something came off his glove, and he ended up 
having to be revived from an overdose with just a minuscule 
exposure to something extremely dangerous.

           FBI--CRIMINAL JUSTICE INFORMATION SERVICES (CJIS)

    You also, I am sure, are aware that the background check 
FBI facility is proudly located in West Virginia, and it is 
processing millions of background checks. I am concerned that 
in this year's budget a rescission was implemented from the 
fees collected by CJIS that they have previously used update 
their IT. We know how important IT infrastructure is to get it 
right in this very important issue.
    What can you say about that, in terms of the support from 
your Department for CJIS? And do those rescissions that are 
occurring this year, what kind of impact will that have? I have 
some concerns over that.
    Mr. Rosenstein. Senator, I am not certain that I know about 
the rescission. I am happy to look into that for you. I know 
our request includes $17 million in program increases for CJIS, 
so I think there is an overall increase. I do not have any 
information about the rescission.
    [The information follows:]

    Thanks to your continual support of the CJIS programs, in the 
fiscal year 2017 Appropriations, the FBI received $35 million for the 
National Crime Information Center (NCIC), which provides critical data 
for law enforcement officers. The previous CJIS rescissions, along with 
potential rescission of $195 million in fiscal year 2018, have resulted 
in some reductions and cuts in certain CJIS activities and programs. 
While the potential $195 million rescission does present challenges in 
planning for future upgrades and enhancements to existing criminal 
justice information systems, the Department will continue to work with 
the FBI and its CJIS Division to ensure that no services will be 
impacted by the rescissions and no critical upgrades and enhancements 
are forgone.

                 DNA BACKLOG--SEXUAL ASSAULT/RAPE KITS

    Senator Capito. Okay. Let me ask you another question. Over 
the years, we have been hearing about a backlog, sexual assault 
kit backlog. Will the Department of Justice reverse this trend 
and mirror the sentiment expressed by this subcommittee report 
affirming a stronger commitment to increasing the necessary 
resources for this particular purpose, under your direction?
    Mr. Rosenstein. Senator, I know that that is a very 
important challenge nationwide. I recall the district attorney, 
I believe, in Manhattan, actually, made a priority of that last 
year. And we are committed to working with our State, local, 
and tribal partners to improve DNA and other forensic testing.
    This proposed budget includes $105 million for DNA-related 
and other forensic programs. And specifically, with regard to 
your question, it includes $45 million for a national sexual 
assault kit initiative. I think that will address your 
concerns.
    Senator Capito. I would encourage you to move in that 
direction. I am glad to see the Department is doing that.
    Thank you so much.
    Senator Shelby. Senator Kennedy.
    Senator Kennedy. Mr. Rosenstein, welcome.
    Mr. Rosenstein. Thank you.

                            SANCTUARY CITIES

    Senator Kennedy. The Justice Department sent letters to 
nine jurisdictions alleged to be so-called sanctuary cities 
under 18 U.S.C. Section 1373. Where are we on that?
    Mr. Rosenstein. Senator, I believe we actually sent letters 
to 10 jurisdictions, and these were jurisdictions that had been 
identified by the inspector general last year as jurisdictions 
that the inspector general believed may have been in violation 
of Section 1373 and thereby potentially in violation of their 
obligation under grants to comply with Federal law.
    So we notified all 10 localities that they needed to 
certify to us they were, in fact, complying with Section 1373. 
I believe we gave them until June 30. As of yesterday, we heard 
back from three that certified that they were in compliance. So 
there are seven that have not yet responded. I anticipate--I 
hope that we will have those responses by the end of the month.
    Senator Kennedy. Which three have you heard back from?
    Mr. Rosenstein. I do not know that personally, Senator. I 
can check into it and get back to you. I do not know which 
three have already responded.
    Senator Kennedy. Have you heard from New Orleans?
    Mr. Rosenstein. I do not know the answer to that.
    Senator Kennedy. Okay.
    What if a jurisdiction--what if New Orleans comes back to 
you and says they are in compliance, take my word for it?
    Mr. Rosenstein. Well, as with all of our grants, Senator, 
particularly when we are dealing with governments, our primary 
check is the certification is the self-certification they 
provide that they are in compliance with all the grant 
requirements. But there is an auditing capacity within the 
government.
    So, in some cases, there may be reviews that are done by 
the granting authority, the Office of Justice Programs, or, as 
happened last year, by our inspector general. And if they found 
violations, we would have to deal with the implications, as we 
do in ordinary grants.
    As U.S. Attorney, I dealt with matters in which grant 
recipients had violated provisions of the grants and then the 
question arises of, what is the appropriate remedy? So there is 
a potential for auditing and oversight of those certifications. 
But, primarily, we expect people, when they certify they are in 
compliance with the law, we expect them to be truthful about 
that.
    And I do want to let you know, Senator, that I do have, I 
just received from my staff, a report that New Orleans is one 
of the three that has responded and has certified that it is 
complying. The other two are Clark County, Nevada, and the 
State of Connecticut.
    Senator Kennedy. May I call you general? I do not want to 
call you assistant general.
    General, I want to be sure I understand. The Department 
sent letters to 10 jurisdictions that have alleged to be 
sanctuary cities and said, are you a sanctuary city? And you 
really expect them to write you back and say, yes?
    Mr. Rosenstein. No. Let me clarify for you, Senator.
    The request is, are you complying with Section 1373? 
Whether it is defined as a sanctuary city is really a different 
issue. Our requirement, as identified by the inspector general, 
or the question is, are you complying with 1373? It is not 
whether or not you are a sanctuary city.
    Senator Kennedy. Well, to me, this issue is not--it is, of 
course, about immigration and legal immigration versus illegal 
immigration. But it is also about respect for law. And our 
mayor in New Orleans, who is a friend of mine, on the one hand 
says, ``I am in complete compliance with Section 1373. I am not 
a sanctuary city.'' But on the other hand says publicly to the 
people in Louisiana, ``I refuse to be a part of Trump's 
deportation force.''
    Now, that is his--and this is America. You can believe what 
you want to believe. But we are a Nation of laws, and we have 
laws that have to be followed. And if New Orleans disagrees 
with the law, it should petition Congress to change it, but it 
cannot just unilaterally say, ``I do not like it. I am the 
mayor. I do not like the President. I do not agree with this 
policy, so I am not going to follow it,'' and make his comments 
personal in the process of doing that. That bothered me.
    So what is going to be done to follow up? I mean, let me 
make a prediction. All 10 cities are going to say they are in 
compliance.
    Mr. Rosenstein. Yes, thank you, Senator. I want to make 
sure I clarify this.
    If somebody certifies to the Department of Justice that 
they are in compliance, we expect them to be in compliance. And 
so it would be a very serious matter if somebody sends a 
certification--it has to be signed by a person, and that person 
needs to be confident that they are right. If somebody signs a 
certification that they are in compliance, we are going to 
vigorously review those, particularly those 10 because they 
have already been identified for us by our inspector general as 
jurisdictions where there was some concern. So we are going to 
vigorously review those submissions, and if they are not in 
compliance and, therefore, they are in violation of the grant 
contract, we will pursue appropriate remedies. Those could 
include suspending an award. It could include terminating a 
grant contract. And it could include requiring repayment of 
grant funds.
    So this is a very serious matter, Senator. If somebody 
sends a certification, we expect it to be accurate.
    Senator Kennedy. Well, I have gone over, but over what 
period of time are you going to check their compliance?
    Mr. Rosenstein. Well, in the ordinary grant making process, 
obviously, there are a lot of conditions on Federal grants, and 
there is a review process within the Department, the Office of 
Justice Programs and other grantmaking components of the 
Department. There is a potential for investigations by the 
inspector general. And so we do review those in the ordinary 
course.
    And on a prospective basis, Senator, we are going to 
require these certifications that the jurisdictions are in 
compliance with 1373. And I am hopeful that people will, if 
they were not following the law in the first place, that they 
will truthfully certify and make sure they change their 
practice so that they are following the law in the future.
    Senator Kennedy. Thank you, Mr. Chairman. And thank you for 
your indulgence in allowing me to go over.
    Thank you, Mr. General.
    Senator Shelby. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Shelby. Thank you for yielding to Senator 
Alexander.
    Senator Boozman. Thank you.
    Senator Shelby. You lost a little time.
    Senator Boozman. No, it is fine. He had a good excuse. He 
was going to visit with the President.

                              DRUG COURTS

    Thank you so much for being here. I just want to echo, 
first, what my colleagues have said about drug courts, on both 
sides of the aisle. That is something that really does reduce 
recidivism. They are doing a great job in Arkansas, both the 
regular drug court and then also the veteran drug courts 
working with the VA, using resources that they have. That is 
just a great partnership that really is making a big 
difference.

                      DOJ VIOLENT CRIME TASK FORCE

    I am pleased that the DOJ is reinvesting in a strategy that 
targets violent crime. I understand that you have created a 
violent crimes strategy task force.
    Can you elaborate on the details, including what agencies 
are playing what roles? And do you have the necessary resources 
that you need to carry out the mission, which is so very 
important?
    Mr. Rosenstein. Yes, thank you, Senator.
    With regard to violent crime, which I know you are aware, 
in 2015, violent crime increased by more than 3 percent, which 
to just put that in context, is the largest 1-year increase we 
have experienced since 1991 nationwide. The number of murders 
in 2015 increased by 11 percent, which was the largest 1-year 
increase since 1971.
    So we consider this to be an urgent problem for us. The 
Attorney General established a task force on violent crime 
reduction in public safety. That task force is drawing on 
expertise from throughout the Department to come up with 
strategies. And we have a number of proposals, some of which 
are in this budget, that will help us to reinvigorate our fight 
against violent crime, including, I am hopeful, that we will be 
able to reinstitute what was referred to as Project Safe 
Neighborhoods. It was a program that I was involved in back 
when I first became U.S. Attorney. And we hope to reinvigorate 
that program where we work together with other State and local 
partners to identify what are the violent crime problems in 
their communities and how can Federal resources best be used to 
solve them.
    I think that the issue you opened with Senator is 
particularly important to me because these drug courts are 
primarily an issue for our State and local partners. They deal 
with, on a daily basis, a large volume of offenders, people who 
have committed crimes who are drug addicts. In the Federal 
system, typically, when we are prosecuting drug cases, they are 
distributors, not addicts, so we deal with a different type of 
defendant. But for State and local partners, if they are able 
to help those folks overcome their drug addiction, they are 
going to be able to reduce crime. So I think it is critically 
important for us to support those efforts.

                     EOIR--IMMIGRATION CASE BACKLOG

    Senator Boozman. Very good. I am chairing the Homeland 
Security Appropriations Subcommittee. One of our concerns is 
the number of immigration judges. We have, I believe, about a 
500,000 backlog. I think there is $75 million to put more 
resources in there, more judges.
    Can you talk a little bit about that, the efforts that you 
are making in that regard, and kind of what the plan is to 
eliminate the backlog, how you are going to resource those 
judges?
    Mr. Rosenstein. There are really two ways Senator that we 
are acting immediately to try to deal with that backlog. The 
first is by filling existing vacancies, because there was a 
delay in filling immigration judge vacancies as they arose, so 
we had a lot of judicial slots that were already funded but 
were vacant, and we are now moving quickly to fill those 
positions.
    In addition to that, our 2018 budget requests $500 million 
for the office and the Department. It is called the Executive 
Office of Immigration Review. That is the office that handles 
those cases. That will include $75 million for new judges, 75 
new judges and a total of 450 staff, which includes the folks 
to support those judges.
    So once we get all those folks out into the field, we 
anticipate we are going to make a big impact on that backlog. 
It will represent a 21 percent increase in our overall staff, 
and we will be able to adjudicate those immigration cases, I 
believe, much more fairly and expeditiously.
    And in addition to that, we are working to fill those 36 
vacancies that already exist. We already hired 38 immigration 
judges this year, and we hope to have a full complement, to 
have all of the 345 additional slots filled by the end of the 
year.
    Senator Boozman. Are you going to realign or are you in the 
process of realigning where they are at? And teleconferencing 
and things like that, do we use those kinds of technologies?
    Mr. Rosenstein. We are looking at alignment as in where we 
need the judges, and we are going to put them in the places we 
think they are the most valuable. I do hope to look at ways 
that we can operate more efficiently.
    You mentioned teleconferencing, to use technology to move 
these cases quicker. I do not think there is any--it is not 
good for anybody to have these cases pending for so long. The 
director of our Executive Office of Immigration Review recently 
left the Department. We now have an acting director, and I plan 
to work closely with him and with his successor when we appoint 
a permanent director. And the challenge I have given to him is 
let's fill the vacancies, but let's also figure out whether 
there are efficiencies that we can implement, ways we can move 
these cases through the system more quickly, because I think 
that is in everybody's interest.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    I have several questions, and then I will go to Senator 
Shaheen.

                       MADOFF VICTIMS FUND (MVF)

    The Justice Department, it is my understanding, currently 
holds over $4 billion in forfeited and seized assets in a fund 
set up to compensate victims of the Bernie Madoff fraud. The 
Department is now in year 6 of the fund and, to date, to my 
knowledge, no assets have been disbursed to victims. In 
addition, news reports indicate that the special master of this 
fund has collected over $40 million in fees.
    Questions have been raised about the methodology of making 
distributions and determining the validity of claims--that 
these methodologies are unorthodox and unworkable. Obviously, 
they are not working, if there has been no distribution.
    Would the Department be inclined to review this matter? In 
other words, look at this--there is something wrong here--and 
see if there is a manner in which these distributions can be 
made more quickly and efficiently, because the fund was set up 
to compensate the victims.
    You have been a prosecutor. You still are. Do you have a 
comment on that?
    Mr. Rosenstein. Yes, sir. I agree with you.
    I think, from the perspective of our prosecutors and 
agents, one of the most important things we can do is to 
reimburse victims----
    Senator Shelby. That is right.
    Mr. Rosenstein [continuing]. Able to do it.
    Senator Shelby. That was the purpose of the fund, wasn't 
it?
    Mr. Rosenstein. Yes, that is correct. And we should do it 
as quickly as possible.
    As I understand--I just learned about this issue this week, 
Senator, so I need to look into it a bit more. But my 
understanding is, the problem here was the volume of claims 
that we received. I understand 65,000 claims, so it is a 
process of making sure that each one of those is dealt with 
individually. And we do not distribute the money until we are 
confident about the pool of people who ought to receive it.
    So I do appreciate your concern, and I can commit to you I 
am going to look into that and figure out why it is taking so 
long.
    Senator Shelby. Will you get back to the subcommittee on 
this?
    Mr. Rosenstein. Yes, sir.
    Senator Shelby. It has been raised by a number of people 
with us. Will you do that?
    Mr. Rosenstein. Yes. My understanding is that we have 
recently begun to notify claimants about decisions, so there 
are some people who are getting answers from us. But I will 
report back to you on that.
    [The information follows:]

    The Madoff Victims Fund (MVF) was created in 2013. The deadline for 
filing petitions was in April of 2014. Since that time, the Special 
Master and Department personnel have been hard at work evaluating more 
than 65,400 petitions claiming approximately $78 billion in losses on 
Madoff-related investments. Petitions came from individuals and 
entities in 136 countries. The Special Master and his team have 
reviewed more than 403,000 individual Madoff transactions in 13 
currencies. Approximately 4.5 million pages of backup documentation 
also needed to be evaluated. The Special Master identified almost 
31,000 petitions (for losses totaling approximately $27 billion) that 
were incomplete. In order to capture all eligible victims, each of 
those petitioners was notified of the deficiencies and given an 
opportunity to cure the deficiency and file an eligible claim.
    This process is necessary to confirm which petitions are eligible 
and that the amount claimed is accurate. The total amount available to 
compensate victims is approximately $4 billion. Ineligible or 
overstated petitions would dilute the potential recoveries of real 
victims. If the Department had begun making payments before potential 
victims had been given an opportunity to cure deficiencies, we would 
have risked denying the claims of otherwise eligible victims.
    The Department has now largely completed its review. The Department 
has issued rulings on approximately 60,000 petitions. In early June, 
over 35,000 petitions were approved, and individuals and entities have 
begun receiving notifications that their claims have been approved or 
denied. As a result of these decisions, the Department is poised to 
make initial payments by the end of the year.
    Additional information regarding the ongoing MVF review, including 
an update from June 2017 specifically addressing the recent decisions 
and anticipated payment timeline, can be found at 
www.madoffvictimfund.com.

    Senator Shelby. Thank you.

                     U.S./U.K. BILATERAL AGREEMENT

    Regarding counterterrorism, how does the Department's 2018 
budget, particularly funding for the FBI, improve its 
partnership, say with the United Kingdom and other Five Eye 
Partners in the global war on terror? And what benefits do you 
feel will come from the new bilateral agreement between the 
U.S. and the U.K. to expand data-sharing in this area?
    Mr. Rosenstein. Thank you, Senator.
    National security is our highest priority, and the key to 
effectively combating terrorism is to work with our partners in 
foreign countries, so that is critically important to us.
    With regard to this issue of the bilateral agreement 
between the U.S. and the U.K., I think that that is critical to 
allow us to lawfully and efficiently access electronic data. 
Data-sharing is critical and, of course, one of the challenges 
is we share data. We also need to maintain the confidentiality 
of data.
    What we introduced last month was a legislative proposal to 
enable bilateral agreements. Those key benefits would include 
helping our allies investigate and fight serious crime, 
reducing and eliminating conflicts of laws that put our 
technology companies in a difficult position. This is a 
challenge for American companies that have information. It may 
be lawful in one country but not in another country to share 
it.
    So this bilateral agreement process will allow us to bring 
our laws into harmony. And it will also accomplish other goals, 
such as reducing the incentive to localize data by companies.
    So we look forward to working with the Congress, and we 
look forward to addressing any of the concerns that you may 
have about it.
    Senator Shelby. Thank you.

                             CYBERSECURITY

    In the area of cybersecurity, over the past couple of 
years, we have all witnessed serious data breaches occur in the 
U.S. Government and also the private sector, including at some 
of the Nation's largest companies and financial institutions. 
The Department is requesting additional funding in the fiscal 
year 2018 budget to combat cybercrime across several agencies, 
including the FBI, the National Security Division, the Criminal 
Division, and many U.S. Attorneys offices.
    My question is, what is the Department proposing to do 
differently or additionally in 2018 to combat cybercrime that 
it is currently unable to accomplish with existing funds?
    Mr. Rosenstein. As I mentioned in my opening statement, 
Senator, cybercrime is an area of emerging challenges. Changes 
in technology constantly create new challenges for us. Some 
changes in technology actually are developed in an effort to 
defeat enforcement efforts.
    So our enhancements include $41.5 million to enhance the 
FBI cyber efforts. That will include improving technological 
tools and expanding high-speed networks. It includes $20 
million to address threats posed by foreign intelligence and 
insiders, and $22 million to address this ``Going Dark'' 
problem, which I think is our most significant law enforcement 
challenge.
    Senator Shelby. But you have a heck of a challenge here, do 
you not?
    Mr. Rosenstein. Yes, we do. We have extraordinarily 
talented agents and prosecutors and support personnel, but this 
technology, Senator, is a tremendous challenge for us because 
they are always trying to stay a step ahead of us.
    Senator Shelby. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Rosenstein, I very much appreciate the statements that 
you made here this morning about your commitment to addressing 
the heroin and opioid epidemic.

                       HEROIN AND OPIOID EPIDEMIC

    As you may be aware, in New Hampshire, we are second only 
to West Virginia in terms of the percentage of overdose deaths. 
And this year, sadly, we have seen carfentanil arrive in New 
Hampshire and have had six people die in the State from that 
substance.
    I understand that the Department is looking at 
reprioritizing efforts to address drug enforcement, but I just 
disagree with your decisions in a couple of areas. One is the 
elimination of the COPS Anti-Heroin Task Force grant program.
    Senator Feinstein spoke about her efforts to focus on 
methamphetamine, which have been successful. It was looking at 
that successful model that Senator Leahy and I tried to direct 
some support to local law enforcement. While I think our DEA 
agents and our Federal law enforcement officials do a great 
job, we just do not have as many of them in New Hampshire as we 
do local law enforcement, and we need to provide some resources 
for local law enforcement because they are the people who, day 
in and day out, are actually on the frontlines.
    So I would urge you to rethink whether eliminating the 
Anti-Heroin Task Force grant program is really in the interest 
of what we are all trying to accomplish.
    You also spoke about meeting with Chinese officials to 
discuss mail order drugs that are coming into the United 
States. There was a story this weekend by the New York Times 
reporting on the dark web that is being used to sell synthetic 
drugs and opioids like fentanyl. Can you tell me what you are 
doing to shut down those sites?
    Mr. Rosenstein. Yes, Senator.
    First of all, with regard to the task forces, I completely 
respect your view on that. The point I would simply like to 
make is we have different ways of addressing the same issue, 
but we are committed to spending more resources on heroin and 
opioid drugs.

                              DRUG COURTS

    Senator Shaheen. Can I just interrupt you, because the 
other issue that has been brought up by several of my 
colleagues has been drug courts, which we have found to be very 
effective in New Hampshire. Yet you have reduced funding for 
drug courts in the 2018 budget.
    Mr. Rosenstein. I had the number. I am not certain about 
the reduction.
    Senator Shaheen. From $43 million to $40 million.
    Mr. Rosenstein. Okay, right.
    Senator Shaheen. While it may not seem like a lot of money, 
in New Hampshire, that is a lot of money.
    Mr. Rosenstein. Yes, I understand. It is a lot of money to 
me, too, Senator.
    But I think it does reflect, nonetheless, a commitment. 
That $40 million does reflect our confidence that that program 
can be effective. And I am sure that if that program is funded, 
I will work with the Office of Justice Programs--I know I will 
work with the Office of Justice Programs to make sure it is 
spent effectively.
    To address your question about China, I have been in this 
job for 6 weeks. I have not met with China, but I do hope to 
talk with DEA and with the Postal Inspection Service and any 
other Federal agencies that have a stake in this to figure out 
what we can do.
    The problem with the dark web, and I am familiar with the 
story you are referring to, is that it is a very effective tool 
for criminals to commit crime----
    Senator Shaheen. It is.
    Mr. Rosenstein [continuing]. With limited ability to be 
detected. But we do have ways to catch those criminals.
    We had a case just a couple years ago involving a dark web 
site in which the defendant was caught and successfully 
prosecuted in New York and will no longer be in position to use 
the Internet as a tool to distribute drugs and to facilitate 
other crimes. So we do have the ability to catch these 
offenders, but it is challenging because of the technological 
burdens.
    But I will work with FBI, DEA, Secret Service, and other 
agencies to do everything that we can to get ahead of that 
problem.
    Senator Shaheen. Thank you. And if there are legal changes 
in policy that need to be made, I hope you will share that with 
us, so we can try to support your efforts.

                   U.S. MARSHALS--PROTECTIVE DETAILS

    Let me go to another topic very quickly. In April, the 
Marshals Service estimated that the round-the-clock protective 
detail for Education Secretary DeVos Cost $1 million per month. 
By the end of September, this is going to total $8 million.
    I just wonder if you can tell me why the Marshals Service 
is playing this role in her protective detail. I understand 
that there are four to eight deputy marshals at a time on the 
detail when the Department of Education has their own security 
team. Can you tell me who made this determination about why 
this was necessary?
    My understanding is the only time that this has ever been 
done before was for the ONDCP drug czar in the 1990s.
    Mr. Rosenstein. Senator, I do not know. That decision was 
made before I was confirmed. What I would like to do is look 
into it and get back to you.
    [The information follows:

    By order of the Attorney General, based on statutory authority, the 
U.S. Marshals Service started providing a protective detail for U.S. 
Secretary of Education Elisabeth ``Betsy'' DeVos on Feb. 13, 2017. USMS 
conducted a threat assessment on Ms. DeVos and determined that a threat 
to the secretary's safety exists. A Memorandum of Understanding between 
the U.S. Department of Education and the U.S. Marshals Service for 
protective services for Ms. DeVos was signed March 28, retroactive to 
Feb. 14.

    Senator Shaheen. I would appreciate that. I was a Governor. 
I have had credible threats against me. I have never had four 
to eight people on my detail 24 hours per day.
    Thank you.
    Senator Shelby. Senator Coons.
    Senator Coons. Thank you, Chairman Shelby.

                  DOJ FISCAL YEAR 2018 BUDGET REQUEST

    Thank you, Deputy Attorney General Rosenstein. I appreciate 
the chance to talk with you about some of the budgetary details 
relating to the Department of Justice.
    First, just to follow up on a number of Senators who have 
talked to you about fentanyl and the heroin crisis, I just 
commend to you the STOP Act, a bipartisan bill led by Senators 
Portman and Klobuchar. Many of us are cosponsors, myself 
included. It tries to deal with some of the issues around the 
shipment of fentanyl into the United States and strengthen some 
of our postal inspection abilities.
    On an appropriations subcommittee where I am the ranking, 
we have responsibility for the Office of National Drug Control 
Policy. It is not the subject of this hearing today, but I do 
intend to push back on the elimination of funding, because I 
think their HIDTA program has been particularly helpful.
    The bulletproof vest partnership is a program I have long 
supported, and it has given roughly 13,000 jurisdictions 
bulletproof vests that are anatomically appropriate, and 
represent the current best technology. The Federal role is 
making sure that they are high-performing bulletproof vests. 
They have literally saved the lives of law enforcement 
officials, some of whom I know personally from my home State.
    I am pleased the request maintains funding for this 
important program, but the request makes it a carveout in the 
Justice Assistance Grants rather than being funded separately, 
as has been the case in the past. Similarly, the body-worn 
camera partnership is a carveout of the Justice Assistance 
Grant programs.
    So, effectively, these two programs would cut Justice 
Assistance Grants by $45 million by carving them out rather 
than having them separately funded, on top of the $71 million 
cut that is clearly shown in the request. In a budget focused 
on addressing violent crime and supporting law enforcement, why 
did the administration slash resources for State and local law 
enforcement by making the bulletproof vest partnership and the 
body-worn camera partnership a carveout of the larger JAG 
program rather than funding them separately?
    Mr. Rosenstein. Senator, my understanding is that we have 
recommended $22.5 million for that bulletproof vest program, 
which I agree with you is important and, as you pointed out, is 
actually consistent with the amount that was allocated over the 
last 2 fiscal years. My understanding is it is set aside--it is 
set aside within the Byrne JAG program.
    So I do not know the technical reasons for that, but I can 
tell you that I think it is an important program. And the 
budget does propose to spend $22.5 million on those vests. And, 
if approved, I am sure we will.
    Senator Coons. I look forward to working with you to ensure 
those resources are available in a long-term and predictable 
way. I was pointing out that the reduction in Byrne JAG, which 
I think 50 Senators joined a letter opposing a reduction in 
that, is even greater because these are programs that were 
previously separately funded.
    My hometown of Wilmington is one of a number of cities 
where we have seen a significant spike in violent crime. The 
Violence Reduction Network was an effective high-impact 
partnership between Federal law enforcement and local law 
enforcement.
    Just to give one example, we saw homicide clearance rates 
jump from below 20 percent to about 50 percent. And I want to 
specifically thank again OJP's Bureau of Justice Assistance and 
their hardworking team for their efforts that made possible 
John Skinner, who is a Baltimore PD leader, coming to 
Wilmington and coordinating a whole series of different Federal 
law enforcement interventions that were cumulatively very 
powerful.
    In your response to my questions for the record in your 
confirmation hearing, you said reducing violent crime would be 
a top priority for you and you would review the funding 
mechanisms and available resources. Will you commit to ensuring 
Federal resources continue to assist cities like Wilmington who 
have partnered, who have made progress, have shown themselves 
to be good partners with Federal law enforcement through 
programs like VRN in the past?
    Mr. Rosenstein. Yes, Senator. In fact, John Skinner, I knew 
John from Baltimore, and I worked with the Department in the 
VRN rollout. I am very pleased that the program was effective 
in Wilmington.

              DOJ GRANTS--VIOLENCE REDUCTION NETWORK (VRN)

    We are requesting funding of $5 million for the National 
Crime Reduction Assistance Network, which is the formal name of 
VRN, or Violence Reduction Network. I think that is really a 
very important opportunity for cities to consult directly with 
the Department and with international and national 
practitioners and researchers, people with proven track records 
that can bring best practices to local jurisdictions. Because 
we have a lot of extraordinarily committed law enforcement 
officers out there, police chiefs and sheriffs, who welcome the 
assistance, the insights that can be provided from somebody who 
comes in and takes a fresh look and brings ideas that may be 
working in other places.
    So I strongly support that program. We have a symposium--I 
believe it may even be next week--a symposium that is part of 
our violent crime initiative, and I do intend to make that a 
priority.
    Senator Coons. Thank you. Anything we can do to 
appropriately partner between Federal law enforcement and some 
of the municipalities in my home State to continue to see 
sustained, elevated, stubbornly difficult levels of crime. If 
anything, they have gotten worse in the past year.
    We have new leadership in the city and police department. 
We have dedicated law enforcement officers, and our previous 
chief was also quite responsive, as the VRN success shows. We 
need to continue to engage on this, and I appreciate the 
investment in learning from and carrying forward what VRN was 
able to do.
    Thank you.
    Mr. Rosenstein. Thank you.
    Senator Shelby. Thank you, sir, for appearing here today.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this afternoon, Senators 
will have the opportunity to submit additional questions for 
the record, which will be part of the hearing record. We would 
request the Department of Justice answer those questions, 
because some Senators were in other committees today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Rod J. Rosenstein
            Questions Submitted by Senator Richard C. Shelby
                   guantanamo bay detention facility
    Question 1. Mr. Deputy Attorney General, since 2009 Congress has 
consistently--on a bipartisan basis--prohibited the closure of the 
terrorist detention facility at Guantanamo Bay. This Subcommittee once 
again included two prohibitions in the fiscal year 2017 spending bill 
restricting the transfer and housing of these terrorist detainees on 
U.S. soil. And yet, in a statement issued by the President upon signing 
the 2017 Omnibus into law, he raised concerns about these specific 
provisions and, in doing so, raised questions about his future 
direction on Guantanamo Bay detainees. The Attorney General has 
previously supported Federal laws that prohibit the transfer of 
terrorist detainees from Guantanamo to U.S. soil.
    How would you and the Attorney General advise the President if his 
administration explored closing the Guantanamo prison and transferring 
terrorist detainees to American soil?
    Answer. Congress has barred the transfer of Guantanamo Bay 
detainees to the United States for any purpose in each National Defense 
Authorization Act since 2012. Unless those transfer restrictions were 
lifted, Guantanamo detainees could be not brought to the United States.
                   internal cybersecurity at justice
    Question 2(a). The recent ``WannaCry'' virus was a challenge for 
many foreign government agencies. I have heard that there are variants 
of the ``WannaCry'' virus that will now infect devices, which means IP-
connected devices, or ``endpoints,'' that are separate from desktops 
and laptops. I am concerned that the Department may have a great deal 
of this equipment on its networks, especially those agencies that rely 
on connected equipment to conduct their operations.
    a.  Did you find instances of ``WannaCry'' on Department of Justice 
computers? If you did not, then what do you think was key to preventing 
the attack from compromising Department computers?
    Answer. The Department did not find any instance of WannaCry, and 
subsequently did not experience any system compromise related to the 
WannaCry and follow-on NotPetya malware on any of our more than 225,000 
computers. At the onset of the outbreak, the Department took any 
remaining vulnerable systems offline until they were remediated. The 
keys to preventing compromise were the Department's threat intelligence 
and aggressive patch management program which allowed us to remediate 
the vulnerabilities exploited by WannaCry and NotPetya malware in 
advance of the attack. Furthermore, the Department's modern e-mail/web 
countermeasure systems blocked the vast majority of the phishing e-
mails containing the WannaCry and NotPetya malware.
    Question 2(b). Do you have a way to inventory all this connected 
equipment and to profile it to determine whether it has been 
compromised? If you do not, then isn't detecting and profiling 
connected devices one of the key Continuous Diagnostics and Mitigation 
requirements? Will DOJ meet those requirements?
    Answer. Yes, we do. The Department has had an automated enterprise 
asset inventory, configuration and vulnerability management solution 
that gives us near real-time insight to the Department's cybersecurity 
posture, ahead of the Department of Homeland Security's Continuous 
Diagnostics Migration program.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
          combatting heroin and abuse of prescription opioids
    Question 1(a). How can the Prescription Drug Monitoring Program be 
more effective in the fight against over prescription and unscrupulous 
doctors? What more can DOJ do to strengthen compliance and ensure 
pharmacies and doctors submit data?
    Answer. OJP's Harold Rogers Prescription Drug Monitoring Program 
(PDMP) is designed to promote a number of goals related to improving 
the Nation's PDMP systems, including:
    1.  Preventing prescription drug misuse through interagency 
collaboration and analysis of PDMP data;
    2.  Reducing the variations that exist in the type of information 
collected, who is allowed to access the data, and the requirements for 
use and reporting;
    3.  Promoting interstate PDMP information sharing and the 
development of inter-operable PDMP systems; and
    4.  Assisting states in developing the capacity to work across 
systems to leverage various data sets (such as PDMP data, naloxone 
administrations, fatal and non-fatal overdose data, and drug arrests) 
to develop data-driven interventions.
    PDMPs are State-run electronic database systems used by 
practitioners, pharmacists, medical and pharmacy boards, and law 
enforcement. However, access varies according to State law. These 
programs are established through State legislation and are tailored to 
the specific needs of individual states. DEA strongly supports PDMPs 
and encourages the use of these programs by medical professionals in 
detecting and preventing doctor shopping and other diversion. However, 
because PDMPs are established under State law, DEA has no authority to 
manage or enhance the programs. At this time, 49 states, the District 
of Columbia, and the U.S. territory of Guam are operating statewide 
PDMP systems. In July 2017, Missouri Governor Eric Greitens announced 
an executive order to create a statewide PDMP system for the state--the 
last remaining State without a PDMP.
    While PDMPs are valuable tools for prescribers, pharmacists, and 
law enforcement agencies to identify, detect, and prevent nonmedical 
prescription drug use and diversion, PDMPs do have some limits in 
detecting retail-level diversion. For example, the use of PDMPs is 
limited across State lines because interconnectivity remains a 
challenge. Often, crossing State lines allows subjects to evade 
detection. Many drug traffickers and drug seekers willingly travel 
hundreds of miles to gain easy access from unscrupulous clinics and 
physicians.
    The Department of Justice, along with other Federal partners, works 
to address these problems. Several Federal entities, including the 
Office of the National Coordinator for Health Information Technology, 
the Office of National Drug Control Policy (ONDCP), and the Bureau of 
Justice Assistance support efforts to improve interoperability among 
PDMPs through grants and other assistance. The Centers for Disease 
Control and Prevention support work to enhance and maximize PDMPs as 
public health and clinical tools in its Prevention for States 
program.\1\ Further, the Alliance of States with Prescription Drug 
Monitoring Programs, Brandeis University's PDMP Center of Excellence, 
and the Indian Health Service (IHS) are also partnering to improve 
interoperability between the IHS, its pharmacies, and PDMPs. The 
National Association of Boards of Pharmacy (NABP) hosts NABP 
Prescription Monitoring Program (PMP) InterConnect. The program allows 
authorized users of participating PDMPs to securely exchange 
prescription data between certain states. As of July 2017, 43 states 
have executed Memoranda of Understanding to participate in NABP's 
InterConnect program, and 42 of these states are currently live.\2\
---------------------------------------------------------------------------
    \1\ Centers for Disease Control and Prevention, National Center for 
Injury Prevention and Control Division of Unintentional Injury 
Prevention website, available at http://www.cdc.gov/drugoverdose/
states/state_prevention.html. Retrieved on September 21, 2016.
    \2\ National Association of Boards of Pharmacy website, available 
at http://www.nabp.net/
programs/pmp-interconnect/nabp-pmp-interconnect. Retrieved on July 17, 
2017.
---------------------------------------------------------------------------
    These programs, however, are only as good as the data inputted into 
each system and the willingness of practitioners and pharmacists to use 
such systems on a consistent basis. As of April 2017, a total of 35 
states and territories require controlled substance prescribers to use 
the State's PDMP.\3\ DEA encourages all practitioners and pharmacists 
to use their State PDMP program.
---------------------------------------------------------------------------
    \3\ Prescription Drug Monitoring Program Training and Technical 
Assistance Center at Brandeis University website, available at: http://
www.pdmpassist.org/pdf/Mandatory_Query_7.pdf. Retrieved on July 17, 
2017.
---------------------------------------------------------------------------
    Greater adoption of PDMP best practices would improve the 
usefulness of prescription drug monitoring programs and expand the 
number of healthcare providers using them. These best practices have 
been widely documented and are outlined in a recent publication by the 
Pew Charitable Trusts, Prescription Drug Monitoring Programs: Evidence-
based Practices to Optimize Prescriber Use. These practices include:
  --Requiring a prescriber to view a patient's PDMP data under certain 
        circumstances, such as before writing an initial prescription 
        for a controlled substance.
  --Allowing prescribers to designate someone on staff, such as a 
        nurse, to access the PDMP on their behalf to help manage 
        workflow.
  --Proactively sending communications from PDMP staff to prescribers, 
        dispensers, law enforcement, and regulators to flag potentially 
        harmful drug use or prescribing activity based on PDMP data.
  --Uploading information into the database at set intervals, whether 
        in real time, daily, weekly, or monthly.
  --Simplifying processes, such as instituting automatic PDMP 
        registration triggered by State controlled-substance 
        registration, to more easily enable prescribers to enroll in a 
        PDMP.
  --Making efforts to promote the program, including prescriber 
        training (via formats that include online videos and 
        instructional materials) on how to access and use PDMP data.
  --Combining PDMP data with other clinical data through technologies 
        that are used to store, communicate, and analyze health 
        information, such as electronic health records.
  --Implementing user-friendly technologies, such as dashboards and 
        mobile applications that provide PDMP data in easily 
        understandable formats.
    Question 1(b). What is being done at a collaborative level with 
DOJ's counterparts in China and Mexico in relation to the production 
and distribution of fentanyl and the even deadlier carfentanil?
    Answer. DEA has maintained an ongoing relationship with officials 
of the People's Republic of China Government for years, and it has 
leveraged this relationship to help combat the rising threat from 
fentanyl and its analogues. Engagement occurs at the leadership level 
through interagency working groups that operate under the U.S.-China 
Joint Liaison Group framework, the Counternarcotics Working Group led 
by the Department of Justice, and the Bilateral Intelligence Working 
Group led by DEA.
    On March 1, 2017, China's National Narcotics Control Commission 
announced scheduling controls against four fentanyl-class substances: 
carfentanil, furanyl fentanyl, valeryl fentanyl, and acryl fentanyl. 
This announcement was the culmination of ongoing collaboration between 
DEA and the Chinese Government, and reaffirms the shared commitment to 
countering illicit fentanyl. On June 19, 2017, China announced that it 
also placed under control U-47700, a synthetic opioid responsible for 
many overdose deaths in the United States.
    Over the past year, DEA and Chinese officials have met regularly to 
discuss mutual interests and shared responsibilities in countering the 
threat from fentanyl class substances. Representatives from the China 
National Narcotics Laboratory, the Narcotics Control Bureau, and the 
Ministry of Public Security met with DEA (along with Department of 
Justice and Department of Homeland Security) officials to exchange 
information on emerging substances' scientific data, trafficking 
trends, and sample exchanges. This continued dialogue is anticipated to 
foster a bilateral information exchange related, but not limited to, 
the identification of new substances of abuse that may then be 
considered for national control. The meeting also deepened professional 
contacts between relevant technical and legal experts.
    DEA is working with the Office of National Drug Control Policy 
(ONDCP) and the Department of State to enhance coordination with Canada 
and Mexico to combat the opioid crisis through the North American 
Dialogue on Drug Policy (NADD). Through the inaugural trilateral 
meeting in October 2016 and March 2017 technical workshops, DEA has 
shared best practices and methodology on identifying the sources of 
heroin and fentanyl in North America and combatting criminal 
distribution networks. DEA will continue to work with Canada and Mexico 
to convene experts in these fields so that our three countries can 
better prevent the production and movement of drugs in and through our 
countries.
    Question 1(c). Are all international law enforcement members 
participating in DEA Sensitive Investigation Units fully vetted? If 
not, why? What steps does DEA take to ensure international partners do 
not leak information?
    Answer. Membership in a Sensitive Investigative Unit (SIU) is 
contingent upon successful completion of a background investigation, 
drug urinalysis, and polygraph examination. Members that have not 
successfully adjudicated each requirement may not participate in SIU 
units or investigations nor gain access to the SIU facilities. This 
also applies to support personnel such as accountants, attorneys, 
maintenance personnel, translators, and security guards. Additionally, 
in order to maximize control and safeguard sensitive information, DEA 
Special Agent Advisors (SAAs) must be assigned at a minimum ratio of 
one SAA to every 15 SIU members. The SAAs, working side-by-side with 
the SIU members, reduce the risk of compromise. Furthermore, all SIU 
facilities are controlled access and monitored 24 hours a day by SIU 
officers. All guests must be logged in and out of the facility and 
escorted at all times while on the premises.
    After the initial polygraph exam, SIU members and support personnel 
are subject to random polygraph examinations at any point during their 
tenure. They must also successfully pass a mandatory polygraph test 
every 36 months. Failed polygraph exams result in the immediate 
expulsion of the SIU member from the unit.
                      department of justice hiring
    Question 2(a). How many positions that had conditional offers of 
employment by February 21 across the entire Department were ultimately 
cancelled? What is the breakout by DOJ component? What was the cost to 
the taxpayer to initiate background investigations and other testing 
that went towards these cancelled, but ultimately unfilled, positions?
    Answer. As of February 21, 596 positions that had conditional 
offers of employment were cancelled across the entire Department. The 
breakout of these cancelled offers by the Department component is 
included in the table below. The approximate cost to initiate 
background investigations and other testing for the cancelled positions 
was $864,000. It should be noted that the Department's hiring freeze 
did not apply to national security or public safety positions (for the 
Bureau of Prisons, public safety positions were exempt up to the 
Bureau's January 23, 2017 hiring level).


------------------------------------------------------------------------
                                              Estimated # of Conditional
               DOJ Component                       Offers Cancelled
------------------------------------------------------------------------
Antitrust Division.........................   18
Bureau of Prisons..........................  450
Community Relations Service................    8
Executive Office for United States            45
 Attorneys.
Justice Management Division................   10
National Security Division.................    2
Office of Justice Programs.................   52
Tax Division...............................   11
                                            ----------------------------
      Total................................  596
------------------------------------------------------------------------


    Question 2(b). I understand that expansion of the medication 
assisted treatment program into Bureau of Prisons (BOP) New England 
Region is on hold as 2 positions needed to manage the program cannot be 
hired due to the freeze. This program provides drug treatment--an anti-
heroin drug called Vivitrol--for Federal inmates entering BOP managed 
halfway houses. How can we ensure these positions are filled to expand 
this critical program to New England?
    Answer. Medical staff are a priority for BOP and we appreciate your 
concern for the care of inmates. BOP Health Services Division has been 
working with the Human Resource Division to finalize crediting plans 
for the transitional care social worker and the transitional care 
pharmacist positions. The crediting plan for the social worker position 
was approved on July 12, 2017, and the Pharmacist position was approved 
on July 13, 2017.
    Question 2(c). Does DOJ consider BOP a component of public safety? 
Why is the BOP not exempt from the DOJ hiring freeze?
    Answer. In accordance with the administration's hiring directive, 
the Department has limited its hiring exemptions to the positions 
required to accomplish our national security and public safety 
responsibilities. In the case of BOP, the Department is permitting 
hiring at BOP field sites, to the overall staffing level existing on 
January 22, 2017. Within that limitation, BOP has flexibility to hire 
the positions it deems most critical and at the field locations it 
deems most critical. BOP will continue to closely monitor its staffing 
levels to ensure the continued safety and security of BOP employees, 
inmates, and the public.
    Question 2(d). What is the expected attrition rate for ATF, DEA, 
FBI, USMS, BOP and USAO for fiscal year 17 and fiscal year 18 broken 
out by each agency? What is the hiring cost to onboard and outfit new 
agents, deputy marshals and correctional officers?
    Answer. See chart below for estimated attrition for certain 
Department components.


------------------------------------------------------------------------
                                    Direct Personnel Estimated Attrition
   Component      Staff Category * -------------------------------------
                                     Fiscal Year 2017   Fiscal Year 2018
------------------------------------------------------------------------
  .............  All ATF Employees  295 (6%).........  237 (5%)
                  *.
                --------------------------------------------------------
ATF............
                 Special Agents...  [165] (6%).......  [104] (5%)
------------------------------------------------------------------------
  .............  All BOP Employees  2,500 (6%).......  2,900 (8.1%)
                  *.
                --------------------------------------------------------
BOP............
                 Correctional       [1,000] (5.5%)...  [715] (4.0%)
                  Officers.
------------------------------------------------------------------------
  .............  All DEA Employees  496 (5.5%).......  502 (5.6%)
                  *.
                --------------------------------------------------------
DEA............
                 Special Agents...  [218] (4.8%).....  [250] (5.6%)
------------------------------------------------------------------------
  .............  All FBI Employees  1,610 (4.4%).....  1,675 (4.5%)
                  *.
                --------------------------------------------------------
FBI............
                 Special Agents...  [635] (4.6%).....  [675] (4.9%)
------------------------------------------------------------------------
  .............  All USAO           960 (10%)........  950 (10%)
                  Employees *.
                --------------------------------------------------------
USAO...........
                 Attorneys........  [445] (9%).......  [460] (9%)
------------------------------------------------------------------------
  .............  All USMS           311 (9%).........  328 (9%)
                  Employees *.
                --------------------------------------------------------
USMS...........
                 Marshals.........  [184] (5%).......  [196] (5%)
------------------------------------------------------------------------
* The lines for all employees, include agents, correctional officers,
  attorneys, and Marshals.



                                                                  DOJ New Position Cost
                                                             Law Enforcement and Corrections
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                         Classification \1\                                                               Full Performance Level (FPL)
                      -------------------------------------------------------   Fiscal     Fiscal Year    Fiscal Year              Annual Cost
                               Initial   Full                                  Year 2018   2019 Second     2020 Third  ---------------------------------
      Component                   GS      GS                                  First Year       Year           Year
                       Series   Grade/  Grade/              Title               Initial   Annualization  Annualization  Compensation   Non-Pay    Total
                                 Step    Step                                  Costs \2\    (ATB) \3\      (ATB) \4\    and Benefits
--------------------------------------------------------------------------------------------------------------------------------------------------------
ATF                      1811  9/1       13/5   Special Agent                    305,202        7,694         69,514       195,016     187,394   382,410
--------------------------------------------------------------------------------------------------------------------------------------------------------
BOP \5\                  0007  5/1        8/6   Correctional Officer              58,000       42,000                                            100,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
DEA                      1811  9/1       13/5   Special Agent                    248,785        4,325         75,986       199,858     129,238   329,096
--------------------------------------------------------------------------------------------------------------------------------------------------------
FBI                      1811  10/3     13/10   Special Agent                    281,000      -51,000         88,000       212,907     105,093   318,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
                         0082  7/1
                               (Traine
                                e)
USMS                                     13/5   Deputy U.S. Marshal              218,346      -22,099         94,313       202,451      88,109   290,560
                         1811  9/1
                               (Deputy
                                 )
--------------------------------------------------------------------------------------------------------------------------------------------------------
Notes
------
\1\ Cost information shown is for domestic positions. New international positions incur additional costs not shown.
\2\ Some first year costs (such as pay and benefits) are calculated at 50% of actual. Assuming that new positions will be filled throughout the year,
  the average on-board time for all new positions would be six months.
\3\ During the second year, some costs decrease (such as equipment, vehicles, and recruitment) because they do not recur. Recurring costs (such as pay
  and benefits) increase from the 50% used in year 1 to full-year cost.
\4\ The third year annualization represents the cost adjustment necessary to fund pay and benefits for the new position at the full performance level.
\5\ BOP does not use the same methodology as law enforcement components to estimate new position costs.
 
Category Detail: Full Performance Level Annual Cost
------------------------------------------
Compensation and Benefits: basic salary, overtime, personnel benefits, awards, and Law Enforcement Availability Pay (LEAP).
Non-Pay: total show summarizes several cost categories--
Contract Services and Supplies (operational): fuel, ammunition, safety/protective equipment, uniforms, travel, rent, utilities, cell phone, office
  supplies.
Contract Services and Supplies (support): payroll services, security investigation/reinvestigation, drug testing, physical exam, medical care.
Equipment: firearms, technical and investigative equipment, vehicles, radios, computer (desktop/laptop), furniture.
Other: training (basic, advanced, miscellaneous), operational expenses, regularly scheduled PCS, IT enterprise costs, and DEA linguists.

                executive office for immigration review
    Question 3(a). Since February 1, 2017, how many immigration judges 
(IJs) have been ``surged'' to handle Southwest Border cases? What 
courts were these IJs moved from and where were they newly assigned? 
How long will this surge last? When will these judges return to their 
home courts?
    Answer. Immigration Judges (IJs) were mobilized to commence detail 
assignments to several DHS immigration detention facilities starting 
the week of March 6th. These details have included both in-person and 
video teleconference (VTC) docket assignments.
    Detail assignments were made after consultations with the IJ union 
and included volunteer and non-volunteer judges. Non-volunteer judges 
were selected on a variety of factors, including prior availability and 
reverse seniority. Most detail assignments were for two-week periods. 
For locations in close proximity to an IJ's home duty station, detail 
assignments have been up to 1 month.
    To date, IJs have been detailed from 17 immigration courts: 
Arlington, Baltimore, Chicago, Harlingen, Houston, Kansas City, Las 
Vegas, Los Angeles, Memphis, Miami, Newark, New York City, Orlando, 
Philadelphia, Phoenix, San Diego, and San Francisco.
    Question 3(b). What is being done to protect human trafficking 
victims in immigration court? What additional services, if any, are 
they provided? What is the average length of time a trafficking victim 
has to wait before his/her case is heard?
    Answer. Pursuant to several statutes, including the Trafficking 
Victims Protection Act (TVPA) and subsequent Trafficking Victims 
Protection Reauthorization Acts (TVPRAs), EOIR has provided all current 
IJs mandatory training, including updates and refreshers, on human 
trafficking issues. Additionally, all new immigration judges receive 
in-person training on human trafficking before they begin hearing 
cases. EOIR has also instituted a protocol that provides immigration 
court staff information about the indicators of trafficking and how to 
refer potential trafficking cases to the Department's Trafficking 
Intake Coordinator. Pursuant to 8 U.S.C. Sec. 1232(c)(4), EOIR also 
operates the Legal Orientation Program for Custodians of Unaccompanied 
Alien Children (LOPC), which addresses an adult caregiver's 
responsibility to protect an unaccompanied alien child from 
mistreatment, exploitation, and trafficking. LOPC providers are also 
provided guidance and training on identifying potential victims of 
trafficking and abuse and referring such cases to the appropriate 
social services and law enforcement authorities.
    Question 3(c). We heard about a streamlined process for onboarding 
IJs at the hearing. What is the new policy for expediting the hiring of 
IJs?
    Answer. The Department of Justice is actively implementing a new 
streamlined hiring plan that was announced by the Attorney General 
during a speech on April 11, 2017. The new hiring plan aims to reduce 
the overall hiring timeline, reflecting the need to decrease the 
pending caseload in our immigration courts, while maintaining the same 
amount of IJ applicant vetting as the previous plan. The revised plan 
sets clear deadlines for assessing applicants in the various stages of 
the process and for making decisions on moving applicants to the next 
stage. In order to decrease processing times, it eliminates steps that 
did not aid the selection process. It also permits the Attorney General 
to temporarily appoint selected candidates while the full background 
investigation is pending (which can often take up to a year to 
complete). The Department has estimated that, if implemented as 
intended, the new hiring process should reduce the amount of time that 
it takes to recommend applicants for hire to 6 months or less. The 
Department will utilize this revised process going forward to increase 
the speed of hiring and to fill new vacancies as soon as possible.
            national incident-based reporting system (nibrs)
    Question 4(a). How many law enforcement agencies currently submit 
NIBRS data?
    Answer. As of June 2017, there are 6,910 law enforcement agencies 
reporting National Incident-Based Reporting System (NIBRS) data.
    Question 4(b). Is NIBRS still slated to become the Uniform Crime 
Reporting data standard by January 1, 2021? If not, why?
    Answer. Uniform Crime Reporting (UCR) is in the process of 
transitioning all law enforcement agencies (LEAs) from a summary 
reporting system, which provides an aggregate monthly tally of crimes, 
to the National Incident-Based Reporting System (NIBRS), which provides 
circumstances and context of each crime incident, by January 1, 2021. 
Reporting via NIBRS will improve the quality, reliability, and accuracy 
of the data received from participating LEAs. NIBRS will also make it 
easier for LEAs to report hate crime data.
    In December 2015, the Criminal Justice Information Services 
Advisory Policy Board recommended that the UCR Program transition to a 
NIBRS-only data collection by January 1, 2021 and the FBI concurred. 
The FBI identified 400 strategically targeted agencies through the 
National Crime Statistics Exchange (NCS-X) Program in need of funding 
to transition to NIBRS. Over the course of the past few years, the FBI 
worked with the Office of Justice Programs on a plan to transfer $135 
million (cumulatively) in Criminal Justice Information Service (CJIS) 
surcharge fee balances in fiscal years 2016, 2017, and 2018 to ensure 
NIBRS becomes the UCR data standard by January 1, 2021. The cutoff date 
for solicitation of funding, through OJP, is December 2018, which 
ensures recipients will have adequate time to make the necessary 
technical and programmatic changes prior to January 2021. Recognizing 
the proposed CJIS rescission could have an impact on the FBI's ability 
to support the NIBRS transition efforts, the Department will continue 
to work with the FBI to mitigate any impact the rescission may have 
towards future projects.
    Question 4(c). What is the current status of the NCS-X Initiative? 
How many State and local law enforcement agencies have been supported 
through the Initiative to become compliant broken out by fiscal year?
    Answer. The Bureau of Justice Statistics (BJS) kicked off the 
National Crime Statistics Exchange (NCS-X) Initiative in 2013, 
originally designed as a feasibility study to determine if the 
Department could expand its collection of incident-based crime data 
from law enforcement agencies. Since the Initiative started, BJS has 
made steady progress toward NCS-X implementation. Specific to funding 
announcements:
  --Fiscal Year 2015.--The first NCS-X solicitation was released; using 
        BJS funds, awards were made to 14 State Uniform Crime Report 
        (UCR) Programs as the first step in NCS-X implementation.
  --Fiscal Year 2016.--Two NCS-X solicitations were released; using 
        both FBI Criminal Justice Information Services (CJIS) 
        automation funds and BJS funds, awards were made to seven 
        additional State UCR Programs and to 17 large local law 
        enforcement agencies.
  --Fiscal Year 2017.--Three NCS-X solicitations were released; using 
        both FBI CJIS automation funds and BJS funds, awards were made 
        to three additional State UCR Programs and to 14 local police 
        departments.<greek-l>

                                            L2,i1,s50,r50,r50,r50,r50
                          National Crime Statistics Exchange Implementation Milestones
----------------------------------------------------------------------------------------------------------------
              2013                       2014                2015                2016                2017
----------------------------------------------------------------------------------------------------------------
--BJS begins NCS-X project,       --Chicago Police    --Major law         --FBI Director      --FBI CJIS and BJS
 holds kick-off meeting with NCS-  Department agrees   enforcement         accepts the         participate in a
 X Implementation Team.            to participate in   associations sign   recommendation      series of 5
--BJS and FBI CJIS sign Joint      NCS-X and           letter supporting   from the CJIS       regional NIBRS
 Statement in Support of NCS-X.    partners with BJS   the national        Advisory Policy     trainings for NCS-
--IACP CJIS Committee issues       to become the       transition to       Board to retire     X states and
 resolution in support of NCS-X.   first NCS-X pilot   NIBRS and NCS-X.    the Summary         agencies.
                                   agency.            --BJS issues first   Reporting System   --Montgomery
                                  --BJS establishes    NCS-X funding       and move to an      County, MD Police
                                   the Crime           opportunity and     all-NIBRS data      Department, and
                                   Indicators          makes NCS-X         collection; sets    NCS-X agency,
                                   Working Group,      awards to 14        transition          begins reporting
                                   comprised of law    state UCR           deadline of         NIBRS data to the
                                   enforcement         Programs for        January 2012.       FBI.
                                   leaders who         NIBRS expansion.   --FBI CJIS agrees   --FBI CJIS
                                   provide input to   --BJS and FBI CJIS   to provide          indicates that
                                   BJS on the types    sign Charter        funding to BJS      use of automation
                                   of crime            establishing the    for NCS-X           funding is
                                   information most    NCS-X Steering      implementation      restricted;
                                   useful to the       Committee and       through their       cannot fund
                                   police.             hold inaugural      automation funds.   agency personnel
                                  --BJS and the NCS-   meeting; meetings  --BJS and FBI CJIS   or certain
                                   X Implementation    continue to be      sign Memorandum     equipment for NCS-
                                   Team begin          held quarterly      of Agreement        X grants.
                                   conducting          thereafter.         governing the use  --BJS issues 3 NCS-
                                   readiness                               of the FBI          X funding
                                   assessments with                        automation funds    opportunities and
                                   NCS-X sample                            for NCS-X.          makes NCS-X
                                   agencies.                              --BJS issues 2 NCS-  awards to 3 state
                                                                           X funding           UCR Programs, 4
                                                                           opportunities and   large local law
                                                                           makes NCS-X         enforcement
                                                                           awards to 7 state   agencies, and 10
                                                                           UCR Programs and    small and medium
                                                                           17 large local      sized agencies
                                                                           law enforcement     for NIBRS
                                                                           agencies for        expansion.
                                                                           NIBRS expansion.
----------------------------------------------------------------------------------------------------------------

    As of October 1, 2017, BJS has awarded $44.4 million to State UCR 
Programs and to local law enforcement agencies through the NCS-X 
Initiative for the implementation of NIBRS. This includes $34.8 million 
funded through the FBI automation funds and $9.6 million funded through 
BJS. The table below reflects funding provided across the 3 years of 
implementation from fiscal year 2015 to fiscal year 2017. Funding was 
available to State UCR Programs in all 3 years, to large law 
enforcement agencies in fiscal year 2016 and fiscal year 2017, and to 
small and medium law enforcement agencies in fiscal year 2017. In 
addition, State UCR Programs were eligible for supplemental funding in 
years following their initial award, to cover costs associated with 
additional NIBRS implementation activities.

  National Crime Statistics Exchange (NCS-X): Activities to Support State and Local Agency NIBRS Implementation
----------------------------------------------------------------------------------------------------------------
                                                  Total
   NCS-X Initiative Implementation Activity       Direct      Total Funding    CJIS Automation     BJS Funding
                                                  Awards         Awarded          Funding *
----------------------------------------------------------------------------------------------------------------
NCS-X Pilot Project Funding..................            5          $629,217                $0          $629,217
Fiscal Year 2015 Phase I Support for State              14        $7,395,000                $0        $7,395,000
 UCR Programs................................
Fiscal Year 2016 Phase II Support for State              7        $5,462,758        $5,062,758          $400,000
 UCR Programs................................
Fiscal Year 2016 Phase III Support for Large            16       $18,766,177       $18,766,177                $0
 Local Law Enforcement Agencies..............
Fiscal Year 2016 State Supplemental Funding              3          $520,523          $520,523                $0
 to Existing State Grantees..................
Fiscal Year 2017 Phase IV Support for State              3        $2,302,825        $1,950,153          $352,672
 UCR Programs
Fiscal Year 2017 Phase V Support for Large               4        $2,761,543        $2,579,474          $182,069
 Local Law Enforcement Agencies..............
Fiscal Year 2017 Phase VI Support for Small-            10        $2,480,662        $2,040,790          $439,872
 Medium Law Enforcement Agencies.............
Fiscal Year 2017 State Supplemental Funding              3        $4,103,180        $3,864,644          $238,536
 to Existing State Grantees..................
                                              ------------------------------------------------------------------
      Total Funding Awarded..................                    $44,421,885       $34,784,519        $9,637,366
----------------------------------------------------------------------------------------------------------------
* In 2017, FBI CJIS indicated that use of the automation funds was restricted and generally cannot be used to
  fund applicant requests for agency personnel or most equipment, including desktop computers or handheld mobile
  field reporting devices.


    Of the 400 sample law enforcement agencies chosen to participate in 
the NCS-X program, nearly two-thirds have received grant funding, have 
transitioned to NIBRS, or are actively working with BJS, FBI CJIS, and 
their respective State UCR Program to receive NCS-X funding through the 
State.


------------------------------------------------------------------------
                                                            Number of
                  NCS-X Funding Status                       Agencies
------------------------------------------------------------------------
Received NCS-X funding.................................  97
Transitioned to NIBRS..................................  36
NCS-X funding to be provided through State UCR Program   116
 or State Administering Agency.
Not yet supported......................................  151
                                                        ----------------
      Total agencies...................................  400
------------------------------------------------------------------------


    The NCS-X partnership between BJS and FBI CJIS has resulted in 
funding for 25 State UCR Programs and 97 NCS-X law enforcement 
agencies. In addition, BJS is establishing partnerships with State 
agencies in five states to provide funding and technical assistance to 
another 116 NCS-X agencies in fiscal year 2018. BJS will also issue 
funding opportunities in fiscal year 2018 for the remaining 151 
agencies not yet supported with NCS-X grant awards.
                  marshals service protective details
    Question 5(a). Who determined that the protective detail for 
Education Secretary Betsy DeVos was necessary? Why was it deemed 
necessary?
    Answer. The United States Marshals Service (USMS) received an order 
from the Attorney General, dated February 14, 2017, that directed the 
USMS Director to coordinate, assess, and provide appropriate protective 
measures for the Secretary of Education. The USMS has conducted risk 
assessments on Secretary DeVos that have shown a high level of risk.
    Question 5(b). Please provide a detailed cost assessment on this 
assignment to Secretary DeVos. How long will this detail continue?
    Answer. The Memorandum of Understanding (MOU) between the 
Department of Education and the U.S. Marshals Service, signed on March 
28, 2017, shall remain in effect for 4 years, subject to the 
availability of funds. The Department of Education initially agreed to 
reimburse the USMS up to $7,784,000 to fund the salaries, benefits, 
travel, and equipment of 24 positions (22 Deputy U.S. Marshals and 2 
intelligence analysts) through September 30, 2017. In mid-August 2017, 
the agreement was modified (reduced by $2,000,000) based on actual and 
projected expenses through the end of the fiscal year.
    Question 5(c). What is the average cost to provide a protective 
detail for a Federal judge? How many details for the Federal judiciary 
were provided in fiscal year 2016? How many have been provided for 
fiscal year 2017?
    Answer. The U.S. Marshals Service (USMS) does not calculate an 
average cost for Federal judiciary protection details. Protective 
requirements such as the number of personnel needed, location, travel, 
and detail duration can vary greatly from detail to detail.
    Set forth in the table below are a few examples of the costs of 
details. These amounts include regular payroll plus overtime, travel, 
lodging, and per diem for the Deputy U.S. Marshals who execute our 
threat-based protective details.
    In fiscal year 2016, the USMS provided 14 threat-based protection 
details and 556 risk-based protection details. As of June 30, 2017, the 
USMS has provided 10 threat-based protection details and 334 risk-based 
protection details.


------------------------------------------------------------------------
                                                        Fiscal Year 2017
               Detail                 Fiscal Year 2016   YTD (as of June
                                                               30)
------------------------------------------------------------------------
DAG.................................  $1,030,430        $1,557,292
Special Assignments.................  $8,764,986        $5,627,628
Secretary of Education..............                    $2,809,275
W/WA Judicial Security..............                    $131,280
SC Nominee..........................                    $583,497
------------------------------------------------------------------------


    Question 5(d). What other Cabinet heads are being provided 
protective details by the Marshals Service?
    Answer. No other Cabinet heads are being provided protective 
details by the U.S. Marshals Service at this time.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question 1. On May 4, 2017, President Trump issued an Executive 
Order to direct the Attorney General to issue guidance interpreting 
religious liberty protections in Federal law. What are some of the 
religious freedom issues you see that the Federal Government should 
address? What is the timeframe for when this guidance will be issued?
    Answer. In accordance with President Trump's Executive Order, the 
Attorney General issued guidance interpreting religious liberty 
protections in Federal law on October 6, 2017. The guidance identifies 
20 high-level principles that administrative agencies and executive 
departments can put to use to protect religious liberty of all 
Americans, along with an appendix that provides legal support for each 
principle. While not intended to be exhaustive, the guidance discusses 
protections that apply across a wide variety of government activity, 
including in employment, contracting, and programming.
    Question 2. In August 2016, the Bureau of Prisons (BOP) announced 
plans to end its use of private prisons. However, Attorney General 
Sessions rescinded this policy and directed BOP ``to return to its 
previous approach.'' Are all private facilities that were previously in 
use being used again? Do you believe that all such facilities are 
proper for housing our Federal inmates?
    Answer. Eleven of the thirteen privately operated adult facilities 
under contract with the Bureau of Prisons (BOP) in August 2016 are 
still used to house sentenced Federal offenders. All eleven privately 
operated adult contract facilities have received and maintain their 
American Correctional Association (ACA) accreditation, PREA 
certification, and accreditation by the Joint Commission, a non-profit 
organization that provides accreditation for healthcare programs. In 
addition, the BOP has oversight staff at each location to ensure that 
daily operations are in compliance with the contract terms and 
requirements.
    For decades, the BOP has relied on privately-operated prisons to 
house low-security criminal aliens. The private prison industry helped 
the BOP manage the unprecedented growth in the inmate population that 
began in the 1980s. While the Federal prison population has decreased 
in recent years, the BOP needs the flexibility of private prison 
contracts to avoid the need for costly, new BOP facility construction.
    Question 3. In fiscal year 2018, the Department of Justice is 
requesting $19 million in enhancements to target transnational criminal 
organizations. Please detail for the Subcommittee the role that 
interdiction will play in this effort and in particular, how the 
Department will work with the Departments of Defense and Homeland 
Security to intercept illicit drugs before they enter our borders.
    Answer. The Department of Justice works with many interagency 
partners and develops innovative and flexible approaches to the 
constantly evolving threats associated with transnational criminal 
organizations (TCOs), including those involved in drug trafficking. The 
Department's overall efforts to target TCOs are led and coordinated by 
the multi-agency Organized Crime Drug Enforcement Task Forces (OCDETF) 
and its components--the Department's Bureau of Alcohol, Tobacco, 
Firearms, and Explosives (ATF), Drug Enforcement Administration (DEA), 
Federal Bureau of Investigation (FBI), and U.S. Marshals Service 
(USMS); the Department of Homeland Security's (DHS) Homeland Security 
Investigations (HSI), U.S. Coast Guard (USCG), and U.S. Secret Service 
(USSS); the Treasury Department's Internal Revenue Service Criminal 
Investigation Division (IRS-CID); the Department of State's Diplomatic 
Security Service (DSS); the Department of Labor's Office of the 
Inspector General (DOL-OIG); the U.S. Postal Inspection Service 
(USPIS); the 93 U.S. Attorney's Offices; and the Department's Criminal 
Division--in conjunction with the International Organized Crime 
Intelligence and Operational Center (IOC-2) and the DEA-led Special 
Operations Division (SOD).
    Additionally, DEA and FBI, through their domestic and foreign 
offices, routinely work with DHS, specifically U.S. Customs and Border 
Patrol (CBP), HSI, and USCG, as well as the Department of Defense (DoD) 
to intercept illicit drugs from entering the United States across our 
land and maritime borders.
    The majority of illegal drugs destined for distribution and 
consumption in the United States are transported to and across the 
Southwest Border. The Department's OCDETF components work in 
partnership with the DHS components to stop drugs from crossing the 
border through interdictions at and between the Ports of Entry, as well 
as through complex investigations that are often developed from border 
interdictions to identify and target the TCOs that manufacture, 
transport, and distribute the drug loads. Many of the most hard-hitting 
blows against these TCOs have been struck by OCDETF's Co-located Strike 
Forces, located in key cities along the Southwest Border, where 
Department of Justice agencies work side-by-side with their DHS 
partners on a daily basis.
    A significant volume of illegal drugs destined for the continental 
United States is also transported over air and maritime routes from 
South and Central America to Mexico, Puerto Rico, and the Virgin 
Islands for staging and forwarding along land and additional maritime 
routes. OCDETF Strike Forces in Florida and Puerto Rico are also 
central to this effort. Department of Justice agencies in these and 
other Strike Forces work in partnership with DHS and DoD entities to 
identify and target the command structure of the major air and maritime 
transporters and interdict multi-hundred kilogram loads destined for 
the United States. The conveyances used to transport the drugs include: 
go-fast vessels, fishing vessels, merchant vessels, low-profile 
vessels, self-propelled semi-submersible vessels, fully submersible 
vessels, various pleasure craft, cargo containers, and personal 
aircraft.
    In fiscal year 2016, Department of Justice components, primarily 
DEA and FBI, issued thousands of Critical Movement Alerts (CMAs) 
regarding maritime narcotic transportation events. These CMAs were sent 
to the Joint Interagency Task Force South in Key West, Florida, for 
detection and monitoring to assist in targeting the illicit drug 
movements in international waters for interdiction by USCG vessels and/
or allied partner nations with USCG Law Enforcement Detachment Teams on 
board. Additionally, Department of Justice agencies, DHS, and DoD enjoy 
a long-standing history of counter-narcotics cooperation with the 
Bahamas under Operation Bahamas, Turks and Caicos (OPBAT), which has 
been in existence since 1982. This DEA-led, multi-agency mission 
thwarts the flow of illegal drugs transiting through the Bahamas, 
dismantles drug trafficking organizations, and strengthens partner 
nation law enforcement capabilities to enhance Bahamian law enforcement 
in combating drug trafficking and drug money laundering. OPBAT has a 
two-pronged effect: as an enforcement operation and as a deterrent 
against TCOs smuggling illicit drugs through the Northern Caribbean.
    Moreover, interdiction is an important facet of enforcement 
operations that requires coordination with interagency partners 
positioned throughout the source and transit zones. OCDETF's Department 
of Justice and DHS components conduct investigations to identify all 
members of an organization, with the goal of disrupting and dismantling 
entire criminal networks, not just those involved in the smuggling of 
drugs, both domestically and internationally. Drug enforcement agencies 
prioritize their resources by targeting the multi-agency Consolidated 
Priority Organization Targets (CPOTs) and other individual agency 
priority target organizations, which are the most significant 
international and domestic drug trafficking and drug money laundering 
organizations. Department works with its partners in DHS and DoD to use 
all available resources to combat these threats by identifying, 
targeting, disrupting, and dismantling organizations responsible for 
the manufacture and distribution of illicit substances before they 
enter the United States.
    The Department is also engaged in international efforts to reduce 
the production, trafficking, distribution, sale, and overall 
availability and impact of illicit drugs. DEA's Sensitive Investigative 
Units (SIU) are a significant component of DEA's international 
enforcement program. DEA's SIU program helps build effective and vetted 
host nation units capable of conducting complex investigations 
targeting major TCOs. Bilateral Investigations Units (BIUs) are an 
important tool for targeting, disrupting, and dismantling significant 
TCOs. The BIUs have used extraterritorial authorities to infiltrate, 
indict, arrest, and extradite previously untouchable TCO leaders 
involved in drug trafficking.
    Finally, SOD is a DEA-led multi-agency operations coordination 
center with participation from Federal law enforcement agencies, DoD, 
the Intelligence Community, and international law enforcement partners. 
Established in 1994, SOD's mission is to establish strategies and 
operations to dismantle national and international trafficking 
organizations by attacking their command and control communications. 
Special emphasis is placed on major drug trafficking and narco-
terrorism organizations that operate across jurisdictional boundaries 
on a regional, national, and international level.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                  cops anti-heroin task force program
    Question 1. The Drug Enforcement Administration's 2016 National 
Drug Threat Assessment findings note that over the last 10 years, the 
drug landscape in the United States has shifted, with the opioid threat 
having risen to epidemic levels, impacting significant portions of the 
Nation. Our Nation's law enforcement is in dire need of additional 
resources to help fight this epidemic. Local police have increasingly 
cited lack of resources as their primary shortcoming in the fight 
against opioid trafficking and the resulting addiction. In my home 
State of Vermont, opioid overdoses reported to emergency responders 
rose from 1.2 daily in 2015 to 2.2 in 2016. State and local law 
enforcement agencies need resources to respond to the opioid crisis. 
The Vermont Drug Task Force has demonstrated that by investing in 
heroin task forces we can achieve results. Vermont's heroin 
investigations increased by 32 percent thanks to this program. Just 
last month 650 bags of heroin were seized through one search warrant in 
Montpelier. The Anti-Heroin Task Force program is working. It is making 
a real difference in Vermont.
    What commitments will the Department make to help State and local 
law enforcement agencies that are in dire need of resources to combat 
the opioid epidemic?
    Answer. The fiscal year 2018 budget request includes $40.4 million 
in additional funding for DEA prescription opioid and heroin 
enforcement programs. This will allow DEA to expand funding for its 
``360 Strategy,'' enhance operations against the domestic cartels 
responsible for drug distribution in our communities, enhance and 
establish regulatory and enforcement groups in the Diversion Control 
Program, and increase funding for its prescription drug disposal 
programs.
    To ensure a streamlined effort throughout the Federal Government to 
combat this epidemic and to avoid duplicative efforts, no funding is 
requested in fiscal year 2018 by the COPS Office for this program. By 
redirecting this funding, the Department will be able to increase 
resources to support other critical initiatives.
                      office of legal counsel memo
    Question 2. On May 1, the Justice Department's Office of Legal 
Counsel (OLC) issued an opinion asserting that the Department is under 
no legal obligation to respond to oversight requests from minority 
members of Congress. The opinion indicates that responding to requests 
from individual members of Congress, including Ranking Minority 
members, is discretionary. This is a flawed opinion and falls grossly 
short of the Departments responsibilities to Congress. Senator Grassley 
aptly described the memo as ``nonsense.'' Will you rescind the May 1, 
2017, OLC memo?
    Answer. In a July 12 letter to Senator Grassley, the nominee for 
the position of the Assistant Attorney General for OLC stated that, if 
confirmed, he will review the May 1 opinion.163 Cong. Rec S4079 (daily 
ed. July 19, 2017). The letter opinion does not purport to state the 
administration's policy about responding to requests for information 
from individual members of Congress. That policy is stated in a July 20 
letter to Senator Grassley from the White House Director of Legislative 
Affairs, which explains: ``The administration's policy is to respect 
the rights of all individual Members, regardless of party affiliation, 
to request information about Executive Branch policies and programs. 
The administration will use its best efforts to be as timely and 
responsive as possible in answering such requests consistent with the 
need to prioritize requests from congressional Committees, with 
applicable resource constraints, and with any legitimate 
confidentiality or other institutional interest of the Executive 
Branch.'' See http://www.judiciary.senate.gov/download/white-house-to-
grassley_-oversight-requests.
                               forensics
    Question 3. I have long been concerned about the state of forensic 
science in the United States, and am eager to ensure that our criminal 
justice system--our courts, law enforcement, forensic laboratories, 
prosecutors, defendants, and all other stakeholders--have the strongest 
and most reliable tools to use in the pursuit of justice. This is an 
area where the Department of Justice has a critical role to play. I 
hope this issue will be a priority, despite the Attorney General not 
renewing the charter of the National Commission on Forensic Science. 
The Attorney General has indicated he will appoint a Senior Forensic 
Advisor.
    a.  Have you determined who will be appointed to lead the 
Department's forensic science work?
    b.  Is there a timeline?
    c.   If no individual has been appointed, will the Department 
commit to seek meaningful input on the selection from relevant 
stakeholders in the forensic science community, including scientists, 
crime lab leaders, law enforcement, judges, prosecutors, and defense 
lawyers?
    Answer. Forensic science is an important issue, and the Department 
remains committed to ensuring that our criminal justice system has the 
strongest and most reliable tools to use in the pursuit of justice. The 
Department recently announced the selection of Ted Hunt as Senior 
Advisor on Forensics. On forensic issues, the Department continues to 
seek input from a variety of stakeholders in the forensic science 
community, including scientists, crime laboratory leaders, law 
enforcement officers, judges, prosecutors, and defense attorneys. The 
Department recently published a Federal Register Notice seeking public 
comment on moving forward to advance forensic science. That notice 
closed on June 9, and the Department received more than 250 comments 
from a wide range of individuals and organizations. The Department is 
currently in the process of reviewing these comments. In addition, in 
August, the Department will hold the first of several ``listening 
sessions'' as part of its effort to assess the needs of the forensic 
science community.
                           bureau of prisons
Staffing
    Question 4(a). The President's proposed budget calls for 
eliminating nearly 1,848 prison guards (a 9 percent reduction) and more 
than 6,000 program and administrative staff (a 14 percent reduction) at 
the BOP. Yet high-security prisons today are filled to 125 percent of 
capacity, and medium-security facilities are at 120 percent of 
capacity. This overcrowding presents dangers to guards and inmates 
alike and limits BOP's ability to provide rehabilitative programming to 
prisoners, increasing the likelihood of recidivism and endangering the 
public.
    a.  How much do you anticipate that the proposed BOP staff cuts 
would increase the guard to prisoner ratio?
    Answer. BOP will reduce staffing levels in fiscal year 2018 and 
anticipates a modest increase in the inmate population, but BOP does 
not expect any real impact on the inmate-to-officer ratio. The majority 
of the FTE reduction (5,156 positions) represent unfunded, hollow FTE 
and therefore do not have a direct impact on BOP's workforce.
    Question 4(b). How much do you anticipate such cuts would decrease 
programming and increase recidivism rates?
    Answer. BOP is not projecting a decrease in programming and 
continues to focus on re-entry efforts to combat recidivism rates.
    Question 4(c). How do you justify these staffing cuts and their 
consequences, and what precautions is the Justice Department prepared 
to put in place to ensure that the safety of staff, prisoners, and the 
public is preserved?
    Answer. The administration's proposed fiscal year 2018 budget for 
BOP would eliminate 6,241 positions from BOP, of which 5,156 are 
currently vacant and have been unfunded for many years. The proposal to 
cut an additional 1,085 positions was made to promote efficiency in 
light of the declining inmate population and consequent decline in 
institution overcrowding from 36 percent at the end of fiscal year 2013 
to the current level of 14 percent.
Population Increase
    Question 5(a). The President's budget projects a 4,000-person 
growth in population at the BOP in fiscal year 2018. Furthermore, 
Attorney General Sessions' May 10, 2017, memo that directing Federal 
prosecutors to pursue the most severe penalties possible, including 
mandatory minimum sentences, will only serve to drive up the Federal 
prison population. Yet high-security prisons today are filled to 125 
percent of capacity, and medium-security facilities are at 120 percent 
of capacity. DOJ's Office of the Inspector General consistently lists 
in its annual report, Top Management and Performance Challenges Facing 
the Department of Justice, the management of an overcrowded Federal 
Prison System in an era of limited budgets and continuing security 
concerns in its annual report.
    a.  How is BOP going to handle the growth in the prison population 
and the increase in overcrowding that it is likely to produce?
    Answer. The Federal prison population has declined since the end of 
fiscal year 2013, and this decline is projected to continue into fiscal 
year 2017. At the end of fiscal year 2013, the BOP population was 
219,298 inmates and as of July 6, 2017 the population stands at 
187,373--a decline of 31,925 inmates, or nearly 15 percent. Also, BOP's 
institution overcrowding level has decreased from 36 percent system-
wide at the end of fiscal year 2013 to the current level of 14 percent. 
The population is projected to increase by 2.2 percent in fiscal year 
2018 to 191,493 inmates; however, BOP will have enough capacity to 
absorb this population increase.
    Question 5(b). What will this prison population growth cost the 
Justice Department and taxpayers?
    Answer. BOP's overall per capita cost to incarcerate an inmate is 
$34,704 annually. The Bureau is projecting an increase of 4,171 inmates 
in fiscal year 2018. This would cost $144.8 million annually.
    Question 5(c). What is the Justice Department doing to cover those 
increased costs?
    Answer. Most of these costs in fiscal year 2018 would be absorbed 
through attrition and administrative savings.
Second Chance Act
    Question 6(a). The administration's proposal reduces Second Chance 
Act grants that help government agencies and nonprofit groups provide 
employment assistance, substance abuse treatment, housing, and family 
counseling for those who have been released from prison by 25 percent. 
These programs reduce recidivism rates and thus help to lower prison 
populations.
    a.  Do you believe reducing the prison population in the United 
States is a worthy goal for the Department of Justice?
    Answer. The Department recognizes the important role of prevention 
and reentry efforts in curbing crime and reducing recidivism. Many 
programs within the Bureau of Prisons, Community Oriented Policing 
Services, Office of Justice Programs, and Office of Violence Against 
Women are dedicated to those goals. By supporting these efforts, the 
Department seeks to promote the rule of law, advance public safety, and 
help keep people from entering the criminal justice system.
    Question 6(b). What is the justification for reducing Second Chance 
Act grants by $20 million, from $68 million to $48 million?
    Answer. The President's fiscal year 2018 Budget request needed to 
balance its support for reentry programs with the need to increase 
investment in initiatives to reduce violent crime and improve law 
enforcement officer safety. The Bureau of Justice Assistance (BJA) will 
work with its Second Chance Act program grantees to focus investment on 
proven reentry approaches and seek greater cost efficiencies to help 
them make the most of the grant funding available to them. The 
Department recognizes the value of reentry programs as a component of 
successful violent crime reduction strategies and remains committed to 
funding proven reentry programs that improve public safety by reducing 
recidivism.
    Question 6(c). Does the Justice Department plan to allocate any 
other resources to reducing the prison population? If so, through what 
programs? If not, why?
    Answer. The Department supports a number of crime prevention and 
reentry strategies through its grant funding at the Office of Justice 
Programs, the Community Oriented Policing Services office, and Office 
of Violence Against Women and reentry programs at BOP facilities. 
Whether striving to keep kids from joining gangs or helping support 
prisoner reentry, these programs aim to keep target populations out of 
the criminal justice system.
    Question 6(d). What resources (both in total and comparisons to 
fiscal year 2017 enacted levels) does the budget include for the Bureau 
of Prisons to continue implementing the Second Chance Act?
    Answer. The Department of Justice failed to provide the Committee 
with a response to this question by the time the record was closed, 
which was 125 days after the Department originally received the 
question and 95 days after the Committee's requested deadline for a 
response.
Compassionate Release
    Question 7(a). The Bureau of Prisons expanded the grounds for and 
streamlined the process of considering requests for compassionate 
release in 2013. The Department of Justice Office of the Inspector 
General (OIG) recommended additional reforms to the compassionate 
release program in a review of the program in 2013. In 2016, the U.S. 
Sentencing Commission (USSC) amended the criteria for compassionate 
release and encouraged the BOP to file a motion for those prisoners who 
meet the criteria the USSC identified.
    a.  What if any steps has BOP taken to implement the OIG and USSC 
recommendations?
    Answer. In response to the Office of the Inspector General's 
recommendations, BOP implemented Program Statement 5050.49, 
Compassionate Release/Reduction in Sentence: Procedures for 
Implementation of 18 U.S.C. Sec. Sec. 3582(c)(1)(A) and 4205(g), which 
sets forth the criteria by which inmates would be considered for 
compassionate release or reduction in sentence (RIS). BOP educates its 
inmate population on RIS policy and criteria. BOP makes available 
information about RIS to inmates through the electronic law libraries, 
electronic bulletin boards and the Admission and Orientation handbook, 
which they receive upon admission to correctional facilities. In 
addition, BOP provides regular staff training on RIS to ensure that the 
policy is being properly applied and staff understand how to assist 
inmates with their RIS requests. The Bureau reviewed the U.S. 
Sentencing Commission's amendments to the U.S.S.C. Guideline and is 
still considering amendments to its RIS policy.
    Question 7(b). For those recommendations not met, what is BOP's 
plan for meeting them and/or reasons why they cannot be implemented?
    Answer. BOP has met the Office of the Inspector General's 
recommendations.
    Question 7(c). How many prisoners have applied for compassionate 
release and how many have been granted and denied during each of the 
last 5 years?
    Answer. Prior to the implementation of an electronic tracking 
system in August 2013 for compassionate release/reduction in sentence 
requests, requests that were initiated and denied by the inmate's 
institution were not tracked. Since January 2014, the electronic 
tracking system shows that BOP has received 3,454 compassionate 
release/RIS requests.\1\ During this period of time, BOP has denied 
2,190 requests and approved 298 requests:
---------------------------------------------------------------------------
    \1\ This number includes duplicate requests, withdrawn requests, 
and requests that were administratively closed due to inmate deaths or 
releases.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
CY 2014............................  101 approvals
CY 2015............................   99 approvals
CY 2016............................   73 approvals
CY 2017............................   25 approvals
------------------------------------------------------------------------

    Question 7(d). For each year for the last 5 years, how many 
prisoners have died while their compassionate release requests were 
pending, and for each, how much time elapsed between the date the 
request was received by the warden and the date of the prisoner's 
death?
    Answer.

------------------------------------------------------------------------
 Fiscal Year 2013    Date Received      Date of Death     Days Elapsed
------------------------------------------------------------------------
1................  10/7/2013........  10/9/2013.......  2
2................  11/6/2013........  11/15/2013......  9
3................  11/15/2013.......  11/29/2013......  14
4................  10/9/2013........  10/25/2013......  16
5................  9/19/2013........  10/12/2013......  23
6................  9/16/2013........  10/11/2013......  25
------------------------------------------------------------------------


------------------------------------------------------------------------
 Fiscal Year 2014    Date Received      Date of Death     Days Elapsed
------------------------------------------------------------------------
1................  12/29/2014.......  12/30/2014......  1
2................  2/19/2014........  2/20/2014.......  1
3................  4/21/2014........  4/24/2014.......  3
4................  6/20/2014........  6/24/2014.......  4
5................  2/23/2014........  3/1/2014........  6
6................  3/26/2014........  4/2/2014........  7
7................  8/7/2014.........  8/14/2014.......  7
8................  11/7/2014........  11/17/2014......  10
9................  2/25/2014........  3/9/2014........  12
10...............  8/18/2014........  9/2/2014........  15
11...............  2/10/2014........  2/25/2014.......  15
12...............  3/25/2014........  4/16/2014.......  22
13...............  2/18/2014........  3/15/2014.......  25
14...............  11/20/2014.......  12/18/2014......  28
15...............  4/3/2014.........  5/5/2014........  32
16...............  3/19/2014........  4/22/2014.......  34
17...............  7/14/2014........  9/8/2014........  56
18...............  7/30/2014........  10/1/2014.......  63
19...............  8/4/2014.........  11/24/2014......  112
20...............  4/30/2014........  9/29/2014.......  152
------------------------------------------------------------------------


------------------------------------------------------------------------
 Fiscal Year 2015    Date Received      Date of Death     Days Elapsed
------------------------------------------------------------------------
1................  12/15/2015.......  12/16/2015......  1
2................  12/15/2015.......  12/18/2015......  3
3................  6/11/2015........  7/21/2015.......  40
4................  9/13/2013........  10/16/2015......  763
5................  1/21/2015........  3/25/2015.......  63
6................  1/13/2015........  2/7/2015........  25
7................  3/13/2015........  6/28/2015.......  107
8................  5/11/2015........  6/8/2015........  28
9................  9/24/2015........  10/9/2015.......  15
10...............  2/6/2015.........  3/3/2015........  25
11...............  7/24/2015........  10/22/2015......  90
12...............  9/8/2015.........  9/25/2015.......  17
13...............  9/9/2015.........  11/19/2015......  71
14...............  7/9/2014.........  1/2/2015........  177
15...............  7/2/2015.........  7/29/2015.......  27
16...............  1/8/2015.........  3/18/2015.......  69
17...............  5/8/2015.........  9/20/2015.......  135
18...............  8/7/2015.........  10/16/2015......  70
19...............  11/12/2013.......  1/15/2015.......  429
20...............  8/18/2014........  1/9/2015........  144
21...............  12/8/2014........  4/2/2015........  115
22...............  12/2/2014........  9/27/2015.......  299
23...............  8/4/2014.........  1/18/2015.......  167
------------------------------------------------------------------------


------------------------------------------------------------------------
 Fiscal Year 2016    Date Received      Date of Death     Days Elapsed
------------------------------------------------------------------------
1................  12/12/2016.......  12/14/2016......  2
2................  11/29/2016.......  12/2/2016.......  3
3................  3/1/2016.........  3/7/2016........  6
4................  7/8/2016.........  7/17/2016.......  9
5................  6/8/2016.........  6/18/2016.......  10
6................  3/8/2016.........  3/29/2016.......  21
7................  7/12/2016........  8/2/2016........  21
8................  3/14/2016........  4/7/2016........  24
9................  1/8/2016.........  2/5/2016........  28
10...............  3/8/2016.........  4/7/2016........  30
11...............  11/29/2016.......  12/31/2016......  32
12...............  9/13/2016........  10/17/2016......  34
13...............  8/19/2016........  9/25/2016.......  37
14...............  2/18/2016........  3/30/2016.......  41
15...............  11/14/2016.......  12/31/2016......  47
16...............  6/21/2016........  8/7/2016........  47
17...............  9/16/2016........  11/18/2016......  63
18...............  9/9/2016.........  12/3/2016.......  85
19...............  7/25/2016........  10/20/2016......  87
20...............  3/8/2016.........  6/24/2016.......  108
21...............  1/28/2016........  10/17/2016......  263
------------------------------------------------------------------------


------------------------------------------------------------------------
 Fiscal Year 2017    Date Received      Date of Death     Days Elapsed
------------------------------------------------------------------------
1................  1/6/2017.........  1/7/2017........  1
2................  6/15/2017........  6/18/2017.......  3
3................  4/18/2017........  4/24/2017.......  6
4................  3/5/2017.........  3/12/2017.......  7
5................  4/5/2017.........  4/15/2017.......  10
6................  1/20/2017........  2/1/2017........  12
7................  2/2/2017.........  2/17/2017.......  15
8................  5/26/2017........  6/14/2017.......  19
9................  5/4/2017.........  6/1/2017........  28
10...............  11/16/2016.......  1/23/2017.......  68
11...............  10/18/2016.......  1/5/2017........  79
12...............  4/15/2016........  7/7/2017........  448
------------------------------------------------------------------------

    Question 7(e). How many Federal prisoners are currently 
incarcerated who might be eligible for compassionate release?
    Answer. Under BOP policy, Program Statement 5050.49, Compassionate 
Release/Reduction in Sentence: Procedures for Implementation of 18 
U.S.C. Sec. Sec. 3582(c)(1)(A) and 4205(g), inmates may seek a 
compassionate release/RIS under one of the following criteria: Terminal 
Medical Condition, Debilitated Medical Condition, Elderly Inmates with 
Medical Conditions, ``New Law'' Elderly Inmates, Other Elderly Inmates, 
Death or Incapacitation of the Family Member Caregiver, and 
Incapacitation of a Spouse or Registered Partner. An inmate may be 
eligible for consideration based on several of the criteria, or may 
become eligible due to a currently unknown change in personal 
circumstances. As such, BOP is unable to speculate on the number of 
inmates who may be eligible for a compassionate release/reduction in 
sentence.
    Question 7(f). How much money could BOP save if it released them 
all?
    Answer. BOP is unable to speculate on the number of inmates who may 
be eligible for a compassionate release/reduction in sentence; 
therefore, this calculation cannot be determined.
Private Prisons
    Question 8(a). On April 14, 2017, BOP released a pre-solicitation 
notice for the management and operation of a contractor-owned, 
contractor-leased correctional facility.
    a.  How many private facilities does BOP use currently and is there 
no space available to house additional inmates at these existing 
facilities?
    Answer. BOP currently contracts with four providers to manage and 
operate eleven secure adult contract facilities. The current capacity 
utilization in the private prisons is 94.3 percent.
    Question 8(b). What is the estimated cost of a project like this?
    Answer. The estimated cost of a solicitation will depend on the 
number of beds contracted. For example, a 1,800-bed contract can 
average approximately $445 million for a ten-year period. For a 9,540-
bed contract, the cost can average approximately $2.4 billion for a 
ten-year period and involve multiple vendors.
    Question 8(c). How many more beds does the BOP need?
    Answer. BOP is not seeking to increase the number of contract beds 
in privately managed secure facilities. However, BOP is seeking to 
replace existing contracts that are expiring. The net number of 
contract beds, however, will not change.
    Question 8(d). Are private prisons that contract with the Federal 
Government required to operate under the same laws, rules, and 
regulations as federally-owned and operated prisons? If not, how are 
they regulated differently and why are they regulated differently?
    Answer. Both BOP-owned facilities and private prisons with whom BOP 
contracts are required to maintain accreditation by the American 
Correctional Association (ACA), maintain PREA certification, and be 
certified by an accredited Health Care Organization. In addition, both 
BOP facilities and private prisons with whom the BOP contracts are 
required to adhere to all applicable Federal, State, and local laws and 
regulations governing a correctional environment.
    Question 8(e). How does the Department justify its belief that 
contract prisons offer appropriate health and correctional services and 
are safe and secure places to house Federal inmates?
    Answer. BOP has taken steps to enhance safety, security, and 
programming at private contract prisons by significantly strengthening 
its Oversight Checklist and other tools used to monitor, track, and 
evaluate contractor performance. This includes enhanced reviews in 
staffing requirements, food service, transfer requests, inmate appeal 
rights, correctional services, and safety. In addition, BOP has 
heightened reporting procedures to require that contractors provide 
greater detail regarding safety and security information in a manner 
conducive to trend analysis and comparative reviews. BOP has also 
improved monitoring of healthcare programming by adding an additional 
subject-matter expert to the monitoring team, which has developed a 
system for enhanced tracking of routine medical services. Going 
forward, the BOP will carefully review this enhanced information and 
its updated inspection tools on a regular basis to ensure the contract 
prisons' ongoing effectiveness.
                         fighting violent crime
    Question 9(a). The Department of Justice requests $19 million to 
implement the recommendations of the Attorney General's Task Force on 
Crime Reduction and Public Safety. From what I understand, the Task 
Force has met only once for an introductory meeting.
    a.  What, if any, recommendations has the Task Force put forward?
    Answer. The internal Department of Justice Task Force has been 
providing initial recommendations to the Attorney General on a rolling 
basis. The Attorney General has been acting on the Task Force's 
recommendations to set the policies of the Department, and I expect he 
will continue to do so and will take additional steps to ensure safer 
communities for all Americans. Some of the directives issued by the 
Attorney General with Task Force input include: the March 8th Attorney 
General memorandum directing all Federal prosecutors to investigate, 
prosecute, and deter the most violent offenders that wreak havoc in our 
communities; the series of announcements in April regarding forensic 
science initiatives--including the appointment of a senior forensic 
science advisor; and the series of initiatives also announced in April 
to support law enforcement and maintain public safety in Indian 
Country, including expansion of a program that gives Tribes access to 
national crime information databases.
    Question 9(b). If the recommendations are not yet finalized, how 
did the Department or administration arrive at the $19 million figure?
    Answer. The Department's Budget request includes $19 million for 
230 additional Assistant U.S. Attorneys to address violent crime across 
the country. The Department reviewed historical violent crime data as 
well as FBI crime report statistics to prepare the budget. The 
Department of Justice is committed to reducing violent crime and making 
America safe. Accordingly, the additional Assistant United States 
Attorneys will prosecute all types of violent crime, including hate 
crimes. The specific types of cases they will focus on will depend on 
numerous factors, including the unique public safety issues in the 
individual districts in which they work. The Department is committed to 
the investigation and prosecution of hate crimes, which is a very 
important part of addressing public safety and crime reduction.
    Question 9(c). How will the Task Force move forward on these 
recommendations, and when can we expect those final recommendations?
    Answer. The Task Force has provided the Attorney General with 
initial recommendations on a rolling basis. The Attorney General has 
been acting on the Task Force's recommendations to set the policy of 
the Department, and I expect he will continue to do so and take 
additional steps to ensure safer communities for all Americans.
    Question 9(d). The Attorney General has already made decisions that 
will have a significant impact on our criminal justice system and 
prison population without input from the Task Force, such as rescinding 
the Obama administration's Smart on Crime policy. What role will the 
Task Force play in the Department's decisionmaking?
    Answer. See response to question 9(c).
                            fbi headquarters
    Question 10(a). The fiscal year 2017 Consolidated Appropriations 
Act included $323 million, which is half of what the FBI requested in 
fiscal year 2017 to consolidate the FBI headquarters. It also provided 
$200 million to GSA for the project. However, the Trump 
administration's budget proposal neither funds the other half of the 
FBI's or GSA's request nor rescinds the fiscal year 2017 headquarter 
funding. With the lack of full funding in fiscal year 2017 and no 
requested funds in fiscal year 2018, no contract may be awarded for the 
project and the FBI and GSA cannot announce a location. The project 
could be stalled until fiscal year 2019 or even cancelled without 
sufficient resources. Not only could this cost American taxpayers 
upwards of $150 million in total, preventable damages if the bidders 
file protest lawsuits, but would also leave the FBI workforce currently 
dispersed throughout the National Capital region without the 
operational work environment necessary for the FBI to be successful in 
performing its national security, intelligence, and criminal 
investigative missions.
    a.  Is the new FBI headquarters project still a priority for the 
Department of Justice in fiscal year 2018?
    Answer. Yes, the need for a facility that meets FBI mission 
requirements has not abated. While the procurement was canceled by GSA, 
the project itself has not been canceled.
    Question 10(b). If the new FBI headquarters remains a priority for 
the Department, does the President intend to submit a budget amendment 
to Congress to request those funds in fiscal year 2018?
    Answer. The Department is not aware of whether the President 
intends to submit a budget amendment to Congress to request additional 
funds for a new FBI Headquarters in fiscal year 2018.
                            youth mentoring
    Question 11(a). Creating and maintaining safe and healthy 
communities cannot be achieved by law enforcement alone. Outreach, 
engagement, training and technical assistance, and prevention efforts 
are critical components of the Office of Juvenile Justice Delinquency 
Prevention's (OJJDP) important work. The Youth Mentoring Grants 
program, for example, funds quality direct-service mentoring grantees 
serving at-risk and high-risk youth across the country. Through quality 
practice, mentoring can transform the trajectory of a young person's 
life by leading them away from negative behaviors like missing school, 
drug use or joining gangs and toward positive outcomes like increased 
academic achievement, leadership and investment in their communities. 
The President's budget includes $58 million for youth mentoring.
    Effective and well-known nonprofits, like Boys & Girls Clubs of 
America, National 4-H Council, YMCA of the USA and others have been 
recent grantees of the OJJDP youth mentoring grant. These organizations 
are serving at-risk and high-risk young people in their communities, 
including Tribal communities and other underrepresented youth, 
supporting and guiding them to lead successful and productive lives. 
The data around quality mentoring's effectiveness is compelling. At-
risk youth with mentors are 55 percent more likely to enroll in college 
and 46 percent less likely to use drugs.
    a.  Can you speak to the importance of this work and how the 
Department of Justice will continue prevention and intervention 
activities for young people given the reduction in youth mentoring 
grants?
    Answer. Mentoring is one of Office of Juvenile Justice and 
Delinquency Prevention's (OJJDP) most significant initiatives. Youth 
mentoring is a process in which consistent, positive relationships 
between a youth and an adult (or older peer) support the development of 
the youth. Research indicates that well-implemented mentoring can be a 
useful strategy in reducing delinquent behaviors in at-risk youth and 
promoting positive outcomes across social, emotional, behavioral and 
academic areas of youth development. Mentoring minimizes the likelihood 
that youth will participate in criminal activity and helps youth 
succeed in school, work, and life. OJJDP's Youth Mentoring Program 
works to improve academic performance, reduce juvenile delinquency and 
gang participation, and reduce school dropout rates.
    In addition to mentoring, OJJDP also supports prevention and early 
interventions in addition to mentoring, and many of these activities 
also work directly with at-risk and high risk youth. The focus of these 
programs is to reduce negative behaviors (such as drug involvement, 
gang participation, and school truancy), while strengthening and 
positive behaviors (improvements in school attendance and achievement). 
The long-term goal is to prevent youth from becoming involved in 
criminal activity or, for those who may already be involved, to prevent 
further involvement. The modest decrease in mentoring funding will not 
hinder OJJDP's ability to continue supporting prevention and early 
intervention activities in communities nationwide. Examples of OJJDP 
prevention and early intervention programs that have increases in the 
budget proposal include the Part B: Formula Grant program (increase of 
$3 million over fiscal year 17 enacted levels), Title V: Delinquency 
Prevention, which includes incentive grants for states ($2.5 million 
increase), and the carve-out for the Gang and Youth Violence Prevention 
and Intervention Program ($1 million increase). It should be noted that 
both the Part B: Formula Grant program and Title V State Incentive 
Grant Program include a purpose area entitled ``Mentoring, Counseling, 
and Training Programs (Purpose Area 13).''
    Question 11(b). How is the prevention work through OJJDP supporting 
the goals of the Department? How will the Department continue its 
important work in this area if the proposed reduction in resources is 
implemented?
    Answer. OJJDP's prevention activities--including youth mentoring--
support the Department's goal of reducing violence and crime. 
Accordingly, the Department remains committed to providing funding to 
State, local, community, and national organizations to enhance and 
expand quality mentoring services for at-risk and high-risk 
populations.
    While the Department remains committed to the goals of its Youth 
Mentoring program, this commitment must be balanced with the need to 
fund a variety of other State, local, and Tribal justice assistance 
priorities. The modest proposed decrease in the Youth Mentoring program 
will enable the Office of Justice Programs to redirect funding to other 
important priorities such as addressing violent crime, improving 
officer safety, and combating illegal immigration. OJJDP will work with 
its grantees to seek greater cost efficiencies and coordination to 
ensure that all of its juvenile justice programs operate more cost-
effectively.
                             voting rights
    Question 12(a). The President's May 11, 2017, Executive Order 
created a Presidential Advisory Commission on Election Integrity. 
Rather than protecting the right to vote in this country this 
commission seems directed at finding cases of voter fraud and 
impersonation which are very rare and much less common than voter 
disenfranchisement through strict voter ID laws.
    a.  What role did you and other Justice Department employees play 
in writing the May 11 Executive Order?
    Answer. I understand that the proposed Executive Order was prepared 
by the Office of the Vice President. As with other proposed Executive 
Orders, it was referred to the Department of Justice's Office of Legal 
Counsel for review concerning form and legality, which approved it for 
form and legality on May 9, 2017.
    Question 12(b). Were career attorneys in the Civil Rights Division 
consulted? If not, why?
    Answer. Consistent with its usual practice, OLC consulted with 
other components of the Department of Justice, including the Civil 
Rights Division, during the course of its form-and-legality review.
    Question 12(c). The Executive Order says the commission ``shall 
have staff to provide support for its functions.'' Has the Justice 
Department provided any staff to work full- or part-time for the 
commission?
    Answer. The Department has not, to my knowledge, provided staff 
members to support the commission. Section 7(a) of the Executive Order 
charges the General Services Administration with providing the 
commission with staff.
    Question 12(d). Will the commission need congressional 
appropriations and if so how much has the administration sought in 
funding, whether at DOJ or elsewhere in the executive branch?
    Answer. The Department is unaware of whether the Presidential 
Advisory Commission on Election Integrity will need congressional 
appropriations.
    Question 12(e). How much has been spent so far on the commission 
and what is its expected budget?
    Answer. The Department does not know the answer to this question.
    Question 12(f). Do you think the rare incidences of voter fraud and 
impersonation merit the creation of this commission?
    Answer. Fraudulent voter registration and fraudulent voting are 
only a subset of what the commission was established to study. It is 
also charged with reporting more broadly about the ``laws, rules, 
policies, activities, strategies, and practices'' that either 
``enhance'' or ``undermine'' the confidence that the American people 
have in ``the integrity of the voting processes used in Federal 
elections.''
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                          white house contacts
    Question 1(a). Former FBI Director Comey testified on June 8, 2017 
before the Senate Select Committee on Intelligence that on at least 
four occasions, President Trump contacted the former FBI Director to 
ask him about the Russia investigation.
    a.  Were you aware of President Trump's calls to Director Comey 
before Director Comey testified about them? (If so, how and when did 
you learn about any of these conversations? What did you know about 
each discussion?)
    Answer. On May 17, 2017, I appointed Robert S. Mueller III to serve 
as Special Counsel to oversee the previously confirmed FBI 
investigation of Russian Government efforts to influence the 2016 
presidential election and related matters. I am not in a position to 
respond further to your question.
    Question 1(b). Has President Trump ever contacted you regarding the 
Russia investigation? (If so, when and what was discussed?)
    Answer. See response to question 1(a).
    Question 1(c). Are you aware of any other Justice Department 
officials whom the President has contacted regarding the Russia 
investigation? (If so, who did the President contact and when did that 
occur?)
    Answer. See response to question 1(a).
            responding to congressional (minority) requests
    Question 2(a). On May 1, 2017, the Justice Department's Office of 
Legal Counsel (OLC) issued a letter opinion for the counsel to the 
president titled ``Authority of Individual Members of Congress to 
Conduct Oversight of the Executive Branch.'' In that letter opinion, 
the OLC took the position that ``individual members of Congress, 
including ranking minority members, do not have the authority to 
conduct oversight in the absence of a specific delegation by a full 
house, committee, or subcommittee.''
    According to the Office of Legal Counsel, the executive branch is 
not obligated to answer my requests or those of my Democratic 
colleagues. This is unacceptable. As elected officials of a co-equal 
branch of government, we have constitutional authority to conduct 
oversight of the executive branch.
    a.  Is it your view that the administration has no legal obligation 
to respond to requests that do not come from a committee chairman?
    Answer. The letter opinion does not purport to state the 
administration's policy about responding to requests for information 
from individual members of Congress. That policy is stated in a July 
20, 2017, letter to Senator Grassley from the White House Director of 
Legislative Affairs, which explains: ``The administration's policy is 
to respect the rights of all individual Members, regardless of party 
affiliation, to request information about Executive Branch policies and 
programs. The administration will use its best efforts to be as timely 
and responsive as possible in answering such requests consistent with 
the need to prioritize requests from congressional Committees, with 
applicable resource constraints, and with any legitimate 
confidentiality or other institutional interest of the Executive 
Branch.'' See http://www.judiciary.senate.gov/download/white-house-to-
grassley-oversight-requests. The legal analysis in the OLC letter 
opinion is consistent with the discussions of these issues by the 
Congressional Research Service in the Congressional Oversight Manual 
(at pages 56 and 65 of the December 19, 2014 edition).
    Question 2(b). During your confirmation process, you said that you 
would ``make every effort to answer [our] questions fully and 
quickly.'' Do you still intend to do so? If not, why not? What changed?
    Answer. Yes, I intend to respond consistently with the policy 
quoted in the response to question 2(a).
    Question 2(c). Will you make sure that all components of the 
Justice Department are instructed to answer requests from Congress, 
even those that are not from a committee chairman? (If not, why not?)
    Answer. Yes. The Department will follow the policy quoted in the 
response to question 2(a).
                          emoluments lawsuits
    Question 3(a). President Trump has been sued for possible violation 
of the Constitution's emoluments clause, which prohibits Federal 
officeholders from accepting gifts or payments from foreign and U.S. 
governments. (Citizens for Responsibility and Ethics in Washington v. 
Donald J. Trump, No. 17 Civ. 458, SDNY (2017).) The Justice Department 
is defending the President in this suit.
    This case raises a number of novel questions, including how to 
interpret and apply the emoluments clauses of the Constitution and the 
import of the President's refusal to divest his business holdings prior 
to taking office. The Department of Justice represents the United 
States--not any single person or party--and it is important to ensure 
that the Department is not elevating President Trump's personal 
interests over those of the country.
    a.  Is there an independent team of career lawyers within the 
Department who have been assigned to determine and present the position 
of the United States, apart from that of the President? If not, why 
not? If so, who does this team report to and how is their view being 
presented to the court?
    Answer. The CREW v. Trump case, as well as two other cases raising 
similar challenges under the Foreign Emoluments Clause of the 
Constitution, are assigned to career attorneys in the Federal Programs 
Branch of the Civil Division. These attorneys have primary 
responsibility for presenting the Government's position in court 
filings. The career attorneys report to and are subject to the 
supervision of the Deputy Assistant Attorney General for the Federal 
Programs Branch, the Acting Assistant Attorney General for the Civil 
Division, and ultimately the Attorney General.
    Question 3(b). What has been done to determine whether there are 
conflicts between the best interests of President Trump and those of 
the United States? How are any conflicts being resolved?
    Answer. Pursuant to its statutory obligation set forth in 28 U.S.C. 
Sec. 516, the Department of Justice represents the President in his 
official capacity and defends the Office of the President in the 
interest of the United States. The Department does not represent the 
private business interests of President Trump in the lawsuits 
challenging the President's compliance with the Foreign Emoluments 
Clause.
    Question 3(c). The foreign emoluments clause prohibits the 
acceptance of presents, emoluments, offices or titles ``without the 
consent of Congress.'' How is the Justice Department accounting for the 
interests of Congress in these lawsuits?
    Answer. The Congress is not a defendant in this litigation. 
Nevertheless, in representing the interests of the President of the 
United States, the Department advances arguments that it believes are 
consistent with a faithful interpretation of the Constitution, 
including the Foreign Emoluments Clause at issue in these cases.
    Question 3(d). Please explain why this suit is not being handled by 
President Trump's private lawyers.
    Answer. By statute, the Department of Justice is responsible for 
the conduct of litigation in which an officer of the United States is a 
party. 28 U.S.C. Sec. 516 provides: ``Except as otherwise authorized by 
law, the conduct of litigation in which the United States, an agency, 
or officer thereof is a party . . . is reserved to officers of the 
Department of Justice, under the direction of the Attorney General.'' 
That is, unless otherwise authorized by law, ``only attorneys of the 
Department of Justice under the supervision of the Attorney General may 
represent the United States or its agencies or officers in 
litigation.'' United States Attorneys' Manual 4-1.100. The various 
suits filed against the President concerning his alleged violation of 
the Foreign Emoluments Clause of the Constitution are brought against 
him in his official capacity as President. Although the suit implicates 
the President's private business interests, the lawsuit puts at issue 
whether the President, as a holder of an ``Office of Profit or Trust,'' 
is in compliance with the Foreign Emoluments Clause. The Department of 
Justice therefore is properly representing the President in his 
official capacity in this litigation.
    Question 3(e). Have you recused yourself from this lawsuit? (If 
not, why not--and have you obtained the opinion of Department ethics 
experts?)
    Answer. No. I know of no basis to recuse myself from participation 
in representing the President in his official capacity, which is the 
Department's responsibility in every administration.
    Question 3(f). Has Attorney General Sessions recused himself from 
the lawsuit (If not, why not and has he obtained the opinion of 
Department ethics experts?)
    Answer. The Attorney General has not recused himself from the 
Emoluments Clause litigation.
                          role in comey firing
    Question 4(a). You acknowledged when you briefed the Senate on May 
18, 2017 (and the House on May 19) that you knew the President was 
going to fire Director Comey when you wrote your May 9 memo about 
Director Comey's public mishandling of the Clinton email investigation.
    a.  Did you tell the President to fire Director Comey?
    Answer. It is the prerogative of the President to decide which 
political appointees to retain and which to remove. The memorandum I 
wrote speaks for itself.
    Question 4(b). Why did you agree to write the memo knowing that the 
President had already made the decision to fire Director Comey?
    Answer. On May 17, 2017, I appointed Robert S. Mueller III to serve 
as Special Counsel to oversee the previously confirmed FBI 
investigation of Russian Government efforts to influence the 2016 
presidential election and related matters. I am not in a position to 
respond further to your question.
    Question 4(c). Did you ever discuss Director Comey's handling of 
the Russia investigation, including investigation of Michael Flynn, 
with the President? With White House Counsel Don McGahn? If so, when 
did these conversations take place?
    Answer. See response to question 4(b).
                 appointment of special counsel mueller
    Question 5(a). On May 17, 2017, you appointed Robert S. Mueller III 
to serve as Special Counsel to conduct the investigation into Russian 
interference in the 2016 election, including any links/and or 
coordination between the Russian Government and Trump campaign as well 
as ``any matters that arose or may arise directly from the 
investigation.'' (Office of the Deputy Attorney General, Order No. 
3915-2017, May 17, 2017) The order that you signed appointing Mr. 
Mueller makes him subject to 28 CFR Sec. Sec. 600.4 through 600.10.
    28 CFR 600.7(b) makes clear that Mr. Mueller ``shall not be subject 
to the day-to-day supervision of any official of the Department.'' It 
does not otherwise explain, however, who, when, and under what 
circumstances Mr. Mueller will report to or discuss the investigation 
with Department officials.
    a.  Who does Mr. Mueller report to and under what circumstances?
    Answer. Please see the Department's Special Counsel regulations at 
28 C.F.R. Sec. Sec. 600.6 (Powers and Authority) and 600.7 (Conduct and 
Accountability).
    Question 5(b). What is your role with regard to the Special 
Counsel? For example, Section 600.7(b) authorizes you--because of the 
Attorney General's recusal--to request an explanation of ``any 
investigative or prosecutorial step.'' What is the process for 
requesting these explanations, and how are the requests and 
explanations documented?
    Answer. I have an appropriate level of interaction with the Special 
Counsel's Office consistent with the regulations and will maintain 
sufficient documentation to ensure the ability to comply with the 
reporting requirement in 28 C.F.R. Sec. 600.9(a)(3) if that provision 
is implicated.
    Question 5(c). 28 CFR 600.9(a)(3) requires notification to Congress 
of ``instances (if any) in which the Attorney General concluded that a 
proposed action by a Special Counsel was so inappropriate or 
unwarranted under established Department practices that it should not 
be pursued.'' The regulations require this notification at the 
conclusion of the Special Counsel's investigation.
    If Special Counsel Muller does not object on the grounds that 
earlier disclosure would adversely affect legitimate investigative or 
privacy concerns, will you commit to notifying Congress within 30 days 
(rather than only at the close of the overall investigation) of any 
instances that trigger this reporting requirement?
    Answer. It would not be appropriate for me to make such a 
commitment.
                       unsustainable prison costs
    Question 6(a). Mr. Rosenstein, your Department's Budget requests 
$8.2 billion for Prisons and Detention Operations, which represents 30 
percent of the Department's total budget, up from 29 percent in the 
fiscal year 2017 enacted bill.
    The Attorney General recently issued a charging memorandum to all 
Federal prosecutors, directing them to charge all of their cases with 
the most punitive chargeable offense. This change in policy takes 
discretion away from prosecutors, and I worry that it could lead to 
even higher prison costs in the future.
    a.  Do you believe that the continued growth of prison and 
detention operations is sustainable going forward?
    Answer. Maintaining public safety and reducing crime are at the 
core of the Department's mission and the facilities of the Bureau of 
Prisons (BOP) are critical to that mission. This budget ensures that 
BOP will have the resources it needs to safely and securely manage our 
Federal inmate population while the Department continues its work to 
reduce violent crime and keep our communities safe.
    Question 6(b). How do you expect that this recent policy change 
will affect future resource requirements for the Bureau of Prisons and 
Marshals Service?
    Answer. BOP has projected an increase in its prison population for 
fiscal year 2018 and fiscal year 2019 and does not anticipate a 
significant impact on resources due to increased enforcement efforts at 
this time. BOP will continue to monitor the inmate population level and 
work with the Department to ensure adequate resources for the safe and 
secure operations of its facilities.
    The United States Marshals Service (USMS) and the Department will 
continue to analyze the impact of these policies. At the beginning of 
May 2017, the overall number of prisoners in USMS custody was 48,213, 
the lowest population since January 2004. Since May 2017, the USMS has 
seen a slight increase in offenders. However, it is too early to know 
for certain how the policy changes will affect future resource 
requirements.
                   the dark web and drug trafficking
    Question 7. Last weekend, the New York Times ran a tragic piece 
about the use of the dark web by drug traffickers and other criminal 
enterprises to secretly do business with users.
    The problem of criminals using the ``dark web'' to conceal their 
tracks and traffic their goods is a problem that is only going to grow 
in the coming years.
    How does the Department plan to address the use of the dark web to 
apprehend and stop those who are engaged in criminal activity?
    Answer. The New York Times article illustrated one aspect of how 
criminals across the world have abused the dark web to traffic in 
dangerous contraband and sell services that threaten public safety. In 
addition to selling fentanyl and other deadly opioids, criminals are 
exploiting the dark web to offer illegal goods from child exploitation 
materials to weapons of mass destruction and to offer illegal services 
ranging from computer hacking services to murder for hire. Criminal 
activity on or enabled by the dark web is increasing in sophistication. 
As part of this maturation, the dark web now offers professionalized 
hacking services and products that are reliable, tailored to cyber 
criminals' specific needs, and even supported by demonstration sites 
and online support.
    The widespread availability of easy-to-use anonymizing technologies 
has allowed less sophisticated criminals to conceal their identity and 
conduct from law enforcement. Dark markets operating on such networks 
have made it too easy to commit a crime and too hard to investigate 
such crime. At the same time, the increasing use of virtual currencies, 
along with potential benefits, gives criminals sophisticated, and 
anonymity-protecting, financial tools to buy and sell illicit goods and 
services, as well as to receive payments extorted from ransomware 
victims, without the direct attribution that comes with using 
traditional financial systems.
    To combat criminals' use of the dark web, the Department 
aggressively pursues multiple lines of effort. Investigators with the 
Federal Bureau of Investigation, Drug Enforcement Administration, and 
numerous other Federal law enforcement agencies work tirelessly to 
locate the servers hosting criminal marketplaces that operate on the 
dark web, the administrators who operate those marketplaces, and the 
vendors who sell narcotics, other contraband, and illegal services. 
Likewise, investigators are working with interagency partners to share 
information about and disrupt dark web-enabled criminal operations. We 
also collaborate heavily with cybersecurity firms and other private-
sector entities to better understand the infrastructure and technology 
that criminals exploit. This includes gaining a better understanding of 
how to track their use of virtual currencies and how to counter 
malicious software used in ransomware schemes. The Department also 
researches technological solutions that would enable investigators to 
identify and locate criminals who abuse anonymizing technologies. In 
addition, we work closely with Congress to identify legislative 
solutions that would provide investigators with the most up-to-date 
legal authorities and resources to overcome the substantial technical 
challenges they face in tracking down and arresting cyber criminals.
    A global problem like criminals' exploitation of the dark web 
requires a global response. Accordingly, the Department partners 
closely with law enforcement agencies in countries around the world, as 
well as regional entities including Europol, Eurojust, and the European 
Cybercrime Center. We are stationing prosecutors and agents called 
Cyber Resident Legal Advisors (RLAs) and Cyber Assistant Legal Attaches 
(ALATs) to foreign countries to collaborate with key partner 
governments on operations, to provide training to regional law 
enforcement authorities, and to help facilitate information sharing.
    Despite the challenges we face, law enforcement authorities have 
achieved numerous successes in our efforts to combat dark web criminal 
activity. These include:
  --AlphaBay: On July 20, 2017, the Department announced the seizure of 
        AlphaBay, the largest criminal marketplace on the Internet. 
        Vendors on AlphaBay sold illegal drugs, stolen and fraudulent 
        identification documents and access devices, counterfeit goods, 
        malware and other computer hacking tools, firearms, and toxic 
        chemicals to buyers throughout the world. At the time of 
        takedown, there were over 250,000 listings for illegal drugs 
        and toxic chemicals on AlphaBay, and over 100,000 listings for 
        stolen and fraudulent identification documents and access 
        devices, counterfeit goods, malware and other computer hacking 
        tools, firearms and fraudulent services. Authorities also 
        believe the site was used to launder hundreds of millions of 
        dollars deriving from illegal transactions on the website. The 
        United States led the international effort to take down 
        AlphaBay, working in cooperation with law enforcement 
        authorities in Thailand, the Netherlands, Canada, Lithuania, 
        the United Kingdom and Romania. The takedown of AlphaBay, 
        combined with the Dutch National Police's takeover and eventual 
        closure of Hansa Market at the same time was the most recent 
        strike by international law enforcement to the dark market 
        community.
  --The recent indictment of BTC-e and its operator, Alexander Vinnik, 
        is an example of the Department's efforts to shut down dark web 
        criminals' ability to monetize their crimes through entities 
        that facilitate money laundering. Payments on the dark web are 
        made through digital currencies, such as Bitcoin. Criminals 
        rely on money-laundering exchanges to convert those digital 
        currencies into U.S. dollars. On July 26, 2017, the Department 
        announced an indictment against BTC-e and Vinnik for operating 
        an unlicensed money-service business, money laundering, and 
        related crimes.
  --Operation Torpedo: This precedent-setting investigation, which 
        began in late 2011, used first-of-their-kind techniques to 
        infiltrate the dark web and identify individuals who secretly 
        congregated to trade unspeakable images of children being 
        sexually abused and to celebrate the sexual abuse of children. 
        Acting on lead information from the National High Tech Crime 
        Unit of the Dutch National Police, FBI investigators were able 
        to identify for the first time members of three websites 
        devoted to child pornography that were operating on the Tor 
        anonymity network, by developing and deploying a Network 
        Investigative Technique with appropriate legal authority. 
        Ultimately, twenty users of those three websites, including the 
        sites' Omaha-based administrator, were charged with child 
        pornography offenses in the U.S. District Court in Omaha, 
        Nebraska, and sentenced to terms of imprisonment ranging from 
        42 months to 25 years of incarceration.
  --Through a sweeping multinational effort under an investigation that 
        began in 2012--in which the Department pooled resources, ran 
        parallel investigations and shared information in real time 
        with numerous foreign partners--the Justice Department and EC3 
        were able to take more than 200 child sexual exploitation 
        websites offline, derail the activities of tens of thousands of 
        online producers and traffickers of child pornography, and 
        prosecute offenders across the world. It was a criminal 
        investigative effort of unprecedented complexity and technical 
        sophistication, and it is now a model of operational 
        coordination for all cross-border investigations.
  --Silk Road: In October 2013, Federal law enforcement agents arrested 
        Ross Ulbricht, the creator and owner of Silk Road, a 
        sophisticated and sprawling online bazaar, which enabled users 
        to buy and sell illegal drugs and other contraband and services 
        anonymously and supposedly beyond the reach of law enforcement.
  --Operation Onymous: In November 2014, the Department led a coalition 
        of international law enforcement agencies in a coordinated 
        action that seized control of dozens of illicit marketplaces 
        operating on the dark web, including Silk Road 2.0, a successor 
        site to Silk Road. The Administrator of Silk Road 2.0 was 
        arrested and more than 400 web addresses for hidden services 
        operating using the Tor anonymizing software were seized. This 
        action disrupted illicit operations that sold illegal 
        narcotics, stolen credit card data and other personally 
        identifiable information, counterfeit currency, and hacking 
        tools and services.
  --In early 2015, the Department launched ``Operation Pacifier'', 
        which involved seizing a particularly notorious child 
        exploitation site called Playpen, and deploying with lawful 
        authority a Network Investigative Technique to pierce the 
        anonymity provided by the Tor network and obtain the IP 
        addresses of Playpen users. Agents used this information to 
        arrest at least 350 U.S.-based individuals, which has led to 
        the prosecution of 25 alleged producers of child pornography 
        and 51 alleged hands-on abusers of children, as well as the 
        identification or rescue of 55 American children who were 
        subjected to sexual abuse. Information shared with our European 
        partners at EC3 and other foreign partners has led to the 
        identification or rescue of approximately 300 children 
        worldwide and nearly 550 international arrests.
  --Darkode: In July 2015, an international coalition of 20 nations' 
        law enforcement forces co-led by the Department and the 
        European Cybercrime Center (EC3) took down Darkode--an online 
        underground marketplace where hackers convened to arrange the 
        purchase, sale, and trade of malicious software, botnets and 
        other tools designed to facilitate computer intrusions, as well 
        as stolen personal information obtained through illegal 
        hacking. This concerted, coordinated effort led to the 
        charging, arrest, or search of 70 Darkode members and 
        associates around the world.
  --Operation Hyperion: In October 2016, an international coalition of 
        law enforcement agencies from the United States, the United 
        Kingdom, Australia, Canada and New Zealand simultaneously took 
        various actions against criminals who use the dark web. Law 
        enforcement around the world contacted and interviewed hundreds 
        of individuals who were identified as sellers or customers 
        during the Silk Road takeover in 2013 and Operation Onymous in 
        2014, in an attempt to generate awareness that purchasing 
        contraband on the dark web is not as anonymous or consequence-
        free as some may think.
    The successes in combating the dark web are vital. These efforts 
enable law enforcement to disrupt illicit commerce in dangerous 
contraband and sexual exploitation of children, work to apprehend those 
responsible for these sites, and develop information on other websites, 
criminals, and criminal organizations. The knowledge we gain from these 
investigations helps us create more sophisticated investigative tools 
to shine a brighter light into criminal activity on the dark web.
    Notwithstanding these successes, it is critical that Congress and 
the Department work together to ensure that Federal law enforcement 
agencies have sufficient and modern resources and authorities to combat 
criminal activity on the dark web.
                       hate crimes prioritization
    Question 8(a). Last month, the Judiciary Committee held a hearing 
regarding religious hate crimes. The hearing highlighted the alarming 
spike in hate crime incidents since the election last year, including 
the notable increase in white supremacist hate groups. The Justice 
Department attorney who testified at that hearing committed to taking 
Federal action to aggressively prosecute hate crimes. Your Department's 
Budget requests $19 million for 230 additional Assistant U.S. Attorneys 
to address violent crime across the country.
    a.  Will these additional Assistant U.S. Attorneys be focusing on 
prosecuting hate crimes, particularly since we are seeing an alarming 
spike in hate crimes?
    Answer. The Department is committed to reducing violent crime and 
making America safe. Accordingly, the additional Assistant United 
States Attorneys will prosecute all types of violent crime, including 
hate crimes. The specific types of cases on which they will focus will 
depend on a number of factors, including the unique public safety 
issues in the individual districts in which they work. The Department 
is committed to the investigation and prosecution of hate crimes, which 
is an important part of addressing public safety and crime reduction.
    Question 8(b). I have heard concerns that witnesses, and victims 
themselves, are reluctant to come forward to assist in hate crimes 
investigations because of some of the rhetoric that the President and 
this administration have used. What is your strategy to make sure that 
all witnesses and victims feel safe in reporting hate crimes and other 
crimes that DOJ is in charge of investigating and prosecuting?
    Answer. The Department of Justice is committed to ensuring that all 
victims of hate crime feel safe in reporting their offenses to law 
enforcement. In April 2017, the Attorney General highlighted the 
importance of combating hate crimes by creating a Hate Crimes 
Subcommittee as part of the Department's Task Force on Crime Reduction 
and Public Safety. The Hate Crimes Subcommittee is composed of subject-
matter experts from the Civil Rights Division, United States Attorney's 
Offices, the Criminal Division, FBI, the Community Relations Service, 
the Office of Justice Programs, and the Community Oriented Policing 
Service office. The Subcommittee is developing recommendations for the 
Attorney General on ways to improve reporting, investigation, and 
prosecution of hate crimes. As part of this mission, the Subcommittee 
held a Hate Crimes Summit on June 29, 2017, where relevant stakeholders 
from across the community gathered to develop suggestions for the 
Department about ways that the Department might better investigate, 
prosecute, and prevent hate crimes before the Subcommittee makes its 
recommendation to the Attorney General. At the summit, the Attorney 
General said, ``No person should have to fear being violently attacked 
because of who they are, what they believe, or how they worship. So I 
pledge to you: As long as I am Attorney General, the Department of 
Justice will continue to protect the civil rights of all Americans--and 
we will not tolerate the targeting of any community in our country.'' 
This engagement with community leaders and stakeholders on a national 
level assures groups that interact with hate crime victims that the 
Department is committed to investigating and prosecuting hate crime.
    The effort to ensure victims feel safe in reporting hate crime also 
involves Federal, State, and local law enforcement organizations as 
well as local community groups. To that end, various Department 
components engage in educational and outreach efforts throughout the 
year for diverse community groups to promote cooperation and reduce 
civil rights violations. The United States Attorney's Offices and the 
Civil Rights Division regularly engage with community organizations 
through national, regional, and local conferences, forums, town halls 
and similar events to ensure that communities are aware of the risks 
they face, the laws that protect them, and how to report possible hate 
crimes. For example, in March 2017, the United States Attorney's Office 
in South Dakota--in cooperation with the FBI, the U.S. Commission on 
Civil Rights, and the local sheriff and prosecutor--held a public forum 
on hate and bias crimes targeting Arab, Muslim, Sikh, and South Asian 
communities. The forum featured leaders of the diverse community, 
faith-based, and non-profit organizations who participated in 
discussions led by a representative from the Department's Community 
Relations Service. Further, in May 2017, representatives from the ATF, 
United States Attorney's Office, and the Civil Rights Division hosted 
an interfaith community forum in Pittsburgh for representatives from 
seven houses of worship and the communities they represent. In 
addition, currently, approximately one-third of the United States 
Attorney's Offices participate in hate crime working groups in their 
districts, many of which hold similar events. These local events, where 
Department representatives engage with community members, help 
strengthen important relationships, encouraging more reporting of a 
crime.
    Further, in order to support relations between police and 
communities, the Department's Community Relations Service facilitates 
Hate Crime Prevention and Know Your Rights Forums around the country to 
bring community members together with local, State, and Federal law 
enforcement partners, as well as with human rights commissions and 
organizations that offer resources and services. The forums are 
designed to be informative, enable community members to share concerns 
and perceptions, and strengthen police-community relations, which can 
aid in the investigation of hate crimes when they occur and lead to 
more hate crime reporting. In addition, as part of its National 
Training Initiative, the FBI conducts hundreds of seminars, workshops, 
and training sessions for local law enforcement, minority and religious 
organizations, and community groups to promote cooperation, reduce 
civil rights abuses, and provide education about civil rights statutes. 
The majority of FBI field offices currently participate in local hate 
crimes working groups that involve State and local authorities as well.
    Addressing hate crimes is a very important part of addressing 
public safety, and crime reduction and the Department is working on 
various fronts to improve hate crime reporting, investigation, and 
prosecution.
    Question 8(c). The FBI has collected data on hate crimes since 1990 
when Congress passed the Hate Crime Statistics Act. However, it's 
becoming increasingly clear that the FBI's tally is incomplete, which 
prevents us from understanding the scope and scale of the problem.
    While the FBI typically reports 7,000 to 10,000 hate crimes, the 
Bureau of Justice Statistics estimates that the true number may 
approach 300,000, which is approximately 30 times the FBI estimation. 
As the Bureau of Justice Statistics report also indicates, the 
percentage of religiously motivated hate crimes nearly tripled between 
2004 and 2012.
    How is DOJ working to account for these discrepancies so that there 
is more accurate reporting?
    Answer. The Federal Bureau of Investigation (FBI), Uniform Crime 
Reporting (UCR) Program's Hate Crime (HC) data collection and the 
Department of Justice, Bureau of Justice Statistics' National Crime 
Victimization Survey (NCVS) use different methodologies for collecting 
hate crime data.
    UCR HC collects data on hate crimes reported to law enforcement 
(LE). NCVS collects data on hate crime offenses, which are reported and 
not reported to LE. Each collection uses different standards for 
classifying an incident as a hate crime. The use of hate crime language 
reported during an NCVS interview is a qualifying bias indicator. The 
same hate crime language used during a UCR HC incident may not show 
enough sufficient evidence for a LE investigator to classify the 
incident as a hate crime. Additionally, UCR HC incident data are based 
on the offender's perception, while NCVS crimes are based on the 
victim's perceptions of the offender's motivations.
    Throughout 2015, the UCR Program participated in five regional 
training sessions sponsored by a United States Attorney's Office 
(USAO). Training locations were chosen based on the low number of law 
enforcement agencies (LEAs) reporting hate crime statistics to the UCR 
Program. The training focused on increasing the understanding of how 
State and Federal entities can work together to prosecute hate crime 
incidents and emphasized the benefits of reporting hate crime 
statistics to the local law enforcement personnel in attendance. 
Proceeding this effort, in November 2016, the UCR Program provided each 
USAO with a list of LEAs, broken down by district, which either did not 
participate or reported zero hate crime incidents to the UCR Program in 
2015. In an effort to improve reporting, United States Attorneys were 
encouraged to contact the LEAs in their districts to emphasize the 
importance of hate crime reporting and offer assistance if necessary.
    In fiscal year of 2016, the FBI's Criminal Justice Information 
Services (CJIS) Division provided 49 training sessions to participants 
from a combined 1,414 local and State agencies. During these training 
sessions, hate crime information was provided to over 2,500 attendees. 
The FBI will continue to provide training to local LEAs and will 
emphasize hate crime collection to the attendees.
    The FBI UCR Program is actively participating on the Subcommittee 
on Hate Crimes of the Attorney General's Task Force on Crime Reduction 
and Public Safety. This group is focused on developing strategies for 
improving hate crime data collection.
    Question 8(d). The number of law enforcement agencies reporting 
their hate crimes statistics to the FBI seems to be decreasing. In 
2015, more than 3,000 law enforcement agencies did not provide hate 
crimes data to the FBI, an increase of 500 non-reporting agencies from 
2014.
    What do you intend to do to make it easier for local agencies to 
report this crucial data to the FBI?
    Answer. The FBI Uniform Crime Reporting (UCR) Program is in the 
process of transitioning all law enforcement agencies (LEAs) to the 
National Incident-Based Reporting System (NIBRS) by January 1, 2021. 
Reporting via the NIBRS will improve the quality, reliability, and 
accuracy of the data received from participating LEAs. It will also 
make it easier for LEAs to report hate crime data because it will be 
collected within the NIBRS record layout.
    Question 8(e). What do you think would foster more accurate and 
complete reporting from local police to the FBI?
    Answer. The National Incident-Based Reporting System (NIBRS) 
transition will improve the quality, reliability, and accuracy of the 
data received from participating LEAs and will make it easier for LEAs 
to report hate crime data. In addition, the FBI UCR Program is actively 
participating in the Subcommittee on Hate Crimes of the Attorney 
General's Task Force on Crime Reduction and Public Safety. This group 
is focused on developing strategies for improving hate crime data 
collection.
    In November 2016, the FBI UCR Program provided each U.S. Attorney's 
Office with a list of LEAs broken down by district, which either did 
not participate or reported zero hate crime incidents to the FBI UCR 
Program in 2015.
    In an effort to improve reporting, U.S. Attorneys have been 
encouraged to contact the LEAs in their districts to emphasize the 
importance of hate crime reporting and offer assistance if necessary. 
The FBI UCR Program is currently working with the FBI Civil Rights Unit 
to provide this same information by FBI Field Office for the 2016 data. 
With the support of the Department and the FBI's Civil Rights Unit, the 
UCR Program conducts outreach to the local law enforcement agencies and 
educates their officers on how to investigate bias-motivated crimes. 
The FBI will continue to emphasize the benefits of reporting hate crime 
statistics to all local law enforcement participants.
    The FBI also believes that obtaining the commitment of the local 
agency administrators to provide hate crime investigative training 
opportunities to their law enforcement officers would foster more 
accurate and complete hate crime reporting. Many officers may not be 
aware of the signs to look for when investigating a bias-motivated 
crime. Often times, a hate crime incident requires additional 
investigation in order to ascertain if the offense was or was not 
motivated by the offender's bias against the victim. Investigative hate 
crime training would provide law enforcement officers with the ability 
to establish whether an incident was motivated by bias. Additionally, 
instituting a hate crime point of contact or unit within the individual 
agencies could also improve the reporting of hate crime incidents.
    Question 8(f). What do you think would foster more accurate and 
complete reporting of hate crimes by victims?
    Answer. Developing strong relationships between local law 
enforcement and the advocacy/community groups within their 
jurisdictions is key to improving hate crime reporting by victims 
because it establishes trust between the two groups. Providing a hate 
crime point of contact within local agencies could also foster positive 
relationships between law enforcement and hate crime victims to 
ultimately increase levels of victim reporting.
                state criminal alien assistance program
    Question 9. Mr. Rosenstein, the State Criminal Alien Assistance 
Program (SCAAP) is a critical source of reimbursements for county 
sheriffs in California who incur costs due to detaining convicted 
criminal aliens.
    Given the rhetoric from this administration related to immigration, 
I was particularly surprised to see that your budget proposed 
eliminating this critical program--and that you're asking already 
stretched local jurisdictions to pay to house individuals charged with 
immigration violations--which is the responsibility of the Federal 
Government.
    Given the administration's prioritization of combatting immigration 
crimes, why does your budget propose to eliminate Federal support for 
local communities through the SCAAP program and essentially create a 
new unfunded mandate?
    Answer. The Department has not requested funding for SCAAP since 
fiscal year 2002 and continues to propose elimination of the SCAAP so 
that the administration can increase Federal investments in border 
enforcement and border security initiatives that will address more 
effectively the public safety threats posed by criminal aliens. The 
SCAAP does not require recipients to use their awards solely for the 
purpose of addressing the cost of detaining illegal aliens in State, 
local and Tribal detention facilities and cannot provide sufficient 
reimbursement to fully address State and local concerns. In 2016, the 
reimbursement rate was about 17 cents on the dollar, with just four 
States--California, Florida, New York, and Texas--receiving over two-
thirds of available funds. Further, the program has no performance 
metrics or programmatic requirements associated with the funds to 
improve public safety.
               human trafficking and injunction authority
    Question 10(a). While significant attention has been paid to the 
supply side of human trafficking (breaking up trafficking rings, 
monitoring websites like Backpage, and rescuing girls), I am concerned 
that we are still not doing enough to reduce the demand, and address 
the problem of trafficking over the Internet.
    a.  What is your strategy to address human trafficking over the 
Internet?
    Answer. The Department of Justice deploys all available tools to 
address human trafficking over the Internet and related criminal 
activity including, where appropriate, prosecution of the website for 
its role in the criminal activity. For example, the Department 
successfully prosecuted the owner and operator of myredbook.com for 
using a facility of interstate commerce with the intent to facilitate 
prostitution. The defendant was sentenced to 13 months in prison and 
ordered to forfeit almost $1.3 million in cash and property. Evidence 
presented at sentencing established that over 50 children appeared in 
ads for prostitution on the site. With respect to demand, we refer to 
you to this link: https://www.judiciary.senate.gov/imo/media/doc/06-
2816%20Steinberg%20Testimony.PDF. Starting on PDF page 6 is a 
collection of cases that the Department has brought against individuals 
who pay to have sex with children. These cases utilize multiple 
statutes, including those that prohibit sex trafficking, production of 
child pornography, and online enticement and coercion. The Department 
also routinely addresses the demand side of the equation in its 
training and guidance, including at the National Law Enforcement 
Training on Child Exploitation, held in early June and attended by 
1,400 Federal, State, local, and Tribal law enforcement officers and 
prosecutors. The Department's National Strategy to Combat Human 
Trafficking is available at: https://www.justice.gov/humantrafficking/
page/file/922791/download. As part of the National Strategy, each 
Federal district was required to develop a district-specific plan to 
address human trafficking in its region.
    Question 10(b). If trafficking laws were updated to include civil 
injunction authority to allow DOJ to bring civil cases against 
traffickers to prevent them from trafficking young victims, will you 
commit to using such authority?
    Answer. The Department will use all available legal tools to combat 
human trafficking, including civil injunctive relief if a provision 
authorizing such relief were enacted. Whether we would pursue a 
criminal or a civil remedy in a particular case would depend on a 
variety of factors, including the available evidence, the needs of the 
victim, and the interests of justice. On May 10, 2017, Attorney General 
Sessions issued a new charging and sentencing policy to the Department. 
The Attorney General instructed Federal prosecutors to charge 
defendants with the most serious, readily provable offense. Consistent 
with that policy, Federal prosecutors should charge sex traffickers 
with violations of 18 U.S.C. Sec. 1591 when that is the most serious 
and readily provable offense and unless strict application of the new 
charging policy is not appropriate.
             human trafficking and restitution for victims
    Question 11. In a 2015 law review article, the Human Trafficking 
Pro Bono Legal Center reported on the low rates of restitution orders 
in human trafficking prosecutions. In a study of Federal human 
trafficking cases brought over a four period, Federal courts failed to 
order restitution in nearly two-thirds of cases involving sex 
trafficking offenses.
    They also found that the victims least likely to obtain restitution 
orders were children trafficked in the sex industry. Less than one-in-
three defendants who commit sex trafficking offenses against children 
were ordered to pay restitution to their victims.
    Can you discuss your efforts to ensure that prosecutors are trained 
to ensure that trafficking victims' receive restitution?
    Answer. The Department of Justice is committed to seeking 
restitution for victims of trafficking, and has been actively training 
Federal prosecutors nationwide on best practices in securing 
restitution orders, including strategies for meeting the government's 
burden of proving the victim's actual losses as defined under 
applicable statutes. If restitution was not ordered in a particular 
case, it could be for any number of reasons, including insufficient 
evidence to pursue a claim, the court's rejection of the restitution 
request, or because the victim did not wish to seek restitution.
    Regarding training, the following are examples of training and 
other guidance the Department is or will be offering to address 
restitution in human trafficking cases:
  --In January 2017, the Department provided advanced human trafficking 
        training to Federal investigators, prosecutors and law 
        enforcement victim assistance professionals from two Anti-
        Trafficking Coordination Teams (ACTeams). The training included 
        a session on financial investigations, restitution, and 
        remission and restoration.
  --In February 2017, at the Human Trafficking in Indian Country course 
        at the National Advocacy Center, Department representatives 
        gave a presentation focused on mandatory restitution for 
        victims.
  --In March 2017, the Department presented a two-part webinar series 
        for United States Attorney's Offices and litigating components 
        entitled, ``Mandatory Restitution in Human Trafficking Cases.'' 
        This two-part series included an overview of the law regarding 
        restitution for victims of human trafficking and specific case 
        examples of successful recovery of restitution in human 
        trafficking cases.
  --In June 2017, the Department sponsored the National Law Enforcement 
        Training on Child Exploitation in Atlanta. The conference had 
        over 1,400 attendees, including over 100 Federal prosecutors. A 
        large number of the course offerings related to the commercial 
        sexual exploitation of minors, including the lecture: Providing 
        Restitution for Victims and Forfeiting Offenders Assets: 
        Commercial Sex Trafficking.
  --In August 2017, at the Department's National Advocacy Center, the 
        Department conducted training for Federal prosecutors who 
        specialize in child exploitation offenses. These prosecutors 
        were trained on the importance of seeking restitution in sex 
        trafficking cases and the mandatory nature of this restitution.
  --In September 2017, in Fargo, North Dakota, the Department is 
        participating in training of Federal, State, local, and Tribal 
        prosecutors and law enforcement agents. This training includes 
        the necessity of seeking restitution in human trafficking cases 
        and mechanisms for successfully obtaining a restitution order.
  --In the Fall of 2017, the Department will publish a USA Bulletin 
        dedicated to human trafficking prosecutions. That bulletin will 
        contain two articles regarding restitution in Human Trafficking 
        cases: Follow the Money: Financial Crimes and Forfeiture in 
        Human Trafficking Prosecutions, and Mandatory Restitution: 
        Complying with the Trafficking Victims Protection Act.
  --In November 2017, at the Department's National Advocacy Center, the 
        Department will provide training to Federal prosecutors on 
        investigating and prosecuting human trafficking cases. Part of 
        this training will include instruction on obtaining restitution 
        and the best practices for successfully obtaining restitution.
                       litigating the border wall
    Question 12(a). Your budget requests $1.8 million to fund 20 
positions, including 12 lawyers, to file lawsuits for the Federal 
Government to take property from private landowners for the President's 
proposed ``border wall.'' I understand the $1.8 million request only 
covers the cost of the personnel required.
    a.  How many such lawsuits does the Department expect to file in 
fiscal year 2018?
    Answer. ENRD cannot predict the number of condemnations that will 
occur in 2018. Cases are referred to the Department from the requesting 
agency, which, with respect to the Border Wall, would be the Department 
of Homeland Security. ENRD will negotiate with landowners and seek to 
settle cases in order to mitigate the amount of litigation necessary 
for construction of the Border Wall.
    Question 12(b). How much private land would need to be taken by the 
Federal Government in order to complete the President's wall, and which 
State do you expect to be affected most?
    Answer. ENRD cannot predict the amount of land that will be taken 
to complete the Border Wall. Condemnation cases are referred to the 
Department of Justice from the requesting agency, which, in this 
instance, would be the Department of Homeland Security.
    Question 12(c). How much do you anticipate some of these contested 
lawsuits to cost the American taxpayer?
    Answer. ENRD is unable to answer the question until the cases are 
referred to the Department of Justice. ENRD will negotiate with 
landowners and seek to settle cases in order to mitigate the amount of 
litigation necessary for construction of the Border Wall.
    Question 12(d). CNN reported earlier this year that more than 400 
Federal lawsuits were filed challenging the loss of private land when 
the government previously sought to build barriers along the Southern 
Border. In fact, it is my understanding that there is still ongoing 
litigation between the Federal Government and private land owners.
    It's important to note, these lawsuits were the result of the 
government building only 650 miles of barriers along the Southern 
Border. In contrast, President Trump has indicated he would like 2000 
miles worth of Border wall.
    If previous litigation remains ongoing from the 2006 Fence 
expansion, and we're now in 2017, how many years do you anticipate the 
Federal Government will be litigating President Trump's border wall?
    Answer. ENRD cannot predict the number of years the Division will 
be litigating condemnation cases relating to the Border Wall, much as 
it cannot predict the number of condemnations that will occur in 2018. 
ENRD will negotiate with landowners and seek to settle cases in order 
to mitigate the amount of litigation necessary for construction of the 
Border Wall.
                       appropriations gun riders
    Question 13(a). Year after year, the bills produced by this 
Subcommittee and its House counterpart include a number of policy 
riders that limit the Federal Government's ability to enforce existing 
gun laws. These provisions do everything from limiting ATF's ability to 
make commonsense updates to its definitions, to requiring sellers to 
report suspicious transactions, to properly classifying dangerous 
ammunition.
    a.  Can you describe how these appropriations riders impact your 
Department's ability to protect public safety?
    Answer. The Department seeks to manage its resources to achieve 
maximum value for taxpayers in carrying out its mission. ATF and other 
Department agencies are most effective when they have maximum 
flexibility to allocate resources to achieve mission objectives. In 
light of its critical mission to reduce violent firearm crimes, ATF 
must continually adjust resource allocations to respond effectively to 
changes in threats to public safety. In the exercise of its 
constitutional authority to appropriate funds for the necessary and 
proper operations of government, Congress has chosen to use 
appropriations riders to restrict the manner in which ATF may use 
appropriated funds in the enforcement of Federal firearms laws and 
regulations. These uncodified restrictions pose a challenge to the 
Department and ATF, as they must often be interpreted without the 
benefit of legislative history based on hearing testimony, floor 
debates, or a well-established record of Congressional intent.
    The Department believes that the best approach is for Congress to 
amend or repeal provisions in statutes that it determines should no 
longer be enforced, and allow the Department and ATF to allocate their 
limited resources in a manner that best protects public safety.
    Question 13(b). How can you actually enforce existing laws when 
Congress puts all of these obstacles in your way?
    Answer. The Department and ATF continually strive to achieve their 
mission objectives within the limitations imposed by appropriations 
riders.
                         marijuana enforcement
    Question 14(a). Twenty-nine states and the District of Columbia 
have legalized medical or recreational marijuana.
    I sent a letter on March 2, 2017 to Attorney General Sessions 
requesting clarification on whether the Department intends to continue 
the policies contained in the Cole Memorandum, which outlines eight 
Federal enforcement areas related to marijuana. Unfortunately, I have 
yet to receive a response to this letter.
    a.  Does the Department intend to revise policies related to 
Federal marijuana enforcement? If so, how and when?
    Answer. As the Attorney General has made clear, the Department of 
Justice is currently reviewing the existing policies of the Department 
to determine whether they are consistent with the Attorney General's 
priorities.
    Question 14(b). When can I expect to receive a response to the 
letter I sent to the Department in March?
    Answer. We will be in a position to respond to the interrogatories 
in the letter after the Attorney General has received and considered 
all appropriate recommendations.
                 federal support for rural communities
    Question 15. Mr. Rosenstein, I have heard from numerous rural 
communities in California's Central Valley, such as the City of 
Mendota, about increasing gang violence related to foreign gangs like 
MS-13.
    According to law enforcement in California, gang members are being 
directed by their leaders to escape large cities like Los Angeles and 
lie low in small, rural communities that are scarcely equipped to 
handle the resulting increase in crime.
    I ask that you look into this situation and see if your Department 
can better assist these small rural communities, particularly in the 
form of additional grants and support from Federal law enforcement 
agencies.
    Answer. The Department is committed to working with Congress and 
our State, local, and Tribal partners to improve public safety and 
uphold the rule of law in all of America's communities. To accomplish 
this goal, the Attorney General's Task Force on Crime Reduction and 
Public Safety examined the changing public safety needs of America's 
communities, including our rural communities, and made recommendations 
to the Attorney General on new policies or legislation needed to 
strengthen the Department's crime-fighting efforts.
    At this time, the Department's Office of Justice Programs does not 
have any programs that specifically target gang violence in rural 
areas. However, many small towns and rural areas benefit from the Byrne 
Justice Assistance Grants (JAG), as well as the Community Oriented 
Policing Services Hiring Program. Areas experiencing significant 
increases in violent or gang-related crime may also want to consider 
participating in the Department's proposed Project Safe Neighborhoods 
Block Grants program.
                illegal marijuana grows and public lands
    Question 16. Mr. Rosenstein, I have heard from numerous rural 
counties and tribes about increasing incidents of illegal marijuana 
grows on public and Tribal lands that are attracting criminal activity 
and creating environmental hazards.
    The problem is particularly acute for California communities that 
border National Parks and Forests as well as for tribes with limited 
law enforcement capabilities. I am particularly concerned by reports 
that much of this activity is driven by foreign drug cartels, 
particularly from Mexico.
    I ask that you direct the DEA to work more closely with local 
communities and tribes in order to crack down on illegal marijuana 
grows on public lands, particularly in rural areas of states that have 
legalized recreational marijuana, like California.
    Answer. DEA continues to work with Federal, State, Tribal, and 
local law enforcement on illegal marijuana grows on public lands. In 
fact, DEA administers a Domestic Cannabis Eradication/Suppression 
Program, which is a nationwide law enforcement program that exclusively 
targets marijuana. The program receives funding from the Department of 
Justice's Asset Forfeiture Fund through reimbursable agreements. The 
majority of this funding is then allocated to more than 120 State and 
local agencies for eradication campaigns and suppression programs. 
DEA's current performance measure for the program is the number of 
marijuana plants eradicated (including plants cultivated indoors and 
outdoors). In CY 2016, 1,832,947 marijuana plants were seized and 
destroyed.
                       cuts in byrne jag funding
    Question 17. DOJ's fiscal year 18 budget proposes a $75 million, or 
22 percent cut, in the Byrne Justice Assistance Grant (Byrne JAG) 
formula grant program (representing a cut of about $3.5 million to 
California). This despite strong rhetoric from President Trump about 
his unwavering support for State and local law enforcement.
    Does this approximately 20 percent cut to Byrne JAG represent this 
administration's policy going forward?
    Answer. The Department understands the importance of JAG grants to 
State, local, and Tribal governments. In fiscal year 2016, this program 
made more than 1,060 grant awards totaling more than $263.7 million. 
State, local, and Tribal jurisdictions use JAG funds to cover a wide 
variety of expenses, such as overtime pay for officers, vehicles and 
equipment, technology upgrades, and interagency task force operations. 
The Office of Justice Programs (OJP) is continuing its effort to 
develop performance measures for this program to help grantees 
determine the most effective uses for their JAG funding.
    The Department must balance the need for broad, multi-purpose 
programs like the JAG program with other Department priorities, such as 
programs specifically designed to target violent crime or opioid drug 
abuse. The Department carefully balances its funding requests every 
year based on a variety of factors, including performance data, program 
evaluation findings, the Department's goals, and the Department's 
assessment of the most important threats facing our State, local, and 
Tribal law enforcement partners.
    This requested decrease--which will reduce overall Byrne Justice 
Assistance Grant (JAG) funding by approximately 11 percent from 2017 
funding levels--reflects the Department's view that it can more 
effectively reduce violent crime through the newly proposed Project 
Safe Neighborhoods Block Grant program. This redirection of resources 
will ultimately benefit State, local, and Tribal jurisdictions by 
reducing the amount of violence and crime they must address.
                 sanctuary cities/byrne jag as penalty
    Question 18. Since the transition, President Trump has threatened 
to withhold a State or city's entire Byrne JAG and COPS Hiring Grants 
allocation as penalty for sanctuary policies that go beyond what the 
law requires.
    Indeed, the fiscal year 18 budget request proposes punitive 
penalties to law enforcement funding if State and local law enforcement 
do not comply with policies that go beyond even what the law requires 
with respect to immigration laws.
    How does the Department reconcile its support for State and local 
law enforcement with its proposal to withhold Byrne JAG and COPS funds 
in penalty?
    Answer. As Attorney General Sessions has said, ``[s]o-called 
`sanctuary' policies make all of us less safe because they 
intentionally undermine our laws and protect illegal aliens who have 
committed crimes.'' The purpose of these Department programs generally 
is to support law enforcement and improve the functioning of the 
criminal justice system. The Department has long required grant 
recipients to provide certain ``standard assurances'' in which the 
recipient certifies compliance with ``all applicable Federal statutes 
[and] regulations . . . ''. This year, the Department is also imposing 
special conditions on grant recipients, which would require grant 
recipients to: (1) certify compliance with 8 U.S.C. Sec. 1373; (2) 
permit personnel of the U.S. Department of Homeland Security (DHS) to 
access any detention or correctional facility in order to meet with an 
alien and inquire as to his or her right to be or remain in the United 
States; and (3) provide at least 48 hours' advance notice, where 
possible, to DHS regarding the release date and time of an alien in the 
grant recipient's custody when DHS requests such notice in order to 
take custody of the alien. Rather than being punitive in character, 
these special conditions are designed to further, through Federal 
programming, the Byrne JAG statute's requirement that recipients comply 
with Federal law and coordinate with other criminal justice agencies in 
order to improve the functioning of the criminal justice system. This 
approach is consistent with long-established principles of cooperation 
among law enforcement agencies.
                   domestic violence crimes and guns
    Question 19(a). Many domestic abusers who have been convicted of a 
misdemeanor crime of domestic violence or who are subject to a 
protection order are able to stockpile an arsenal of firearms and 
ammunition despite being prohibited from possessing firearms or 
ammunition under Federal firearms law.
    Local domestic violence programs often attempt to help victims by 
seeking enforcement of Federal law and removal of the firearms, but 
they are unable to get assistance from the ATF and other Federal 
agencies. Similarly, local law enforcement is often overwhelmed by the 
sheer numbers of firearms in the possession of domestic violence 
offenders.
    a.  How will ATF improve their response to cases like these, which 
are likely to lead to homicides?
    Answer. One of ATF's mission priorities is the enforcement of 18 
U.S.C Sec. Sec. 922(g)(8) and 922(g)(9), which prohibit persons subject 
to domestic violence restraining or protection orders and persons who 
have been convicted of a misdemeanor crime of domestic violence from 
possessing or receiving firearms. ATF works closely with our State and 
local law enforcement partners, local prosecutors and United States 
Attorney's Offices (USAOs), to identify for investigation and 
prosecution domestic violence offenders who possess or attempt to 
obtain firearms. For example, in Spartanburg, South Carolina, ATF has 
partnered with the USAO, the Spartanburg County Solicitor's Office, and 
local law enforcement to implement ``Operation Homefront,'' an 
initiative focused on identifying for Federal prosecution domestic 
violence offenders who use and unlawfully possess firearms.
    Question 19(b). What kind of resources will you pledge to devote to 
make sure that guns are not accessible to prohibited domestic abusers 
who pose a dangerous risk to those around them?
    Answer. The enforcement of Federal prohibitions on firearm 
possession by domestic abusers is an ATF priority, and the Bureau will 
continue to work with all public safety partners to identify, 
investigate and prosecute these offenders. In addition, Industry 
Operations Investigators will continue to work with members of the 
firearms industry to provide education and training on the Federal 
prohibitions on the possession and receipt of firearms by these 
individuals.
    Question 19(c). What commitment can you make to have more ATF 
agents and ATF victim assistants trained and ready to respond to 
dangerous situations like this?
    Answer. All ATF agents receive extensive training on how to deal 
with violent offenders, including those who engage in domestic abuse. 
This training includes specific instruction on de-escalation 
techniques, which emphasizes the tactical and communication skills 
particularly applicable to investigations involving domestic violence 
incidents. ATF also requires all agents to complete annual victim-
witness training, and it has a robust victim-witness coordination 
program that includes placement of a highly trained victim-witness 
coordinator in every ATF field division. These victim-witness 
specialists provide support and assistance to the victims of domestic 
violence in cases investigated by ATF, and they work closely with other 
resources in the community to enhance awareness of ATF's commitment to 
the prevention of domestic violence involving firearms.
    Question 19(d). Despite the well-documented danger domestic abusers 
with firearms pose to their victims, their communities, and law 
enforcement, only a very small proportion of protective order and 
misdemeanor domestic violence records are being submitted to NCIC's 
Protection Order Files and NICS.
    In what ways can the DOJ take action to improve entry of these 
records, and what report language can the committee include to 
facilitate such improvements?
    Answer. Entries into the National Crime Information Center (NCIC) 
Protection Order File are strictly voluntary. Actions the Department of 
Justice can take to improve entry of Protection Order File include 
increasing education and training on the NCIC Protection Order File to 
the criminal justice community and increasing partnerships with 
Federal, State, local, and Tribal agencies to determine their specific 
needs and develop meaningful plans to increase protection order 
entries.
    Obtaining missing dispositions within the criminal history record 
is a significant priority. The Criminal Justice Information Services 
(CJIS) Division consistently utilizes the CJIS Advisory Policy Board 
Process to discuss the critical need for improved reporting of records 
to ensure the criminal history records and criminal dispositions are 
up-to-date and accurate. The FBI continues strategic outreach efforts 
with local, State, Tribal, and Federal partners via conferences, 
teleconferences, presentations, and training events regarding the 
importance of disposition reporting.
    The FBI supports report language that includes a commitment to 
increase funding to Federal, State, local, and Tribal criminal justice 
agencies to provide additional training.
         grants for organizations that assist missing children
    Question 20. According to Section 5775 of Title 42, OJJDP is 
allowed to provide grants to applicants who have demonstrated or 
demonstrate ability in ``locating missing children or locating and 
reuniting missing children with their legal custodians.''
    I wrote to DOJ last year, requesting DOJ to consider issuing such 
grant opportunities so that organizations like the Polly Klaas 
Foundation, which has helped families and loved ones reunite with 
missing children, can pursue Federal funding to assist in their 
mission. I received a response indicating that for fiscal year 2017, no 
such further grants would be issued.
    Will you commit to issuing such grants for fiscal year 2018?
    Answer. The Department's Missing and Exploited Children funding 
supports child sexual exploitation and missing and abducted children 
investigations, as well as training for law enforcement personnel and 
the community to increase their awareness on these issues. More 
specifically, the Office of Juvenile Justice and Delinquency Prevention 
(OJJDP) provides funding to organizations to implement programs whose 
purpose is to increase the capacity of communities nationwide to 
respond to incidents of missing and exploited children. These programs 
include:
  --Missing and Exploited Children's Training and Technical Assistance 
        program
  --National AMBER Alert Training and Technical Assistance Program
  --National Center for Missing and Exploited Children
  --Internet Crimes Against Children Task Force Program
    At this time, OJJDP does not anticipate offering additional 
competitive funding opportunities in fiscal year 2018 specifically 
related to comprehensive search and rescue efforts for missing 
children. In fiscal year 2018, OJJDP will continue to support the above 
programs, which continue to work diligently to respond to such 
incidents and provide critical recovery services for child victims. 
Furthermore, OJJDP will continue to engage in program planning annually 
and will consider your recommendation to issue a funding opportunity to 
enhance recovery efforts of missing and abducted children.
                  voting rights and voter suppression
    Question 21(a). After your nomination hearing in March, I submitted 
a number of questions to you about voting rights and voter fraud. 
Specifically, I asked if you believe there is credible evidence that 
over 2.5 million people voted illegally in the last election, and I 
asked what steps you would take to ensure strong voting rights 
enforcement continues. You responded to the first question that you 
were ``not aware of the context or basis for the [President's] remarks 
and therefore [you were] not in a position to comment.'' You also 
pledged to ``fairly, effectively and appropriately enforce voting 
rights laws and other laws within the Department's jurisdiction.''
    a.  Are you now in a position to comment on whether there is 
credible evidence that over 2.5 million people voted illegally in the 
last election?
    Answer. I am not aware of the basis for the remarks and therefore 
am not in a position to comment.
    The Department has a process for receiving and reviewing 
allegations of any potential violations of Federal laws related to 
voting, including in years in which a Federal general election occurs. 
This process considers all allegations that implicate Federal criminal 
laws, including those that prohibit election fraud, and Federal civil 
laws that protect voting rights, among other allegations of potential 
violations of Federal election laws. The Department has maintained this 
process for many years and will continue to do so. The Department will 
review and consider all allegations of Federal law violations for the 
2016 elections and all other elections according to its usual process. 
It will make decisions based solely on the facts and the law.
    Question 21(b). If not, will you commit to obtaining the 
information that you need to answer this question and to doing so by 
July 31, 2017?
    Answer. Please see the response to question 21(a).
    Question 21(c). Since becoming Deputy Attorney General, what steps 
have you taken to ensure that strong voting rights enforcement has 
continued?
    Answer. The Department remains committed to enforcement of the 
Voting Rights Act and the other Federal voting rights laws. This work 
has been a critical law enforcement function of the Department for 
decades and continues to be a priority. The Department will continue to 
use every tool available to it to ensure that all Americans can 
exercise their right to vote free from discrimination.
    Question 21(d). In the time since you submitted your responses to 
my questions on voting rights, President Trump has established a 
Presidential Advisory Commission on Election Integrity. The 
administration claims the purpose of this Commission is ``to promote 
fair and honest Federal elections.'' The Department also released a 
Fiscal Year 2018 Budget and Performance Summary. The ``fiscal year 2018 
Strategy'' for the Civil Rights Division states the following with 
respect to voting rights: ``The Department will continue to protect 
voting rights through efforts to detect and investigate voting 
practices that violate Federal laws, through affirmative litigation to 
enjoin such practices, and through the monitoring of elections all 
throughout the country each year.'' The fiscal year 2018 Strategy makes 
no reference to investigating allegations of voter suppression or to 
ensuring that all of those eligible to vote are not disenfranchised.
    Were you consulted by President Trump or anyone in the Trump 
administration about the establishment of the Presidential Advisory 
Commission on Election Integrity?
    Answer. No.
    Question 21(e). In light of the Justice Department's resources and 
expertise, do you believe that this Commission is necessary ``to 
promote fair and honest Federal elections''?
    Answer. The Department of Justice is committed to enforcing all 
Federal voting rights laws, including the Voting Rights Act, and to 
ensuring that the rights of every American are respected.
    Question 21(f). What role did you play in drafting the fiscal year 
2018 Strategy for the Civil Rights Division?
    Answer. The Fiscal Year 2018 Strategy for the Civil Rights Division 
was developed through the Department's usual budget formulation 
process. The Department's Fiscal Year 2018 Strategy for the Civil 
Rights Division and the Department's enforcement priorities have not 
excluded any violations of the Federal voting rights laws from the 
scope of its enforcement. Whenever warranted by the facts and the law, 
we will use all legal authorities at the Department's disposal to stand 
against disenfranchisement and to safeguard the right of every American 
to register to vote and to cast a ballot.
    Question 21(g). What role did Rachel Brand play in drafting the 
fiscal year 2018 Strategy for the Civil Rights Division?
    Answer. As noted above, the fiscal year 2018 Strategy for the Civil 
Rights Division was developed through the Department's usual budget 
formulation process.
    Question 21(h). What will the Civil Rights Division do to 
investigate allegations of voter suppression?
    Answer. The Department will continue to investigate all credible 
allegations it receives of violations of the Federal voting rights 
laws, and will continue to undertake its own efforts to identify and 
resolve violations of the Federal voting rights laws around the 
country.
    Question 21(i). What will the Civil Rights Division do to ensure 
that all of those eligible to vote are not disenfranchised?
    Answer. The Department will continue to use every tool available to 
it to ensure that all Americans can exercise their right to vote free 
from discrimination. Whenever warranted by the facts and the law, the 
Department will continue to use all legal authorities at its disposal 
to stand against disenfranchisement and to safeguard the right of every 
American to register to vote and to cast a ballot.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question 1. During his January 10 confirmation hearing, Attorney 
General Jeff Sessions stated that he would recuse himself from any 
matters involving the investigation into Secretary Clinton's email 
server. A transcript of the hearing is available at http://www.cq.com/
doc/congressionaltranscripts-5017061?1&search=VDHx
VWc4.
    a.  Are you aware of Attorney General Sessions' recusal regarding 
any matters involving the investigation into former Secretary Clinton's 
email server?
    b.  When did that recusal become effective?
    c.   What is the scope of Attorney General Sessions' recusal 
regarding any matters involving the investigation into former Secretary 
Clinton's email server?
    Answer. On March 2, 2017, Attorney General Sessions announced that 
he had decided to recuse himself from any existing or future 
investigations of any matters related in any way to the campaigns for 
President of the United States.
    Question 2. The Trump administration's original stated reason for 
removing Director Comey was his conduct relating to the Clinton email 
investigation. Why did Attorney General Sessions participate in this 
matter when he told Congress he would recuse himself?
    Answer. Attorney General Sessions did not recuse himself from 
removing the FBI Director.
    Question 3. Are you aware of any actions by the Attorney General 
that would suggest participation in matters from which he is recused?
    Answer. No.
    Question 4. Has the Department of Justice assessed the longer-term 
budgetary impacts of forcing prosecutors to charge even low-level 
offenders with the most serious offense possible?
    Answer. The Department of Justice (Department) regularly assesses 
the budgetary impacts of its activities and funding resources, 
including the budgets of its litigating divisions, U.S. Attorney's 
Offices and the Federal Bureau of Prisons. I support the enforcement of 
all Federal criminal statutes in a manner that efficiently utilizes the 
Department's resources to address the most significant threats to 
public health and safety.
    Question 5. How does the Department of Justice's fiscal year 2018 
budget address the new charging policy's increased burdens on the 
courts, prisons, staffing, and reentry?
    Answer. The Department's fiscal year 2018 budget proposal totals 
$27.7 billion to support the Federal law enforcement and criminal 
justice priorities of our State, local and Tribal law enforcement 
partners. The request represents a comprehensive investment in the 
Justice mission. The Department is dedicated to advancing the safety, 
the security, and the rights of all Americans.
    Question 6. During your time as United States Attorney for 
Maryland, how many times did you directly speak with the President of 
the United States? If conversations occurred, what did you discuss 
during those conversations?
    Answer. I met President Bush and President Obama several times at 
public events and at gatherings of government officials.
    Question 7. Since being confirmed as Deputy Attorney General, how 
many times have you had private, one-on-one conversations with 
President Trump, in person or over the phone? If conversations 
occurred, what did you discuss during those conversations?
    Answer. It would not be appropriate for me to disclose or describe 
any communications I may have had with the President.
    Question 8. In my questions for the record during your confirmation 
hearing, I asked if it was ever appropriate for the President or 
another White House official to contact the Department of Justice or 
the FBI with instructions on how to conduct an ongoing criminal 
investigation. You answered,
        ``Any contacts from the President or the White House must 
        comply with Department policies, including a 2009 memorandum by 
        Attorney General Eric Holder. It would be my responsibility to 
        ensure that investigations comply with Department policies, and 
        that partisan considerations do not influence the handling of 
        particular cases.''
    Director Comey testified before the Intelligence Committee that he 
believed President Trump directed him to stop the FBI's ongoing 
investigation into General Michael Flynn. What have you done to ensure 
that the President's actions do not influence ongoing cases?
    Answer. I am not aware of any such improper influence during my 
tenure as Deputy Attorney General.
    Question 9. In my questions for the record during your confirmation 
hearing, I asked how you would ensure that there is no political 
interference with regard to any investigation into Russian 
interference. You answered, ``I will follow and enforce applicable 
policies and procedures prohibiting political interference.'' Please 
detail what procedures you are following and enforcing.
    Answer. On May 17, 2017, I appointed Robert S. Mueller III to serve 
as Special Counsel to oversee the previously confirmed FBI 
investigation of Russian Government efforts to influence the 2016 
presidential election and related matters. In addition, the Department 
continues to abide by the referenced policy regarding contacts with the 
White House.
    Question 10. How has the Department of Justice implemented and 
enforced the Death in Custody Reporting Act and the FBI National Use of 
Force database?
    Answer. Following the enactment of the Death in Custody Reporting 
Act (DCRA) in 2000, the Bureau of Justice Statistics (BJS) developed 
three programs to collect data on deaths in prisons, jails, and local 
law enforcement agencies using its base budget:
    1.  Deaths in Custody Reporting Program--Jails (DCRP-Jails) in 
2000;
    2.  Deaths in Custody Reporting Program--Prisons (DCRP-Prisons) in 
2001; and
    3.  Arrest-Related Deaths (ARD) in 2001.
    Likewise, BJS has collected data for publication from State 
Statistical Analysis Centers (for ARD data), local jails, and State 
departments of corrections; however, BJS collections are voluntary.
    When DCRA was reauthorized in 2014 and connected to Byrne Justice 
Assistance Grants (JAG), the reauthorization added:
  --Discretionary penalties for States' non-compliance;
  --Requirements for Federal law enforcement agencies to report on 
        deaths in custody; and a
  --Requirement for the Attorney General to report to Congress.
    The enforcement of the DCRA JAG penalty provision is discretionary, 
but if the Department of Justice did enforce it to encourage reporting 
at the State level, it would require the Bureau of Justice Assistance 
(BJA) to take over full DCRA data collections (ARD, State prisons, and 
local jails) after the 2017 calendar year, because, as a Federal 
statistical agency, BJS cannot enforce any penalty for non-compliance. 
The Department is still assessing the most appropriate way forward to 
enforce both the spirit and letter of DCRA.
    The National Use-of-Force Data Collection is managed by the FBI's 
Uniform Crime Reporting (UCR) Program. The UCR Program collects 
information regarding law enforcement's use of force resulting in the 
death or serious bodily injury of a person, or when law enforcement 
discharges a firearm at or in the direction of a person. The UCR 
Program does not collect information on deaths in custody attributable 
to suicide, accidents, or natural causes. In addition, the National 
Use-of-Force Data Collection does not obtain information from 
correctional facilities. Due to these two factors, the National Use-of-
Force Data Collection cannot be used for complete reporting of 
information as required under DCRA.
    As an FBI Director's Priority Initiative (DPI) focused on crime 
data modernization, the FBI worked with the Department, representatives 
from major law enforcement organizations, and local, State, Tribal, and 
Federal agency representatives to develop the content of this new data 
collection initiative. The DPI developed a solution, which allows law 
enforcement agencies to participate in the data collection with minimal 
costs, as agencies only require a computer and an Internet connection 
to report data to an FBI portal.
    On June 7, 2017, the National Use-of-Force Data Collection pilot 
project was authorized by the Department and the Office of Management 
and Budget. The pilot project officially commenced on July 1, 2017, and 
will end on December 31, 2017. The focus of the pilot project will be 
on data completeness and data quality. By collecting statistical 
information and obtaining feedback from a targeted group of law 
enforcement agencies, the FBI will be able to strengthen the guidance 
and instructions provided on the questionnaire, as well as make 
adjustments to the questionnaire itself before an anticipated full 
deployment in early 2018.
    Question 11(a). Then-President-elect Trump claimed that millions of 
people voted illegally in the presidential election.
    a.  Do you believe there should be an investigation into alleged 
instances of voter fraud in the 2016 presidential election?
    Answer. The Department has a process for receiving and reviewing 
allegations of any potential violations of Federal laws related to 
voting. The process considers all allegations that implicate Federal 
criminal laws, including those that prohibit election fraud, and 
Federal civil laws that protect voting rights, among other allegations 
of potential violations of Federal election laws. The Department has 
maintained this process for many years and will continue to do so. The 
Department will review and consider all allegations of Federal law 
violations for the 2016 election and all other elections according to 
its usual process. It will make decisions based solely on the facts and 
the law.
    Question 11(b). If so, on what information do you base that belief?
    Answer. As noted above, the Department will continue to review any 
election-related allegations according to its usual process.
    Question 11(c). Has the Department of Justice fiscal year 2018 
budget requested additional resources, above the fiscal year 2017 
budget for the enforcement of election laws?
    Answer. The Department of Justice failed to provide the Committee 
with a response to this question by the time the record was closed, 
which was 125 days after the Department originally received the 
question and 95 days after the Committee's requested deadline for a 
response.
    Question 12. The FBI reported that hate crimes targeting Muslims 
increased by 67 percent in 2015. What resources has the Department of 
Justice relied upon to address rapid, documented increases in crimes?
    Answer. The Department is committed to making communities safe for 
all Americans. During the Hate Crimes Summit in June, the Attorney 
General told those gathered: ``As long as I am Attorney General, the 
Department of Justice will continue to protect the civil rights of all 
Americans--and we will not tolerate the targeting of any community in 
our country.'' To carry out this commitment to combat violent crime and 
restore public safety, in February the Department established the Task 
Force on Crime Reduction and Public Safety. In March, the Attorney 
General issued a memo to all Federal prosecutors, making clear that 
prosecuting violent criminals is a high priority, and directing them to 
work closely with their Federal, State, local and Tribal law 
enforcement partners to target the most violent offenders in each 
district. Since the summer of 2017, the Civil Rights Division has 
assigned 12 additional attorneys to its Criminal Section, which handles 
hate crimes. And in fiscal year 2017, the Department indicted 23 
defendants involved in committing hate crimes, and obtained (either 
through plea or after trial) convictions of 21 defendants involved in 
committing hate crimes. Thus, hate crimes are a priority.
    With regard to combating hate crimes against the Muslim community 
in particular, the Civil Rights Division has undertaken a number of 
steps. Its Criminal Section has a dedicated prosecutor who serves as a 
contact point with the Department to identify, collect, and track 
possible hate crimes against Muslim-Americans, as well as against Arab, 
Sikh, South Asian, and Hindu-Americans. The Civil Rights Division 
engages in regular outreach to Muslim communities to encourage 
reporting of hate crimes, educate communities about hate crimes, and 
address other civil rights issues. Recent cases include charges against 
two men on September 28, 2017, for allegedly vandalizing a mosque in 
Tennessee, a guilty plea on October 19, 2017, by a Florida man for 
making a telephonic threat to members of a mosque, and an indictment of 
a man on June 22, 2017, for the alleged arson of a mosque in Texas.
    Question 13. As you know, the Legal Orientation Program (LOP) at 
the Executive Office for Immigration Review (EOIR) provides services to 
individuals detained in removal proceedings to educate them about the 
immigration process and their rights and responsibilities. A 2012 EOIR 
report to the Senate Appropriations Committee shows that LOP 
participants moved through immigration court 12 days faster on average 
than detained persons who did not participate in the program. 
Immigration and Customs Enforcement saved an average of $677 in 
detention costs for each LOP participant. Given the increases sought by 
the administration for expanding deportation and immigration 
enforcement, the Department must ensure that LOP is adequately 
resourced to handle the additional numbers of detained individuals so 
that their cases are handled as fairly and efficiently as possible.
    What is the Department's plan to ensure the projected additional 
detainees have adequate access to legal services, or at least as much 
access as they currently have?
    Answer. Since 2003, the Executive Office for Immigration Review 
(EOIR) has maintained a Legal Orientation Program (LOP). Under the LOP, 
EOIR contracts with nonprofit organizations to provide group and 
individual orientations, self-help workshops, and pro bono referral 
services for detained individuals in removal proceedings. LOP's primary 
focus is on detention centers; the Program is operational in 39 
Immigration and Customs Enforcement (ICE) detention centers (including 
three ICE family residential centers).
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question 1. What is the scope of Attorney General (AG) Sessions' 
recusal? What matters is he allowed to be involved in? Please be as 
specific as possible.
    Answer. On March 2, 2017, Attorney General Sessions announced that 
he had decided to recuse himself from any existing or future 
investigations of any matters related in any way to the campaigns for 
President of the United States.
    Question 2. Who determines what matters the AG is allowed to be 
involved in?
    Answer. I and the Department components that might have relevant 
information pertaining to those matters that are within the scope of 
the Attorney General's recusal are aware of the scope of the recusal 
and will not involve the Attorney General in a matter from which he is 
recused.
    Question 3. What procedures are in place to ensure that the AG is 
excluded from matters within the scope of his recusal?
    Answer. Contemporaneously with the Attorney General's recusal, his 
Chief of Staff sent an e-mail to relevant Department components 
directing them not to brief or otherwise involve the Attorney General 
or other officials in the Office of the Attorney General about the 
matters from which the Attorney General recused himself.
    Question 4. In the event that a matter were to reach the AG that 
falls within the scope of his recusal, what are the procedures for 
correcting the issue and maintaining the independence of the 
investigation?
    Answer. It is unlikely that a matter from which the AG is recused 
would reach him, but he and his staff are aware of the scope of his 
recusal, and I am confident the AG would take no action on the matter.
    Question 5. What are the procedures for monitoring the AG's 
compliance with his recusal for matters that may reach him outside the 
proper channels at the Department of Justice (DOJ)?
    Answer. The AG is assisted in complying with his recusal 
requirements by consulting with career officials, including career 
ethics officials.
    Question 6. Is the AG recused from all matters that are currently 
or will be under investigation by the special counsel?
    Answer. The Special Counsel reports to me as the Acting Attorney 
General.
    Question 7. Do you commit to informing Congress in the event that 
the recusal is breached?
    Answer. It is generally not appropriate to make commitments based 
on hypothetical scenarios.
    Question 8. Are there staff that work for AG Sessions who are also 
recused from any investigation related to the presidential election?
    Answer. See response to question 3.
    Question 9. How will their recusal be overseen and enforced?
    Answer. See response to question 3.
    Question 10. Will AG Sessions continue to have managerial 
responsibilities over attorneys, staff, or other officials within DOJ 
who are or will work on investigations from which the AG has recused?
    Answer. I am the Acting Attorney General for purposes of the 
matters from which the Attorney General has recused.
    Question 11. Has anyone from DOJ informed the president and his 
staff about proper procedures for their communications with the AG and 
his staff to ensure compliance with the recusal?
    Answer. The Attorney General issued a press release 
contemporaneously with his recusal and held a press conference 
regarding it.
                                 ______
                                 
            Questions Submitted by Senator Joe Manchin, III
                 alcohol, tobacco and firearms facility
    Question 1(a). In my State of West Virginia, we have facilities in 
Martinsburg at which the Bureau of Alcohol, Tobacco, and Firearms 
conducts most of its firearms licensing and tracing work. The facility 
is currently understaffed, and once-routine operations can currently 
take several months to complete because the demand far exceeds the 
manpower of the staff.
    We are concerned that the administration's budget will not provide 
the staffing that ATF needs to succeed. This isn't good for the agency 
and it isn't good for gun owners, who have an expectation that their 
requests will be processed reasonably quickly.
    a.  Is the Department committed to giving the ATF the tools and 
funding it needs to process the requests of law abiding gun owners?
    Answer. Yes, the Department is committed to ATF's mission and its 
needs at the National Firearms Act (NFA) Division. ATF's fiscal year 
2018 budget request included additional funding to assist in expediting 
the processing of NFA applications. For NFA operations beyond fiscal 
year 2018, ATF has identified information technology and space resource 
requirements necessary for timely and efficient processing of NFA 
applications.
    Question 1(b). How does the Department plan to cut down on the 
unreasonable wait time for license processing?
    Answer. The President's fiscal year 2018 Budget includes an ATF 
program increase of $4,000,000 to expedite the processing of NFA 
applications. In the interim, ATF has taken several steps to address 
the high volume of pending NFA applications and elevated processing 
times. ATF has redirected resources from other program areas to support 
critical staffing needs of NFA. It realigned financial resources to 
support both government employees' and contract staff overtime efforts 
in the processing of NFA applications. It temporarily redirected 
resources to support the processing of NFA applications, and initiated 
a business process re-engineering effort to further evaluate and 
identify workflow efficiencies and needed technological improvements.
              second chance act/offender reentry programs
    Question 2(a). I've introduced a bill called the Clean Start Act 
that seeks to help former addicts with criminal records seal those 
records if they complete a comprehensive addiction treatment program 
and show that they have turned their lives around. While I believe that 
the Federal Government must lead the way in helping low level, 
nonviolent offenders get back to work, the bulk of these addicts are 
prosecuted at the State level, which is why funding for State Second 
Chance programs is so important.
    Just this year, West Virginia enacted its own version of the Second 
Chance Act and I look forward to seeing it implemented. As the opioid 
epidemic continues to take its toll in my State and others, we have an 
ever-increasing number of men and women who face severely limited job 
opportunities after serving their time for crimes committed as a result 
of addiction.
    a.  What can you tell us about the administration's commitment to 
helping former offenders re-join the workforce and once again become 
responsible taxpayers?
    Answer. The Second Chance Act program improves public safety by 
helping individuals returning from prison or jail successfully 
reintegrate into the community, thus reducing rates of criminal 
recidivism. It provides grants to help State, local, and Tribal 
corrections and public safety agencies implement and improve a variety 
of reentry services including housing, educational and employment 
assistance, mentoring relationships, mental health services, substance 
abuse treatment services, and family-support services.
    Question 2(b). What programs and initiatives does the Department 
believe will be most effective in preventing recidivism among first 
time offenders?
    Answer. The Department supports an evidence-based approach to 
corrections and reentry. Through Second Chance grant funding and 
technical assistance, the Department emphasizes the use of risk and 
needs assessments to determine appropriate supervision levels for each 
released offender. The Department also promotes reentry programming 
that assesses the risk posed by each offender and addresses his or her 
behavioral needs.
                                 gangs
    Question 3(a). Gangs, including the notorious MS-13, have increased 
their activity in recent months and are now operating out of almost 
every State, including rural states such as West Virginia.
    a.  What can Congress do to best support the Department in its 
efforts to crack down on gang activity and street crime?
    Answer. Congress can support these efforts by fully funding our 
budget requests for additional prosecutors, programming, and resources.
    Question 3(b). What can you tell us about how your FBI agents and 
prosecutors intend to identify, catch, and prosecute violent gang 
members and prevent gangs from gaining resources and territory?
    Answer. For decades, the FBI has successfully investigated violent 
criminal groups by focusing on intelligence-driven investigations and 
using the Enterprise Theory of Investigation (ETI). There are several 
components the FBI utilizes to make this strategy work, including:
  --Safe Streets Gang Task Forces/Transnational Anti-Gang Teams 
        (TAG).--These teams seek to reduce violent and gang-related 
        crime by identifying, prioritizing, targeting, investigating 
        and deterring the most violent and dangerous criminal 
        offenders.
  --National Gang Intelligence Center (NGIC).--The NGIC is a multi-
        agency information sharing entity that provides intelligence 
        support to law enforcement agencies through timely and accurate 
        information sharing on gang migration, criminal activity, and 
        associations. A primary focus of the NGIC is to prioritize 
        gangs that pose a significant threat to communities throughout 
        the United States.
  --OCDETF Fusion Center (OFC).--The OFC is a multi-agency operational 
        intelligence center that provides law enforcement with 
        analytical resources, case de-confliction, and information 
        sharing to develop the most complete intelligence picture of 
        targeted drug trafficking organizations and other complex 
        criminal organizations.
  --Transnational Organized Crime (TOC) Watchlist.--The TOC Watchlist 
        is an actor centered database operated in conjunction with the 
        Terrorist Screening Center (TSC). Known MS-13 members can be 
        entered into the Watchlist to assist investigators in tracking 
        travel patterns of their known subjects in and out of the 
        United States.
  --Violent Incident Crime Reduction Strategy (VIC-Red).--The VIC-Red 
        is a new initiative to leverage intelligence, operations, law 
        enforcement partnerships and community resources in an effort 
        to reduce violent crime.
    While these are only a few of the initiatives the FBI utilizes in 
addressing the threat posed by gangs, these programs have proven 
successful. In the past year (June 2016--June 2017), the FBI arrested 
over 15,000 individuals related to violent crime and gangs, took part 
in 215 dismantlements, disrupted almost 1,600 gangs, and recovered 
almost 5,000 weapons.
    Question 3(c). Do you believe that existing DOJ programs and 
prosecution tools will be sufficient to push back the increase in gang 
activity or are new programs and tools required?
    Answer. In its fiscal year 2018 budget request, the Department has 
requested an overall $198.5M enhancement to further the priority of 
combating violent crime, which includes an additional $19 million for 
230 AUSA positions. This request will meet the Department's resource 
needs to thwart gang activity by increasing the number of violent crime 
prosecutors needed to target and prosecute gang members who drive much 
of the violence menacing communities. The additional positions will 
also help leverage the United States Attorneys' ability to convene 
Federal, State, and local law enforcement to improve public safety. 
These prosecutors will combat all types of violent crime, including 
gang violence, through comprehensive strategies involving vigorous 
prosecution and prevention efforts. Resources will be provided to the 
offices with the highest demonstrated need in areas that are necessary 
to accomplish the objectives of reducing violent crime and gang 
activity.
    In addition, the Department's budget request seeks to reinvigorate 
Project Safe Neighborhoods (PSN) by asking for $70 million for a new 
Project Safe Neighborhoods (PSN) block grant program. Since 2001, PSN 
has been the Department's primary initiative to combat gun and gang 
violence. Initially, PSN focused on Federal firearms offenders, but the 
Department expanded the program in 2006 to address violent street 
gangs. The current PSN strategy focuses on both the eradication of 
illegal firearms and the interdiction of violent gang activity. Each 
United States Attorney's Office (USAO) is responsible for appointing a 
PSN Coordinator (usually a seasoned violent-crime Assistant United 
States Attorney) and developing a PSN/anti-violence strategy that 
addresses PSN's five objectives: (1) increased Federal and local 
partnerships; (2) strategic planning, including proactive plans for 
crime prevention and using research partners; (3) training for local 
law enforcement; (4) increased local outreach; and (5) accountability, 
as measured by a reduction in violent crime. PSN grants provide support 
to local law enforcement authorities, outreach-and-prevention 
providers, and researchers to implement the USAO-led district PSN 
strategy. A 2009 Michigan State University study showed that when the 
PSN strategy was faithfully implemented in a target jurisdiction, it 
resulted in significant violent-crime decreases. While PSN has remained 
an operative national strategy, annual funding for the PSN program 
declined substantially over the last 8 years, resulting in many 
districts not receiving any funding and in inconsistent implementation 
among the 94 Federal districts. The requested increased budget support 
for PSN--a proven violence-reduction strategy--would set the Department 
on a course to roll back recent increases in violent crime and gang 
activity.
    The Organized Crime Drug Enforcement Task Forces (OCDETF) is 
another Department component that plays a significant role in reducing 
gang activity. OCDETF targets major street gangs and transnational 
criminal gangs through multi-agency/multi-jurisdictional partnership 
and coordination among prosecutors and Federal, State, local, and 
Tribal law enforcement agencies to effectively target each gang as a 
criminal enterprise. As a matter of course, OCDETF investigations 
target gangs that engage in violence or weapons trafficking in the 
course of producing or distributing illegal drugs in multiple judicial 
districts or localities. Even if a violent gang distributes only small 
amounts of illegal drugs in a single judicial district or locality, 
OCDETF designation is appropriate if the investigation intends to work 
up the chain to the gang's source of supply. OCDETF designation is also 
appropriate for investigations against violent criminal organizations 
or gangs that may not yet have a demonstrated potential to link to 
components and/or facilitators of regional, nationwide, or 
transnational criminal organizations, but are actively engaged in 
violence and produce or distribute large amounts of illegal drugs in 
multiple judicial districts or localities.
    Since its inception in 1982, OCDETF has targeted more than 1,000 
gangs nationwide. OCDETF also keeps a single, interagency list of the 
most significant criminal organizations operating in or impacting each 
of OCDETF's nine Regions. These are designated as Regional Priority 
Organization Targets (RPOTs). More than 12 percent of the RPOTs on the 
fiscal year 2017 OCDETF RPOT List are well-known national and 
transnational gangs, such as the Black Mafia Family, Bloods, Gangster 
Disciples, Hells Angels, Insane Spanish Cobras, Latin Kings, Mexican 
Mafia, Nuestra Familia, Surenos, and Vice Lords.
    In the last two and one-half fiscal years, OCDETF initiated 535 
gang cases, or 22.3 percent of the cases initiated during that time 
period. In the first 6 months of fiscal year 2017, OCDETF initiated 138 
gang cases, or 28.6 percent of the total new caseload for the year. 
Currently OCDETF reporting shows that 19.2 percent of its active 
caseload (877 cases) involves gangs. After a review conducted in April 
2017, 43 OCDETF cases were identified as involving MS-13 specifically.
    Three of the nine OCDETF Regions--Great Lakes, Mid-Atlantic, and 
New York/New Jersey--have had Regional Gang Strategic Initiatives for a 
number of years. During the first 6 months of fiscal year 2017, these 
three Regional Gang Strategic Initiatives yielded 40 new OCDETF gang 
cases, along with 223 defendants indicted and 226 defendants convicted 
in cases initiated in previous years. Further, on July 6, 2017, the 
OCDETF Director signed a new OCDETF National Gang Strategic Initiative 
to support OCDETF field components in their efforts to address criminal 
gangs. This National Gang Strategic Initiative provides programmatic 
support and seed money for OCDETF components to exploit the 
vulnerabilities of violent gangs through targeted initiatives designed 
to develop information and evidence on gang criminal activity in 
investigations that are intended to reach the OCDETF level but have not 
yet done so. By learning and developing best practices, sharing 
information, and linking and de-conflicting lower level investigations, 
participants are more likely to develop new investigations suitable for 
OCDETF designation. Additionally, the increased agency focus on 
criminal gangs, and the resulting OCDETF and non-OCDETF investigations, 
will have a greater impact in disrupting and dismantling gang-related 
violence and other criminal activity throughout the country.
                  the fbi/cjis facility in clarksburg
    Question 4. In my State of West Virginia, we have facilities in 
Clarksburg at which the FBI conducts much of its work in running 
background checks, evaluating evidence, and identifying leads in 
criminal investigations. These facilities are part of the FBI's 
Criminal Justice Information Services division, known as CJIS.
    CJIS supports its work primarily through user fee collections. In 
this year's budget, a rescission was implemented regarding CJIS's 
ability to access these user fees to fund improvements to their 
technology (per the GAO definition, a rescission cancels the 
availability of budget authority previously enacted before the 
authority would otherwise expire.). CJIS facilities have not kept up 
with advances in technology, and we are concerned that this rescission 
will hamper the FBI's ability to conduct searches of its databases and 
more quickly identify dangerous suspects.
    We'd be interested in learning more about the Department's plan for 
modernizing the CJIS system, specifically the purpose behind diverting 
user fees away from CJIS system modernization.
    Answer. The Department will continue to work with the FBI and its 
CJIS Division to ensure that no services will be impacted by the 
cancellation of unobligated balances and that no critical upgrades and 
enhancements are forgone. Some of the planned IT modernization 
activities include (1) the enhancement of Combined DNS Index System 
(CODIS) to handle rapid DNA and other new capabilities, (2) development 
of tools to process large volumes of video and photographic evidence; 
and (3) modernization of crime data reporting through the National 
Incident-Based Reporting System (NIBRS).
           prison rape elimination act (prea) implementation
    Question 5. In the Senate, Attorney General Sessions was 
instrumental in the passage of the Prison Rape Elimination Act of 2003, 
and the President's fiscal year 2018 budget request proposes a $5 
million increase for grants to support PREA implementation. In the 
Department's budget documents, it mentions continuing Federal research 
into prison rape, funding the great work of the National PREA Resource 
Center, and providing grants to local agencies to work toward 
compliance. I'm proud of the fact that the West Virginia statewide 
Regional Jail Authority fully implemented PREA, and did so with the 
support of a Federal demonstration grant.
    Can you tell us whether some of the PREA funding should be used to 
restart these PREA Demonstration Grants to states, which had been 
suspended for the last 2 years due to insufficient funds?
    Answer. The $15.5 million requested for the Prison Rape Elimination 
Act (PREA) program in fiscal year 2018 will provide vital support for 
all of the Department's ongoing obligations related to PREA 
implementation. The request will support new PREA requirements 
established in the Justice For All Reauthorization Act (JFARA) of 2016, 
such as a requirement for the Department to collect all past and 
current PREA audit reports from the Nation's governors and make them 
publicly available online. This funding will also support data 
collection and statistical analysis on sexual assault in detention 
facilities; the work of the National PREA Resource Center; and 
continuing implementation and enhancement of the PREA audit process.
    The Office of Justice Programs (OJP) recognizes the need to provide 
adequate funding to support all aspects of the Department's PREA-
related responsibilities. OJP is prioritizing support for the PREA 
Demonstration Grants program, which supports local PREA implementation 
efforts, in fiscal year 2018. The additional resources requested for 
the PREA Program as part of the fiscal year 2018 budget request are an 
essential part of OJP's efforts to ensure that implementation efforts 
are appropriately funded.
                 comprehensive school safety initiative
    Question 6. We created the Comprehensive School Safety Initiative 
(CSSI) a few years ago as a response to the Sandy Hook Promise 
Elementary school shooting tragedy. The purpose of this initiative is 
to research and implement innovative school safety programs to increase 
the safety of our children within their schools.
    The initiative has resulted in an FBI and Secret Service-based 
school threat assessment and intervention program that trains schools 
to regularly identify threats, investigate and determine if a threat is 
serious, and intervene to prevent future tragedies. This program has 
already prevented school shootings and suicides within schools across 
the Nation, preventing a school shooting as recently as this past 
January.
    Given that the President's budget cuts funding for CSSI in half, 
what other programs will the Department of Justice fund and implement 
to increase safety in our schools, including the use of school threat 
assessment?
    Answer. The Department is proud of the work that has been done 
under the Comprehensive School Safety Initiative (CSSI), which is 
administered by the National Institute of Justice (NIJ). Since its 
inception in fiscal year 2014, the program has launched 72 competitive 
grant-funded projects in 33 states (plus the District of Columbia and 
Puerto Rico). All projects are research-focused and 85 percent of CSSI 
funding supports projects that rigorously evaluate school safety 
interventions such as the threat assessment efforts mentioned. CSSI-
funded school safety interventions are being tested in over 2,700 
schools nationwide.
    While these research-focused projects are promising, they have 
project periods that range from three to 5 years, and as such, have not 
yet produced their final results. Close to $300 million is actively 
invested in this program to date to increase the safety of children in 
schools. The President's fiscal year 2018 Budget acknowledges this 
considerable investment and recognizes that, to make the best use of 
Federal resources, we should wait for the results of current projects 
to determine the best use of future funds.
       bureau of prisons staffing and correctional officer safety
    Question 7(a). West Virginia houses several Federal prisons, 
including FCI Beckley, FCI Gilmer, FCI Hazelton, FCI McDowell, FCI 
Morgantown, and USP Hazelton. Correctional officers who work at these 
prisons place their lives on the line to protect public safety, and I 
am proud of the work that they do.
    Over the past year, I have heard disturbing reports of 
understaffing at Federal prisons in West Virginia and across the 
country that have left correctional officers vulnerable to attack by 
the inmates in their charge. My concern was heightened when I learned 
that the Department of Justice plans to maintain a hiring freeze for 
the Bureau of Prisons--even though the administration has specifically 
exempted from the scope of the hiring freeze all positions that protect 
the public safety.
    a.  Can you tell us why the Department does not believe that the 
positions of Bureau of Prisons correctional officers are positions that 
protect the public safety? Does the Department plan to revisit this 
determination at any time?
    Answer. In accordance with the President's Hiring Freeze memorandum 
and Attorney General's guidance, the Department has limited its hiring 
exemptions to the positions required to accomplish our national 
security and public safety responsibilities. In the case of the Bureau 
of Prisons, the Department is permitting hiring capped at the staffing 
level existing on January 22, 2017. Within that overall level of 
staffing, the Bureau of Prisons (BOP) has flexibility to hire the 
positions it deems most critical and at the locations it deems most 
critical. BOP will continue to closely monitor its staffing levels to 
ensure the continued safety and security of BOP employees, inmates, and 
the public.
    Question 7(b). Can you tell us about the Department's position on 
the use of augmentation? Does the Department believe that the use of 
augmentation is in line with its own goals for public safety and the 
safety of its correctional officers?
    Answer. All BOP staff assigned to correctional facilities are law 
enforcement officers and are considered correctional workers first, 
regardless of their occupation. Staff, including non-custody staff, are 
all trained accordingly and are expected to perform law enforcement 
functions as necessary. While augmentation is not a common practice 
because it is important for non-custody staff to perform the jobs for 
which they were hired, it is an option BOP employs as needed to ensure 
safety and security.
    Question 7(c). Does the Department have any immediate plans to 
nominate a permanent Director to oversee the Bureau of Prisons?
    Answer. On August 1, 2017, the Attorney General announced the 
selection of General Mark S. Inch as the Director of the Federal Bureau 
of Prisons.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
                            special counsel
    Question 1(a). 28 CFR Part 600.7, Conduct and Accountability, 
states that ``The Attorney General may remove a Special Counsel for 
misconduct, dereliction of duty, incapacity, conflict of interest, or 
for other good cause, including violation of Departmental policies.''
    a.  Do you believe that an order from the President to fire the 
Special Counsel constitutes ``good cause''?
    Answer. If there is not good cause, I would not fire the Special 
Counsel.
    Question 1(b). Do you believe that the Constitution implicitly 
grants sitting presidents immunity from criminal prosecution?
    Answer. The Department of Justice's Office of Legal Counsel reached 
that conclusion in a published opinion in 2000. See A Sitting 
President's Amenability to Indictment and Criminal Prosecution, 24 Op. 
O.L.C. 222 (2000). As that opinion explained, its conclusion was 
consistent with a 1973 opinion of the Office of Legal Counsel and with 
a brief that the Solicitor General filed in 1973 taking the position 
that the President, unlike the Vice President, could not be subjected 
to indictment and criminal prosecution while in office. I have no 
reason to disagree with this long-standing position of the Department.
    Question 1(c). Department of Justice regulations authorize the 
Attorney General to ``request that the Special Counsel provide an 
explanation for any investigative or prosecutorial step.'' How 
frequently will you ask the special counsel to report to you on his 
investigation? To what extent will you require the special counsel to 
coordinate with the Justice Department's National Security Division?
    Answer. I have an appropriate level of interaction with the Special 
Counsel's Office consistent with the regulations and will maintain 
sufficient documentation to ensure the ability to comply with the 
reporting requirement in 28 C.F.R. Sec. 600.9(a)(3) if that provision 
is implicated.
    Question 1(d). What will be the process for reporting the progress 
and results of the Special Counsel's investigation to Congress?
    Answer. See 28 C.F.R. Sec. 600.9.
    Question 1(e). Will you report to the Special Counsel any efforts 
by any member of the Trump administration to impede the investigation 
of the Special Counsel?
    Answer. I would notify the Special Counsel about any information 
relevant to his investigation.
    Question 1(f). Did you get any pressure from AG Sessions, McGahn, 
or anyone else not to appoint a special counsel?
    Answer. I did not discuss that issue with the Attorney General or 
Mr. McGahn.
    Question 1(g). Has President Trump--or any of his agents--asked you 
to fire Special Counsel Mueller?
    Answer. No.
                              james comey
    Question 2. In his testimony before the Senate Intelligence 
Committee last week, James Comey said he spoke to you and Attorney 
General Sessions about his ``serious concern about the way the 
president is interacting, especially with the FBI.'' Can you describe 
this conversation?
    Answer. Consistent with the Department's long-standing policy 
regarding the confidentiality of information relating to pending 
matters, I am not in a position to respond to your question.
     justice department policy re: conversations with the president
    Question 3. Attorney General Sessions has said that it is 
Department of Justice policy to not disclose to Congress private 
conversations with the President.
    a.  Can you provide this Committee a copy of this policy?
    b.  When was this policy adopted?
    c.   Who crafted this policy?
    d.  What were the factors considered when this policy was adopted 
by the Department of Justice?
    Answer. The Attorney General relied on longstanding executive 
branch policy and practice in declining to disclose the content of 
confidential communications with the President in response to questions 
during a voluntary appearance before a congressional committee. As the 
New York Times recognized after the Attorney General's testimony: 
``Previous Executive Branch officials of both parties have withheld 
information requested by Congress in the same manner.'' Charlie Savage, 
``On Executive Privilege and Sessions' Refusal to Answer Questions,'' 
N.Y. Times, June 16, 2017, at A18. That policy and practice has not 
been reduced to writing in a single Department of Justice policy 
document, but key underlying principles are stated in several executive 
branch policy and legal documents. President Reagan's 1982 memorandum 
about ``Procedures Governing Responses to Congressional Requests for 
Information'' said that ``executive privilege shall not be invoked 
without specific Presidential authorization,'' that ``[l]egitimate and 
appropriate claims of privilege should not thoughtlessly be waived,'' 
that executive privilege should be ``asserted only in the most 
compelling circumstances,'' and that a ``tradition of accommodation'' 
involving ``good faith negotiations between Congress and the Executive 
Branch'' should be ``the primary means of resolving conflicts between 
the Branches.'' A published opinion of the Department's Office of Legal 
Counsel from 1982 discusses the ``presumption of confidentiality 
accorded presidential communications'' and notes that ``[t]he President 
customarily reserves exclusively to himself the power to assert the 
claim of executive privilege against Congress.'' Confidentiality of the 
Attorney General's Communications in Counseling the President, 6 Op. 
O.L.C. 481, 483, 485 (1982). A subsequent published opinion explains 
that a dispute between the branches involving ``information of a 
sensitive nature'' typically begins ``with an informal oral or written 
request from a congressional committee,'' which may be followed by 
negotiations between the executive branch agency and the committee 
staff, and, if the dispute is not settled, by a subpoena, at which 
point, ``if further negotiation is unavailing, it is necessary to 
consider asking the President to assert executive privilege.'' 
Congressional Requests for Confidential Executive Branch Information, 
13 Op. O.L.C. 153, 161-162 (1989). As the Supreme Court has explained, 
the presidential communications privilege is ``fundamental to the 
operation of Government'' and ``necess[ary] for protection of the 
public interest'' because it ensures that the ``President and those who 
assist him'' are ``free to explore alternatives in the process of 
shaping policies and making decisions.'' United States v. Nixon, 418 
U.S. 683, 708 (1974). As a result, ``[t]he President can invoke the 
[presidential communications] privilege when asked to produce documents 
or other materials that reflect presidential decisionmaking and 
deliberations and that the President believes should remain 
confidential.'' In re Sealed Case, 121 F.3d 729, 744 (D.C. Cir. 1997).
                       your statement on june 15
    Question 4(a). On Thursday, June 15, 2017 you released a statement 
urging Americans to exercise caution regarding news stories and 
anonymous officials. This statement was released hours after a 
Washington Post article alleged that President Trump is now a target of 
Mueller's investigation.
    a.  Why did you release this statement?
    Answer. I released the statement because it is important to remind 
citizens that they should be cautious about accepting the veracity of 
statements attributed to anonymous ``officials'' whose credibility 
cannot possibly be evaluated by the reader.
    Question 4(b). Did you release this statement in reaction to and to 
counter the claims within the Washington Post article?
    Answer. I released the statement in reaction to the multitude of 
claims attributed to anonymous ``officials'' and persons allegedly 
``close to'' or ``familiar with'' Federal investigations. Such stories 
often are written to make it appear that the source is a Department of 
Justice employee, and without alerting readers that the story may be 
false, and the source may not even be an executive branch employee.
    Question 4(c). Did anyone from the Trump administration ask you to 
make this public statement?
    Answer. No.
    Question 4(d). Did you consult with anyone, including, Attorney 
General Sessions, before you released the statement?
    Answer. This statement, like all statements released by the Office 
of the Deputy Attorney General, was reviewed by appropriate personnel 
in the Office of the Deputy Attorney General and in the Office of 
Public Affairs before its release.
    Question 4(e). Why did you include the phrase ``they do not 
identify the country'' within the statement?
    Answer. The credibility of any source of information normally is 
assessed based on what details we know about the individual in order to 
evaluate, among other things, whether the individual is in a position 
to know the information attributed to the individual, whether the 
individual is usually truthful, and whether the individual is biased. 
When considering whether to believe what a person says--even when 
testifying under oath in court--factfinders consider detail relevant to 
credibility. Reporters are free to use any source they want, and they 
are free to obscure a source's true affiliation and degree of personal 
knowledge. There is no legal requirement that a reporter verify the 
background or credibility of a ``source,'' nor is there any legal 
requirement that a reporter truthfully describe the source so that 
readers can assess the credibility of the story for themselves. Absent 
details, a reader cannot know whether or not there is a credible and 
reliable source.
    Question 4(f). Do you have evidence that foreign actors are in 
fact, acting as anonymous sources?
    Answer. See response to question 4(e). My point is that when we do 
not know the source, we do not know the source.

                          SUBCOMMITTEE RECESS

    Senator Shelby. This subcommittee stands in recess until 
Thursday, June 29, at 10 a.m., when we will take the testimony 
of Acting NASA Administrator Robert Lightfoot.
    The subcommittee is adjourned.
    [Whereupon, at 12:14 p.m., Tuesday, June 13, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
June 29.]
</pre></body></html>
